<html>
<title> - THE EFFECTS OF BORDER INSECURITY AND LAX IMMIGRATION ENFORCEMENT ON AMERICAN COMMUNITIES</title>
<body><pre>[Senate Hearing 115-289]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 115-289

                            BORDER SECURITY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             FIRST SESSION

                               ----------                              

  THE EFFECTS OF BORDER INSECURITY AND LAX IMMIGRATION ENFORCEMENT ON 
                  AMERICAN COMMUNITIES, MARCH 1, 2017

       IMPROVED BORDER SECURITY AND PUBLIC SAFETY, APRIL 5, 2017

 BORDER INSECURITY: THE RISE OF MS-13 AND OTHER TRANSNATIONAL CRIMINAL 
                      ORGANIZATIONS, MAY 24, 2017

                               ----------                              

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
                       
        Committee on Homeland Security and Governmental Affairs




                  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                       



                       U.S. GOVERNMENT PUBLISHING OFFICE
                
26-769PDF                       WASHINGTON: 2018






        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
                    
JOHN McCAIN, Arizona                 CLAIRE McCASKILL, Missouri
ROB PORTMAN, Ohio                    THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
MICHAEL B. ENZI, Wyoming             GARY C. PETERS, Michigan
JOHN HOEVEN, North Dakota            MAGGIE HASSAN, New Hampshire
STEVE DAINES, Montana                KAMALA D. HARRIS, California

                  Christopher R. Hixon, Staff Director
                Gabrielle D'Adamo Singer, Chief Counsel
                    Daniel P. Lips, Policy Director
                        Kyle P. Brosnan, Counsel
           Jose J. Bautista, Senior Professional Staff Member
              Colleen E. Berny, Professional Staff Member
            Christopher S. Boness, Professional Staff Member
               Margaret E. Daum, Minority Staff Director
              J. Jackson Eaton IV, Minority Senior Counsel
                    Caitlin Warner, Minority Counsel
                Hannah M. Berner, Minority Investigator
                     Laura W. Kilbride, Chief Clerk
                   Bonni E. Dinerstein, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson 
    Senator McCaskill 
    Senator Heitkamp 
    Senator McCain...............................................   259
    Senator Hoeven.............................................262, 487
    Senator Peters...............................................   267
    Senator Hassan 
    Senator Daines 
    Senator Carper...............................................   275
    Senator Harris 
    Senator Portman..............................................   281
    Senator Tester...............................................   284
    Senator Paul.................................................   287
    Senator Lankford.............................................   468
Prepared statements:
    Senator Johnson 
    Senator McCaskill 




                        Wednesday, March 1, 2017
                               WITNESSES

Julie Nordman, Wentzville, Missouri..............................     4
Hon. Eric J. Severson, Sheriff, Waukesha County, State of 
  Wisconsin......................................................     6
Ryan Rectenwald, Chief Deputy of Special Operations, Grant County 
  Sheriff's Office, State of Washington..........................     8

                     Alphabetical List of Witnesses

Nordman, Julie:
    Testimony....................................................     4
    Prepared statement...........................................    24
Rectenwald, Ryan:
    Testimony....................................................     8
    Prepared statement...........................................   117
Severson, Hon. Eric J.:
    Testimony....................................................     6
    Prepared statement with attachment...........................    27

                                APPENDIX

Charts submitted by Senator Johnson..............................   128
Immigration Panel Transcript submitted by Senator Harris.........   130
Statement submitted for the Record from:
    Coalition for Humane Immigrant Rights of Los Angeles.........   210
    Michael C. Koval, Chief of Police, Madison Police Department, 
      Madison, Wisconsin.........................................   211
    Law Enforcement Immigration Task Force.......................   218
Responses to post-hearing questions for the Record:
    Mr. Severson.................................................   221
    Mr. Rectenwald...............................................   233

                        Wednesday, April 5, 2017
                                WITNESS

Hon. John F. Kelly, Secretary, U.S. Department of Homeland 
  Security
    Testimony....................................................   251
    Prepared statement...........................................   301

                                APPENDIX

Chart submitted by Senator Johnson...............................   313
WSJ article submitted by Senator McCaskill.......................   314
Fentanyl Report submitted by Senator Portman.....................   317
Heartland Alliance Statement submitted by Senator Heitkamp.......   334
Senate Letter submitted by Senator Peters........................   337
Corrections for the Record from Mr. Kelly........................   346
Statement for the Record from Human Rights First.................   356
Responses to post-hearing questions for the Record from Mr. Kelly   360

                        Wednesday, May 24, 2017
                               WITNESSES

Timothy D. Sini, Police Commissioner, Suffolk County Police 
  Department, Suffolk County, New York...........................   460
Scott M. Conley, Detective, Criminal Investigative Division, 
  Chelsea Police Department, Chelsea, Massachusetts..............   463
J. Thomas Manger, Chief of Police, Montgomery County Police 
  Department, Montgomery County, Maryland, and President, Major 
  Cities Chiefs Association......................................   465

                     Alphabetical List of Witnesses

Conley, Scott M.:
    Testimony....................................................   463
    Prepared statement...........................................   515
Manger, J. Thomas:
    Testimony....................................................   465
    Prepared statement...........................................   522
Sini, Timothy D.:
    Testimony....................................................   460
    Prepared statement...........................................   496

                                APPENDIX

Report submitted for the Record by Senator Harris................   532
Responses to questions for the Record:
    Mr. Sini.....................................................   646
    Mr. Conley...................................................   648
    Mr. Manger...................................................   661






 
                  THE EFFECTS OF BORDER INSECURITY AND
          LAX IMMIGRATION ENFORCEMENT ON AMERICAN COMMUNITIES

                              ----------                              


                        WEDNESDAY, MARCH 1, 2017

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:59 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Lankford, McCaskill, 
Carper, Tester, Heitkamp, Peters, Hassan, and Harris.

            OPENING STATEMENT OF CHAIRMAN JOHNSON\1\

    Chairman Johnson. Good morning. This hearing of the Senate 
Homeland Security and Governmental Affairs Committee (HSGAC) 
will come to order.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 19.
---------------------------------------------------------------------------
    This is actually a pretty simple hearing--not a whole lot 
of complexity to what I am trying to accomplish here. I am just 
trying to lay out, with some powerful stories, what happens 
when a nation does not secure its borders or enforce its 
immigration laws.
    We are going to be hearing some powerful testimonies. I 
want to thank all of the witnesses for appearing, for taking 
the time, and for your thoughtful testimonies. I want to 
particularly thank Julie Nordman, who I realize is going to be 
telling a story that is going to be very painful--very tragic 
for you to tell, but it is just one of many stories that we 
have heard around the country. We are all, obviously, familiar 
with Kate Steinle, but there are so many other names of 
individuals that have had their lives shattered because people 
are in this country illegally--and they commit crimes, they 
traffic drugs, and they traffic humans.
    President Trump, in his State of the Union (SOTU) address, 
asked a pretty simple question. He said: ``To any in Congress 
who do not believe we should enforce our laws, I would ask you 
this question: What do you say to the American family that 
loses their jobs, their income, or a loved one because America 
refused to uphold its laws and defend its borders?''
    To me, the role of the Federal Government--the top priority 
is the defense of this Nation--defense of this homeland, the 
security of its borders and the security of its citizens. And, 
that is really all this hearing is about--is to lay out a 
reality through some powerful examples. And, again, we have 
Julie here. We have Sheriff Eric Severson from Waukesha County, 
Wisconsin, who will be laying out and talking about the problem 
of drug abuse, because our borders are so porous.
    In the 1980s, heroin cost $3,200 per gram. Deputy 
Rectenwald, we were talking yesterday. You think it is about 
$80 a gram. Ten doses per gram--that is $8 for a hit of heroin. 
It is a very affordable, destructive habit. And, that is 
because our borders are so porous.
    So, there is a lot of destruction occurring. We have a 
sheriff and a deputy sheriff here, describing those things. 
And, of course, Deputy Sheriff Rectenwald will be talking about 
another tragedy--another young mom, Jill Sundberg, who was 
murdered by five individuals--criminals that were in this 
country illegally. Again, we are going to allow these powerful 
stories to be told, so we understand the consequences of not 
enforcing our immigration laws and securing our borders.
    With that, I will turn it over to my Ranking Member, 
Senator McCaskill.

           OPENING STATEMENT OF SENATOR MCCASKILL\1\

    Senator McCaskill. Thank you, Mr. Chairman. And, thank you 
for this hearing today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator McCaskill appears in the 
Appendix on page 20.
---------------------------------------------------------------------------
    This morning we will hear from a constituent of mine named 
Julie Nordman, who, on the morning of March 8, 2016, was forced 
to run to the attic of her home in Montgomery County, Missouri, 
while her husband, Randy--a hero--desperate to save his wife 
and protect her, struggled with a stranger with a gun, 
downstairs, in the couple's garage. The man who allegedly shot 
and killed Randy--and four other men the night before, in 
Kansas City, Kansas--never should have been in this country. 
According to the information I have, Pablo Antonio Serrano-
Vitorino, who is set for trial in a capital murder case in 
Missouri, was deported in 2004, after serving a year in prison 
for a felony conviction in California. At some point, he 
illegally reentered the country. And, despite his prior felony, 
he managed to slip through the cracks during at least three 
run-ins with the Kansas police.
    I am told that, in one case in Coffey County, Kansas, Mr. 
Serrano was arrested for driving under the influence (DUI), but 
his fingerprints were never taken--so a match was never made 
with the Department of Homeland Security's (DHS's) immigration 
database. After again being arrested and charged with domestic 
assault in Wyandotte County, Mr. Serrano's fingerprints were 
sent to DHS, but Immigration and Customs Enforcement (ICE) did 
not take him into custody before he was released. Just 3 months 
later, when Mr. Serrano showed up at the Overland Park, Kansas 
Municipal Court to pay a traffic fine, his fingerprints were 
taken again. ICE was notified that they had an undocumented 
individual with a history of violent offenses within their 
grasp. ICE issued a detainer, requesting that Mr. Serrano be 
held until Federal authorities could get there, but, amazingly, 
the detainer was sent to the wrong place: It went to the 
Johnson County, Kansas Sheriff's Office instead of the Overland 
Park Municipal Court Building. How did that happen? I do not 
know. Why did ICE not pursue Mr. Serrano further? I do not 
know.
    What I do know is that, 6 months later, Mr. Serrano 
allegedly shot and killed five men in Kansas and Missouri, 
including Randy Nordman. And, it appears that, while the local 
authorities 
were doing their jobs, the Federal Government--specifically 
ICE--dropped the ball.
    Now, Mrs. Nordman, I know none of this is going to bring 
your husband back. And, I would never try to say that it would. 
Mr. Serrano should not have been in this country. Your husband 
should still be with you today. I want to know how this was 
allowed to happen. And, I am sure you have some of the very 
same questions.
    That is why I am so disappointed that someone with ICE 
could not be here, today. As you know, I invited Director 
Thomas Homan or--when I found out that he was not available--
anyone in his organization to come and testify this morning. I 
would hope that he would be able to speak to some of the 
specifics of this case and the other cases we will be hearing 
about this morning.
    I have also asked for a copy of Mr. Serrano's case file 
from ICE, but, at every turn, my staff and I have been met with 
resistance. The Agency told us that, due to privacy concerns, 
Mr. Serrano's case files cannot be released. But, that flies 
directly in the face of the Trump administration's new policy 
that says, and I quote, ``The Department will no longer afford 
Privacy Act rights and protections to persons who are neither 
U.S. citizens nor lawful permanent residents.'' How can you, on 
one hand, have an Administration that says that privacy rights 
do not attach and also have someone in your Administration tell 
a U.S. Senate office that we are not allowed to look at a file 
that is critically important, in terms of us fixing these 
problems? If we want to stop future tragedies, we have to see 
that file, we have to understand the mistakes that were made, 
and we have to have our questions answered.
    One of the reasons I have devoted so much of my time here, 
in the Senate, to oversight is that I truly believe that, as 
legislators, we have an obligation to understand the problems 
before we try and pass new laws. Sometimes, passing new laws 
does more harm than good, if you do not really understand the 
underlying problem. What happened in this case was an absolute 
tragedy. But, was it caused by a failure in our immigration 
laws and policies? Or, was it instead the result of human 
beings failing to follow the rules, the policies, or the 
directives?
    Unfortunately, Immigration and Customs Enforcement are the 
only people capable of answering that question, and, to date, 
have refused to either provide the information to my office or 
to participate in today's hearing.
    Mrs. Nordman, despite the resistance from ICE, I am going 
to do everything in my power to get you some answers. And, I 
appreciate you and your sister being here, today. I think 
Missouri should be very proud of your courage. I know that I 
am.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator McCaskill.
    We do have a vote that is going to be called at 10:30, so 
what I would like to do is, get to the witnesses--make sure we 
go through their entire testimony. We are going to be kind of 
canvassing staff for the people who want to come back--whether 
we want to recess or just continue this hearing, as we 
frequently do.
    With that, it is the tradition of this Committee to swear 
in witnesses. So, if you will all rise and raise your right 
hand. Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Ms. Nordman. I do.
    Mr. Severson. I do.
    Mr. Rectenwald. I do.
    Chairman Johnson. Please be seated.
    Our first witness is Julie Nordman. Ms. Nordman is from 
Wentzville, Missouri. On March 8, 2016, as Senator McCaskill 
talked about, Julie's husband, Randy Nordman, was murdered by 
an illegal immigrant who had previously been deported.
    Julie, you have our deepest sympathies for your loss. And, 
we thank you for being here, today. And, take your time. We 
realize this is not going to be an easy story to tell, so we 
will be more than understanding. But, again, thank you for 
appearing.

      TESTIMONY OF JULIE NORDMAN,\1\ WENTZVILLE, MISSOURI

    Ms. Nordman. Hello. My name is Julie Nordman, and I was 
asked to speak you today, following the tragic and preventable 
murder of my husband, Randy Nordman. Although this happened 
less than a year ago and the pain is still unbearable, this 
story starts nearly two decades ago.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Nordman appears in the Appendix 
on page 24.
---------------------------------------------------------------------------
    The man who murdered my husband, Pablo Serrano-Vitorino, 
first encountered law enforcement in 1998 in California. He was 
here illegally and was charged with making a threat with the 
intent to terrorize. He pled guilty to disturbing the peace and 
spent 3 days in jail. He was allowed to remain in the United 
States, and between 1993 and 2003, he was arrested twice more 
for domestic violence. Then, in 2003, he pointed a rifle at the 
mother of his three children and threatened her life. Later 
that year, he was convicted on those felony charges and was 
sentenced to 2 years in prison. Following his release in 2004, 
he was deported for being in the United States illegally.
    No one knows when he returned to the United States--or 
how--but he did. And, in November 2014, he was arrested in 
Kansas for driving while intoxicated, driving without a 
license, and speeding. He pled guilty and, again, was allowed 
to remain in the United States. Then, less than a year later, 
in June 2015, he was arrested and charged with domestic 
battery. While being held in the county jail, the sheriff's 
office notified Immigration and Customs Enforcement that he was 
in custody. ICE is required to respond within a 4-hour 
deadline, yet they failed to do so. And, the sheriff was 
required to release him. He later pled guilty to the charge and 
received a fine.
    Only 2 months later, in August 2015, he was again arrested 
for driving without a license. While at the municipal 
courthouse, he was fingerprinted and ICE issued a detainer for 
his immigration violation. However, because of their 
carelessness, ICE mistakenly sent the detainer paperwork to the 
incorrect location--and it never reached the proper 
authorities.
    That brings you to my story. In the 18 months before the 
senseless murder of my husband, this killer had been in custody 
on three occasions, yet Federal officials failed to detain or 
deport him. Had they just done their jobs and followed the 
laws, my husband would still be alive--and so would four other 
innocent victims he brutally murdered.
    On March 7, 2016, in Kansas City, Kansas, four men were 
found dead. Mike Capps, Jeremey Water, and brothers Clint and 
Austin Harter were Pablo's neighbors. And, he murdered them, 
from what I have heard, over a parking spot. Authorities 
started a manhunt, but they did not find him until it was too 
late.
    On the early morning of March 8, 2016, my husband was 
getting ready for work. I was awoken from my sleep when I heard 
my husband shouting, ``What are you doing?'' And then, he 
called out for me, ``Julie! Julie!'' I looked out of the window 
into our garage and saw a man and my husband fighting over a 
rifle. I immediately grabbed my phone and called 911 as I ran 
to the attic. I was scared out of my mind, and I whispered to 
the 911 operator that we needed help. I asked them to hurry, 
and I prayed and prayed for Randy to be OK. I saw our dog at 
the top of the stairs and told 911 that I was worried that the 
dog was going to give my location away. I then remember asking 
the operator, if the gunman shot me, would it hurt? I tried to 
climb out of the attic window, but it was stuck. So, I stayed 
put. I also asked if I could go check on my husband, and they 
told me no. Then I heard a pop. I heard the gunman rustle 
through our things. And, we believe he was trying to find car 
keys so he could steal one of our vehicles and continue fleeing 
from law enforcement.
    I looked out of the attic window, and I saw a police car 
racing toward our house. But then, it raced past our house. I 
told the dispatcher that the officer needed to turn around. 
And, that is when I saw the killer run across my property and 
jump, face first, into a ditch.
    When the police arrived, I saw my husband on the kitchen 
floor, but I thought he was unconscious. The police then 
escorted me out of the house. And, I kept screaming, ``Where is 
the ambulance?'' But, they kept telling me that it was a 
secured area. Officers told me that they had located the man's 
vehicle right off of the highway near our house, and then 
showed me a picture to identify him. After I identified him, 
that is when the ambulance personnel came over and told me that 
my husband had passed away--and I just lost it.
    They searched for him for 17 hours, using dogs and what 
seemed like hundreds of policemen and two helicopters, but no 
one could find him. We later found out that he was lying 800 
feet from my house in the grass. He waited until it had gotten 
dark and then walked to a gas station where he tried to hijack 
someone else. However, because my husband had removed the clip 
from his gun, the killer's only remaining bullet was used on my 
husband, Randy. My husband was a hero for not only saving my 
life, but also saving all of the other people this man would 
have attacked. Authorities quickly apprehended the man near the 
gas station, and he is now in custody awaiting trial for the 
death of my husband.
    Following the incident, I was never contacted by ICE or 
anyone else from the government to express their remorse. 
However, I read in the paper that ICE said that they would 
monitor Randy's case and place a detainer on the man. They also 
said that they ``would remain focused on smart, effective 
immigration enforcement that prioritizes threats to national 
security, public safety, and border security.'' I find that 
their statement could not be further from the truth. Their 
actions were not smart. In 2015, they sent his detainer 
paperwork to the wrong place. Their actions were not effective. 
In 2015, they also failed to respond to the immigration query. 
They did not properly prioritize the threat. After this man was 
arrested, on numerous occasions, for violent crimes, he went on 
to kill five completely innocent men.
    Not only has ICE failed us, but our borders have failed us. 
They are, obviously, wide open, as the man was able to enter--
not once, but twice--without being detected. But, I suppose, if 
your policy is to let them go even after you arrest them for 
committing violent crimes, why even secure the border at all?
    If the ICE authorities had just done their jobs, Andrew 
Harter would still be alive. Clint Harter would still be a 
husband and would have seen his second child being born. Mike 
Capps would still be alive. Jeremey Water would still be alive. 
And, most importantly to me, my husband, Randy, would still be 
here. Instead, every day that I am at our house, I am reminded 
of this tragic event. I wish you could bring my husband back, 
but we all know that cannot happen. What you can do is, make 
sure that this does not happen to another innocent family in 
the future.
    And, also, before I go, I would like to publicly thank the 
Missouri State Highway Patrol (MSHP) and the nearby county 
officers for catching and arresting this monster.
    Chairman Johnson. Thank you, Julie. I am sure I speak for 
everybody in this room when we offer our sincere condolences. I 
will guarantee you that this Committee will provide oversight 
and we will get the answers that you deserve. But, again, thank 
you for testifying.
    Our next witness is Sheriff Eric Severson. Sheriff Severson 
is the sheriff of Waukesha County, Wisconsin. Sheriff Severson 
was elected to his current position in 2014 and has 13 years of 
experience as a law enforcement officer (LEO). Sheriff 
Severson.

   TESTIMONY OF THE HONORABLE ERIC J. SEVERSON,\1\ SHERIFF, 
              WAUKESHA COUNTY, STATE OF WISCONSIN

    Mr. Severson. Chairman Johnson, Ranking Member McCaskill, 
and distinguished Members of the Committee, it is my honor to 
address you today on behalf of the citizens of Waukesha County 
and the State of Wisconsin.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Severson appears in the Appendix 
on page 27.
---------------------------------------------------------------------------
    As Senator Johnson indicated, my name is Eric Severson. I 
am the Sheriff of Waukesha County. Waukesha County is a mix of 
rural and suburban communities located west of and adjacent to 
Milwaukee County. And, I have served my community as a law 
enforcement officer for over 32 years.
    To provide context for my testimony, I have included a 
brief biography. I would highlight that I currently serve on 
the Board of Directors of the National Sheriffs' Association 
(NSA) and I serve on the Board of Directors of the Wisconsin 
High Intensity Drug Trafficking Area (HIDTA).
    The greatest impact on the safety of our community, as it 
relates to border insecurity, is the ease of bringing 
controlled substances into our community by way of the Mexican-
American border.
    The lion's share of the controlled substances consumed in 
southeast Wisconsin is sourced from south of the border. Heroin 
and opiate pharmaceuticals have been the chief drug threat in 
Wisconsin for years. Heroin consumed in my community was 
transported through the Southern Border in its entirety. Today, 
Mexican drug cartels are growing poppy plants to manufacture 
locally produced heroin, making Mexico a source country for 
heroin for the United States.
    Methamphetamine (meth) is an emerging drug threat in 
Wisconsin--and 95 percent of methamphetamine in Wisconsin comes 
from Mexico.
    The drug public health crisis is not limited to border 
communities or major cities, alone. In the last 10 years, my 
county has lost 387 of our citizens due to controlled substance 
overdose deaths. Last year, alone, we experienced over 35 drug-
related deaths. One-third of that total involved heroin. 
Fentanyl, an adulterant often added to heroin, has increased 
the lethality of heroin. And, we now see fentanyl as yet 
another illicit drug entering the United States through the 
Southern Border.
    On a local level, we are doing all that we can to protect 
our citizens. And, last year, my deputies administered Narcan 
(naloxone) 21 times--but only saving 17 lives.
    Along with the drug trafficking business, comes violence. 
Robberies, home invasions, burglaries, and thefts are all the 
byproduct of drug users seeking the resources to fuel their 
addictions.
    Our community's drug enforcement officers must face the 
dangerous realities of the drug trade in Wisconsin. One example 
of this is the growing use of mobile drug crews. These dealers 
sell heroin from stolen vehicles that are often car-jacked at 
gunpoint and will evade apprehension by recklessly eluding 
police by ramming squads and even citizen-owned vehicles in an 
effort to escape apprehension. These dangerous drug dealers are 
frequently well armed and use countersurveillance techniques, 
which add to the danger to law enforcement and the community.
    The thrust of my testimony has been on border security as 
it relates to drug trafficking. This is because my fellow 
sheriffs, police chiefs, and I see this as the greatest border-
related threat to our communities in Wisconsin. My testimony 
would be incomplete, however, if I failed to acknowledge the 
criminal threat posed by foreign nationals that are in our 
country in violation of our immigration statutes. Candidly, I 
see criminal offenses by foreign nationals as relatively 
infrequent occurrences within the confines of my county's 
border. It would be incorrect--and, in fact, dangerous--to 
conclude, however, that these events do not occur in Wisconsin.
    Some specific examples include a Drug Trafficking 
Organization (DTO) involving at least 2 undocumented Mexican 
nationals, where 15 kilograms of cocaine was seized. Another 
DTO, containing several undocumented Mexican nationals, was 
attempting to illegally sell firearms to undercover agents. 
This DTO also had human-trafficking ties.
    A recent 25-kilogram seizure of methamphetamine resulted in 
the arrest of several undocumented Mexican nationals in 
southeast Wisconsin. The actors, in this case, were purporting 
the methamphetamine to be cocaine in hopes of expanding the 
organization's methamphetamine market and aiding in its 
distribution. Many other examples exist.
    I have included a copy of the National Sheriffs' 
Association position paper on comprehensive immigration reform. 
I respectfully ask that you to consider all recommendations. In 
particular, I would hope that a strong focus is placed on 
providing appropriations to adequately secure the border--which 
would include providing sufficient law enforcement presence, in 
the form of U.S. Customs and Border Protection (CBP) officers--
and sufficiently supporting the highly effective HIDTA programs 
and the Edward Byrne Memorial Justice Assistance Grant (JAG) 
programs that currently help communities that are not located 
near the border.
    It is truly my honor to be here, today. And, I am happy to 
answer any questions you may have.
    Chairman Johnson. Thank you, Sheriff Severson.
    Our next witness is Deputy Sheriff Ryan Rectenwald. He is 
the Chief Deputy of Special Operations for the Grant County 
Sheriff's Office in Washington State. Mr. Rectenwald is an Army 
veteran with over 25 years of public safety experience. Chief 
Deputy Rectenwald.

   TESTIMONY OF RYAN RECTENWALD,\1\ CHIEF DEPUTY OF SPECIAL 
 OPERATIONS, GRANT COUNTY SHERIFF'S OFFICE, STATE OF WASHINGTON

    Mr. Rectenwald. Chairman Johnson and Ranking Member 
McCaskill, thank you for the invitation to come and speak with 
you today. I am here to talk about a horrific murder, which 
took place in our rural community of Grant County, Washington--
an incident that, to this day, remains the most dreadful scene 
I have encountered in my nearly 20-year law enforcement career.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Rectenwald appears in the 
Appendix on page 117.
---------------------------------------------------------------------------
    We received a call around noon, just 3 days before 
Christmas in 2016. A woman was out walking her dog near the 
Columbia River, in a picturesque recreational area, which is 
popular with tourists and rock climbers and is endeared by 
residents. She said that she had found a dead body.
    What I saw when I arrived at the crime scene can only be 
described as straight out of a horror movie. The body was lying 
face down in the snow. Detectives found 13 bullet casings. 
Eleven of those bullets found their mark, striking the victim 
in the back of her head, her neck, and her shoulder area.
    A box from a case of beer had a message written in Spanish 
and was secured to the victim's back with a kitchen knife--
signed ``Gulf Cartel.'' The victim was later identified as Jill 
Marie Sundberg, age 31, the mother of four young children. We 
later learned that she was kidnapped by five men after an 
argument at a party. She was forced into this vehicle with 
those 5 men, driven 10 miles to this remote location, and was 
executed. The fear and brutality that this woman faced during 
that 10-mile drive and in the moments prior to her death will 
forever haunt case investigators.
    During the investigation, we developed a list of persons of 
interest who lived in the same trailer park where Jill 
occasionally lived. With the help of Immigration and Customs 
Enforcement as well as the U.S. Marshals Service (USMS), we 
were able to pick up and interview three of those five men. All 
five were later arrested on murder, kidnapping, and other 
charges. What is important to know is that all five men were 
determined to be in this country illegally--and one had two 
prior felony convictions.
    The fact that these suspects were here illegally is not my 
point. It is that the shooter was still in the United States 
after being convicted of crimes and previously deported. So, 
how did this happen?
    It turns out, the alleged shooter had been previously 
deported in May 2007, after his first felony conviction. He 
then illegally reentered our country. And, in June 2013, he was 
arrested on new felony charges in Grant County. He served out 
his sentence, and, in January 2014, he was released to ICE 
again. But, prior to his deportation hearing, he was allowed to 
post an $8,000 cash bail. He never returned for this hearing. 
No failure-to-appear warrants were ever issued. He was then 
later rearrested in September 2015, in our county, on new 
domestic violence charges.
    That is not how legal residents are treated when we miss 
court dates. You and I would have had warrants issued for our 
arrest.
    Meanwhile, after the shooter returned to our community, 
local law enforcement had opportunities to bring him back into 
custody during unrelated contacts, but, due to the fact that no 
Federal warrants were ever issued, he was never arrested.
    I was asked to provide insight on policies that Congress 
and the Administration should be considering to stem the 
unlawful movement of people, illegal drugs, and other 
contraband into this country. Can we start with just some basic 
principles?
    It makes sense that, after being convicted of a felony, you 
should not be allowed to bail out on your immigration hearing. 
If you abscond, warrants should be issued for your arrest--and 
ICE and local law enforcement should be able to pick you up.
    Now, I realize that this may present administrative and 
budgetary concerns, but we need easier access to the bad guys. 
This is not about illegal immigrants who reside in our 
communities peacefully alongside us.
    Allowing us these tools would help us to distinguish 
between the truly law-abiding and those whose purpose is to 
harm through violence or drug distribution via enabling 
policies and practices. This, certainly, is not justice.
    Although I can empathize with the discussion about ripping 
families apart, when it comes to immigration enforcement, I can 
assure you, the Sundberg family has been ripped apart, because 
of the lack of enforcement of current immigration laws.
    Lastly, I would like to publicly commend the hard work our 
men and women put into this complex investigation. We live by 
an unwritten code that dictates that they will never stop, they 
will never quit, and they will always work for the ones who no 
longer can speak for themselves. Their efforts have truly made 
our community a far safer place to live.
    Thank you.
    Chairman Johnson. Thank you, Deputy Rectenwald.
    Julie, I am going to start with you, but I am not going to 
ask for an answer right away. But, I just want you thinking 
about this until the very end. I do want to know what 
information you want. What have you not been told from ICE? 
What can we get for you? So, just kind of think about that. 
And, I am going to start with Deputy Rectenwald.
    You have been in law enforcement for how long?
    Mr. Rectenwald. Over 25 years, now.
    Chairman Johnson. Have you seen a change in--you said that 
legal residents would not be treated the way that we treated 
the illegal immigrants--or illegal aliens. Have you seen a 
shift over those 20 years, in terms of how we handle this?
    Mr. Rectenwald. I have. Early in my career, I was a 
corrections officer (CO) for the same county--for the Grant 
County Sheriff's Office. And, ICE regularly came into our 
facility and regularly picked up people on immigration holds--
ICE detainers. For example, I was a detective in 2008, when 
there was a rape in our county. I was the investigator, and I 
knew the location of the supposed suspect. And, I asked ICE if 
we could work together and try to pick this individual up--not 
only to help my investigation, but to get someone, who was 
previously deported on felony drug charges, out of our county. 
And, in 2008, they said that they could not help me.
    So, my investigation took longer--a lot longer than it 
should have. And, while this investigation was going on, I 
finally made an arrest, after we had a positive 
deoxyribonucleic acid (DNA) hit from the crime lab. I picked 
the suspect up and arrested him. While the suspect was awaiting 
trial, my female victim died in a car crash, and charges were 
dropped.
    So, to answer your question, all we want is for some simple 
principles and simple things, to be able to help us during our 
investigations.
    Chairman Johnson. I think the thrust of my question is, if 
policies have changed, in terms of how you handle legal 
residents versus illegal aliens, was that a law change--
something imposed on you? Were these just administrative 
guidelines--Executive Orders (EOs)? In other words, do we have 
to legislate something here to correct this problem? Or, is 
this something that can be done just through executive action 
or policy change?
    Mr. Rectenwald. I think the current laws in place should be 
effective. They are not. There are some in law enforcement 
careers that are afraid of a lawsuit--they are afraid of the 
challenges that present.
    Chairman Johnson. Sheriff Severson, I made a swing through 
Wisconsin early in 2016. We called it a ``national security 
listening session.'' And, every public safety official--whether 
it was local, State, or Federal--when I asked, ``What is the 
biggest problem you are dealing with, as a law enforcement 
official?''--without exception, the answer was unanimous. They 
said, ``Drug abuse.'' Is that how you would answer that 
question as well?
    Mr. Severson. Yes, it is. And, more striking is that, in 
recent years, it has become focused on heroin and opiates. For 
the first time in the history of HIDTA, about 3 years ago, we 
had 100-percent conformity, where all law enforcement agencies 
were reporting heroin as the chief drug threat in their 
community. And, given the number of deaths that we have 
experienced--again, in my county, in the last 10 years, 387 
families have lost their husbands, children, wives and 
daughters. So, it is clearly a major threat for us.
    Chairman Johnson. There has been a debate about sanctuary 
cities, but also about sanctuary jurisdictions. And, Deputy, 
you alluded to this. Because of some civil lawsuits, sheriffs 
that I have talked to in Wisconsin, who want to help enforce 
immigration laws, feel constrained, because they may be subject 
to a lawsuit. Can either one of you comment on that, before I 
go to Julie?
    Mr. Rectenwald. Well, thankfully, I work for a very good 
sheriff, Sheriff Tom Jones. And, his number one priority is the 
protection and safety of our citizens. So, he has given us the 
backing--and we work very well with Immigration and Customs 
Enforcement and the U.S. Marshals Service. And, there are no 
qualms with allowing them into our jail or our facilities--
allowing ICE agents into our jails or our facilities to allow 
them to make our community safer.
    Chairman Johnson. He is not concerned about civil 
liabilities. Sheriff Severson, is that something that you have 
heard from your fellow chiefs and sheriffs?
    Mr. Severson. Yes, it is. We are concerned about civil 
liability. We are concerned about some of--and I am not an 
attorney, Senator, but we are concerned about some litigation 
that sheriffs have faced, whereby there are questions as to 
whether or not the detention--or the detainers--contain 
sufficient probable cause for us to detain folks, solely on the 
basis of those detainers. And, the frustration that chiefs and 
sheriffs in Wisconsin are feeling is that there does not seem 
to be any movement to clarify how ICE is going to solve the 
problem of giving us the sufficient probable cause, so that we 
can make those detentions without fear of litigation. And, for 
the most part, we are communicative with ICE. And, we are 
trying to share information as best we can. And, we are 
limiting our detentions to very short periods of time, to give 
them an opportunity to resolve their legal issues. But, one of 
the frustrations that we have experienced is that ICE will not 
take responsibility for developing clear, defendable probable 
cause for those detentions.
    Chairman Johnson. Again, if you are really facing a civil 
lawsuit, that may be outside of their jurisdiction. We may have 
to actually change the law to make sure that we provide those 
types of liability protections, correct?
    Mr. Severson. I would agree with that.
    Chairman Johnson. Again, Julie, we are so sorry for your 
loss. And, we want to do everything we can to provide you the 
information. Giving you some time, are there some specific 
questions you have that you want answered?
    Ms. Nordman. I just want to know why. And, I just want to 
make sure this does not happen to somebody else. I want the 
laws strengthened or changed--more security. That is all I have 
to say.
    Chairman Johnson. OK. Well, again, we do appreciate you 
coming here. We know how hard it is to tell this story, 
especially when it is so recent and so raw. We will continue to 
stay in contact with you and to provide you with those types of 
answers--and strengthen our laws, so we can try and prevent 
these types of tragedies in the future. Senator McCaskill.
    Senator McCaskill. Both the Chairman and I have reached out 
to ICE with a list of questions. And, I will make sure that you 
have a copy of the letter that I have sent them. I think it is 
unfortunate that they are not here, today, to apologize to 
you--at a minimum. It would have been nice to have somebody 
from ICE at this table to look at you and say, ``I am sorry,'' 
and to acknowledge the failures of that Agency. I wish they 
were--here and they were doing that.
    Let me make sure I understand this liability issue, because 
I want to make sure that law enforcement is protected here. The 
liability you are worried about is, if you are detaining 
someone for ICE--if you are holding them past a certain amount 
of time, like if you bring somebody in for questioning on 
something, and you have to release them, because you cannot 
charge them--but there is an ICE hold on them--you are worried 
about holding them longer than you, typically, would hold them? 
Explain to me where the liability part comes in. That is what I 
want to make sure I am clear on, so we can try to get it fixed.
    Mr. Severson. The challenge of working with ICE, under 
these detainers, exists when we have no other underlying 
criminal offense that we can hold an individual on. So, in 
other words, if we make an arrest in Waukesha County and we 
have probable cause to detain them for a particular charge, and 
we also have immigration status issues, and we notify ICE of 
that--if they say, ``Well, we would like you to detain that 
person for our purposes,'' that is not going to be an issue as 
long as they come to our jail and take care of their business 
before we are forced to release the individual on local 
charges.
    Where it becomes a challenge is when we have exhausted the 
reasoning--the rationale for detaining an individual on our 
local charges or other precedent charges and ICE would like us 
to detain them solely on the basis of their detainer. And, 
there have been several lawsuits that are working their way 
through appeals that have suggested that local law enforcement 
does not have the authority to detain an individual based 
solely on the ICE detainer. And, again, I am not an attorney, 
but the argument, generally, is that the ICE detainer is not 
sufficient due process, in and of itself.
    Senator McCaskill. That is the argument that is being made?
    Mr. Severson. That is the argument that is being made.
    Senator McCaskill. So, we will track that down, follow 
those cases, and figure out exactly what the facts are and see 
what we can do to be helpful in that--especially if this is a 
priority deportation based on criminal activity. I am assuming 
both of you would agree that that should be the priority for 
our resources--going after people who have committed crimes in 
this country. Correct, Sheriff, Deputy?
    Mr. Severson. Yes.
    Senator McCaskill. You both agree with that?
    Mr. Rectenwald. Yes, I would agree.
    Senator McCaskill. OK. Great. I was struck, Deputy, by your 
testimony about ICE and the no failure-to-appear warrant. What 
I was even more struck by is, this was a convicted felon that 
was given an $8,000 cash bail. I find that wildly 
inappropriate. Have either of you ever seen instances where 
they are giving someone with a prior felony conviction, who is 
in this country illegally--who was deported once and came back 
to this country--they are letting them walk out of the door for 
eight grand? Do you have any knowledge as to whether or not 
that is common?
    Mr. Rectenwald. This was news to me. And, I was very 
shocked and surprised and, actually, appalled.
    Senator McCaskill. Yes. That should not be the case--a cash 
bail, in those circumstances. I think that is a situation where 
detaining someone is appropriate, particularly, for 
prioritizing the criminals. We need to be putting the necessary 
resources into detaining the criminals--maybe, not the children 
that are showing up unaccompanied on our border that are 
saying, ``Please help me,'' who are 4 years old and 5 years 
old. But, certainly, for someone who has committed a felony in 
this country and who is here illegally, we ought to prioritize 
those resources and never let them get bail and hold them until 
the hearing. That is where I think we should be shifting these 
resources.
    Let me ask you this, too: In 2008, it is interesting to me 
that you are saying that, in calendar year 2008, ICE would not 
assist you--when you had converging interests in a suspect, 
they said that they could not assist you. Did they give you a 
reason why they would not assist you?
    Mr. Rectenwald. They did not give me a reason, other than 
they just were not able to pick that individual up--knowing 
that he had been previously deported on felony drug charges--he 
had a felony drug conviction.
    Senator McCaskill. Yes. So, they did not say whether it was 
resources or it was just their policy not to?
    Mr. Rectenwald. It may have been a policy or something back 
then. And, that is my point, that----
    Senator McCaskill. It would be nice to be able to ask them 
that question. I do not understand, for the life of me, how 
anybody with ICE would not want to prioritize someone who had 
been previously deported for a felony drug conviction. That is 
very hard to understand.
    What about--have you seen ICE work effectively with you 
when you have converging interests, in terms of a criminal 
suspect and someone who is illegally in this country--either 
one of you? Have you seen them do a good job?
    Mr. Severson. In the case of Wisconsin, I am happy to 
report that we do not have a lot of issues of illegally present 
foreign nationals who are committing a lot of criminal activity 
in my county. That being said, for the most part, we are very 
blessed, because we have a local ICE office in Milwaukee, which 
is very close to us, and we have a good working relationship. 
But, I will also report to you that sheriffs throughout the 
Nation do not necessarily have that immediate access to ICE 
officials. So, resourcing can become a challenge. The time it 
takes to respond to a detainer can be a challenge--beyond the 
obvious policy questions on whether or not there is an 
aggressive and vigorous effort on the part of ICE to work 
cooperatively to deal with these problems.
    Senator McCaskill. It seems to me that, if we are going to 
prioritize, which we should--I mean, that is one thing the 
President is doing--is continuing the policy that has been in 
place--that we should be prioritizing illegal immigrants who 
are committing crimes--that a working relationship with law 
enforcement in this country would be step one, making sure you 
are on the same page, that you have a communication, and that 
you have a working relationship. And, certainly, I will be 
working hard on that.
    In that regard, do you plan, Sheriff, to try to apply and 
be part of the 287(g) agreements? Have you made a decision in 
that regard?
    Mr. Severson. At this time, I do not have the resources to 
participate with that, nor is our community structure such 
that--I do not know that that is, necessarily, a high priority 
for us, right now. Again, I am fortunate enough to report to 
you today that it is--instances of criminal activity by 
illegally present immigrants--beyond their status--is 
relatively uncommon in my county.
    Senator McCaskill. Right.
    Mr. Severson. And, generally, in Wisconsin, it is less 
common than in some other communities.
    Senator McCaskill. Right. And, what about you, Deputy? Do 
you know if your sheriff is interested in participating in 
287(g) agreements, which are the agreements that would, 
essentially, perform the legal function of deputizing local law 
enforcement to perform immigration functions--immigration 
enforcement functions?
    Mr. Rectenwald. I have not had that conversation with my 
sheriff, so I do not know what his stance is.
    Senator McCaskill. At the height of the program, we only 
had 72 agencies participating--and I do not know how many 
thousands there are. As a former prosecutor, I know that, just 
in my jurisdiction, there were a lot of police jurisdictions, 
and, certainly, if you multiply that across the country--I am 
not sure that is the key to the kingdom. I think ICE doing a 
better job and developing a working relationship with the law 
enforcement that is out there--better communication is, 
probably, where we need to be focusing our attention.
    Thank you both for being here. Please thank all of your 
departments for the work they do. And, once again, Julie, I 
could not be more proud of you.
    Chairman Johnson. Thank you, Senator McCaskill.
    So, the vote has been called. The time will expire at about 
10:50 a.m. They will hold the vote open until 11:00 a.m., so 
let us go on to Senator Heitkamp. Then, we will talk to other 
Senators, in terms of how they want to proceed with the 
hearing. Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman. And, thank you, 
Ranking Member.
    Julie, Senator Kamala Harris, who was here, from 
California, Claire, and myself have all been prosecutors, we 
all ran large agencies, and we have all sat across the table 
from victims. And, I remember their faces. And, we are not 
going to forget yours--and we are not going to forget your 
story and we are going to get to the bottom of this. And so, I 
just want you to know that it is hard to do what you just did. 
And, we are really proud of you, but it makes a difference, 
because it unites us all in this tragedy to try and fix what is 
wrong. So, thank you so much for coming.
    I want to turn my attention to local law enforcement 
grants. I am very concerned that--I ran the Byrne Grant 
Program. I was, probably, one of the first States that had a 
HIDTA program in the Great Plains--ran the drug task forces out 
of my office, in collaboration with local law enforcement. I 
was the State Attorney General (AG). And so, one of the things 
that I am deeply concerned about is that we have Operation 
Stonegarden, which deals with on-the-border jurisdictions. We 
have cut that program. We have cut the Byrne Grant Program to 
the point where we cannot get those resources. It is harder and 
harder to find Community Oriented Policing Services (COPS) 
money. It is harder and harder to find HIDTA money. And, we 
have a growing national crisis with drugs. And, the fact that 
people are pouring across the border--they are pouring across--
the criminal element is pouring across the border, because 
there is a market for what they are selling here. And, they are 
competing for territory. We know what is going on.
    So, can either one of you tell me what you would do if we 
plussed up the Byrne Grant Program the way it was before--or 
even more--if we plussed up the COPS Program and if we extended 
Operation Stonegarden, to recognize that a lot of the problems 
off of the border actually come to the interior? What could we 
do with additional resources? And, how would you approach that? 
And, I guess, we will start with you, Sheriff.
    Mr. Severson. Thank you. I agree that those programs have 
suffered over the last few years. Again, by way of background, 
I did run one of the largest metropolitan drug enforcement 
agencies within the State of Wisconsin, so I am very familiar 
with Byrne. I have been on the Board of Directors of HIDTA for 
almost 20 years. And, I am here to tell you that HIDTA, in my 
opinion, is a great success story. HIDTA is one of the real 
flagship Federal programs, in part, because it did not create 
an Agency. It created a cooperative nature and----
    Senator Heitkamp. Collaboration.
    Mr. Severson [continuing]. Collaboration. And so, that has 
been exceptionally effective in Milwaukee. It started in 
Milwaukee. And, now, we are actually multi-state, so that is a 
great thing. So, anything that we can do to support HIDTA 
funding is going to really do a lot to get boots on the ground 
in the local communities, particularly, in the non-border 
areas.
    One of the things that concerns me is that we focus our 
attention in the community and ignore what is happening at the 
border. It makes no sense to me to have somebody working at 
home plate so hard and nobody working around the diamond, 
trying to help us control the influx of controlled substances. 
If we can seize large quantities at the border, that is going 
to, in my opinion, have more impact on the local communities. 
And so, we need to do both. And so, to me, the border security 
issue, in my conversations with border sheriffs and other 
members of the National Sheriffs' Association--we are just at 
our wits' end that we are having to continue to sit and look at 
the border and watch this continue. And so, anything that we 
can do to increase staffing at the border, increase the use of 
technology, and create infrastructure that will allow us to 
patrol the border, is going to be important.
    Locally, we are getting to the point where local law 
enforcement agencies do not have the resources anymore to 
participate in cooperative drug enforcement efforts. And, that 
is, in part, because of the reduction of Byrne Grant Programs. 
When I started in drug enforcement, we were getting three times 
or four times what we are getting now.
    Senator Heitkamp. I mean, I think it is clear--and the 
ability to collaborate, with those resources, is so critical.
    Mr. Severson. It is.
    Senator Heitkamp. I will tell you that we spent a lot of 
time talking about the open border in rural areas--and that 
absolutely needs to be addressed. But, it is DHS's position 
that most of the contraband--especially heroin and 
methamphetamines--are actually coming through the ports of 
entry (POEs). And so, we need to do everything we can to plus-
up the resources, plus-up the inspections, and find out, cross-
border, how we can really attack this problem--whether it is 
detecting tunnels or whether it is, in fact, making sure that 
we have the resources at the border. But, I am concerned that, 
with the lack of Federal resources, it takes that great 
collaboration and pulls it apart. And, people say, ``I am not 
going there. I have other things to do. This is your job.'' 
And, I am not saying that we are doing that, but I do see that 
the cohesiveness that I saw in the 1990s on these programs has 
really fallen apart, because of the lack of resources.
    Deputy Sheriff, you mentioned--I do not have it in my 
paperwork--I am sure it is in your testimony--the Sheriffs' 
Association's recommendations. We will be very interested in 
reading those and understanding. I spent a fair amount of time 
with the sheriffs down at the border. I know their level of 
frustration. But, from your perspective, what can we do that is 
going to get you the resources that you need to tackle this 
problem?
    Mr. Rectenwald. Just a little background about myself. I am 
the commander of our Interagency Narcotics Enforcement Team 
(INET), so we are a little different, as in we do have the Drug 
Enforcement Administration (DEA) office that is located in 
Spokane, Washington and we also have the DEA office that is 
located in Yakima. And, we are somewhere in the middle, on an 
island.
    Senator Heitkamp. So, no DEA is assigned to your region?
    Mr. Rectenwald. Correct.
    Senator Heitkamp. OK.
    Mr. Rectenwald. So, we are kind of on an island, and we are 
a collaborative of smaller agencies. We are a county of 93,000 
people. That does not mean that we do not have a huge drug 
problem, which we do.
    Senator Heitkamp. Absolutely.
    Mr. Rectenwald. As I previously stated, the price of heroin 
is between $80 and $100 a gram--and the price of 
methamphetamine is even cheaper. It is $60 a gram. And, it is 
not uncommon for us to make seizures of 10 to 15 pounds of 
heroin and----
    Senator Heitkamp. In your county?
    Mr. Rectenwald. In our county. And, methamphetamine. I 
think we do have cartel action, and they are very well embedded 
in our State. And, having that money and having those funds to 
be able to support an Interagency Narcotics Enforcement Team, 
which is supported by funds--and it is allowing these smaller 
counties, who otherwise could not afford to have a detective 
assigned to the unit----
    Senator Heitkamp. I just have one more question. I am 
curious about whether you are in proximity of any reservation 
or Indian country, and whether that has created issues for your 
county.
    Mr. Rectenwald. We are close to the Yakima Nation, but, no, 
that really does not--other than----
    Senator Heitkamp. I raise this because, in North Dakota, we 
see a lot of trafficking on and off of the reservation. And, 
the jurisdictional issues that we have, trying to tackle that, 
are absolutely horrible--and we need Federal help. We need DEA, 
we need the Federal Bureau of Investigation (FBI), and we need 
any kind of Federal assistance that we can get, to have a cop 
on the beat on the Indian reservation, because, if you are the 
bad guy and you think there is no cop on the beat, where are 
you going to go?
    And so, we will work very actively to try and figure out 
the relationship between you, ICE, and the Federal authorities, 
but also to get us back where we need to be--in the 1990s and 
even beyond--that, given the crisis that we are confronting--to 
recognize the important role that you all play as boots on the 
ground to help us keep our communities safe. And, thank you 
again, Julie.
    Thank you, Mr. Chairman, for the indulgence and the extra 
time.
    Chairman Johnson. Thank you, Senator Heitkamp.
    It is difficult to deal with these votes. We have two of 
them, so I think what we will do here is just thank the 
witnesses for your testimonies and for coming in. Gentlemen, 
thank you for your service. Julie, again, our sincere 
condolences. You have the commitment of this Committee that we 
will do everything we can to work with you to get you the 
answers--but also work with the new Administration to secure 
our borders and to start enforcing immigration laws, so we can 
try and prevent these types of tragedies from happening again. 
Your testimony was powerful. Thank you for coming. It will make 
a difference.
    With that, the hearing record will remain open for 15 days 
until March 16th, at 5 p.m., for the submission of statements 
and questions for the record.
    This hearing is adjourned.
    [Whereupon, at 10:52 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




              IMPROVING BORDER SECURITY AND PUBLIC SAFETY

                              ----------                              


                        WEDNESDAY, APRIL 5, 2017

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:29 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, McCain, Portman, Paul, Lankford, 
Hoeven, Daines, McCaskill, Carper, Tester, Heitkamp, Peters, 
Hassan, and Harris.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. This hearing will come to order.
    I would like to welcome the Secretary of the Department of 
Homeland Security, General Kelly. We appreciate you coming and 
taking the time and your thoughtful testimony. We are looking 
forward to your oral testimony and your answers to what should 
be a number of pretty interesting questions.
    For the Members of this Committee, it should come as no 
surprise that the security of our border has been a top 
priority of this Committee. In November 2015, after about 13 
hearings and 3 roundtables, we did publish a report, ``The 
State of America's Border Security,'' which, by the way, we 
have a bunch of copies, so any new Members or older Members who 
did not get a copy, I would be happy to give you one.
    We have learned an awful lot, and I would ask that my 
opening statement be entered in the record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 295.
---------------------------------------------------------------------------
    Senator McCaskill. Without objection.
    Chairman Johnson What I would like to do is read some of 
the findings out of that opening statement as well as just some 
other things we have learned, just kind of bullet points.
    First and foremost, what we have learned during--now this 
is going to be our 23rd hearing on various aspects of border 
security. The first finding, our borders are not secure.
    Number two, and we mentioned this in yesterday's hearing--
America's insatiable demand for drugs is one root cause, 
perhaps the root cause, preventing the achievement of a secure 
border.
    In order to secure our borders--we heard this yesterday in 
testimony on fencing and walls--agents need full situational 
awareness, which includes the ability to see on the other side 
of the border. This can be achieved with appropriate fencing 
and technology.
    We had a hearing in November of last year. We had the 
former heads of U.S. Border Patrol (USBP) and Deputy Border 
Patrol, and they said that fencing works and we need more of 
it.
    We found out last week in a hearing from the front lines 
that hiring is a challenge, and personnel issues must be 
addressed, and we are working with the Secretary and his Deputy 
to try and address that really based off of Senator Heitkamp's 
comments at the end of that one hearing when she said, ``This 
is insane, this is crazy,'' and there are some insane and crazy 
policies which we want to work with you to get those addressed 
and fixed right away so you can actually staff up and provide 
the manpower element of securing our border.
    Ports of entry must not be forgotten. The majority of drugs 
enter our country through our ports of entry, and that is 
something I would like to talk about.
    One difficult hearing to have was victims of an unsecured 
border, victims of not enforcing our immigration laws. The 
truth is tragedies have occurred as a result of our insecure 
borders, tragedies that could have been prevented.
    Going down another list, not in my opening statement, drug 
cartels and coyotes use minors to avoid prosecution. 
Unaccompanied children have been trafficked into sex trade and 
involuntary servitude. Drug cartels are as, if not more, brutal 
and depraved than the Islamic State of Iraq and Syria (ISIS).
    Aerostats, good technology, but as we found out on one of 
our trips down to the border, they are not real good in wind, 
and so in certain areas, they can only operate about 40 percent 
of the time.
    We had an incredibly interesting hearing--and this is 
something I am a big supporter of--to quadruple or quintuple 
the use of dogs because no technology can beat the nose of a 
dog.
    In Brooks County on one of our trips, we found out that 435 
deaths of people who crossed into the country illegally 
occurred just in the last 5 years. It is a very dangerous 
journey. We need to try to disincentivize people from making 
that dangerous journey.
    Drug use is not a victimless crime. It has given rise to 
the drug cartels. Those drug cartels traffic little girls. We 
were down in Guatemala, and we went to one of those shelters, 
Senator Heitkamp, Senator Carper, and Senator Peters. I think 
the average age was 14. So, it is not a victimless crime. I 
think we all realize that. But, unfortunately, we need to 
understand the responsibility we bear because of our insatiable 
demand for drugs.
    That is just a list. I do not want to keep droning on here, 
but we have learned an awful lot in 22 hearings. I think we are 
going to learn a lot more today. And, as Senator McCaskill said 
in yesterday's hearing, I do not think there is one United 
States Senator who does not believe we need a secure border. So 
let us start there, with that area of agreement. We share that 
goal. We want to secure our border. We want to keep the folks 
that we represent in our States, safe and secure. Now we have 
to figure out the details.
    Again, I want to welcome General Kelly, and I will also 
turn it over to Senator McCaskill.

           OPENING STATEMENT OF SENATOR MCCASKILL\1\

    Senator McCaskill. Thank you. Thank you, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator McCaskill appears in the 
Appendix on page 296.
---------------------------------------------------------------------------
    Secretary Kelly, thank you so much for being here today. We 
are cognizant of the demands on your time, and part of our 
goal--and the Chairman and I agree on this--is trying to be 
careful about what we ask for and how much we ask for. But. we 
have to ask for stuff because our job is oversight. But, we are 
aware that you are being pulled a lot of different ways. That 
is why we look forward to you getting the full team in place so 
we can begin to have some of the people in charge in your 
operation come and answer some of these difficult policy and 
oversight questions.
    You and I have worked together on the Armed Services 
Committee. I am a fan of how you have served as a Marine and a 
general, and no one can question the sacrifices you have made 
for our Nation. Ever since your confirmation, I have considered 
you a voice of reason within the Administration. You have 
displayed throughout your career a willingness to speak truth 
to power, to say no rather than nodding, and have made your 
decisions based on the facts, not political expediency.
    Those characteristics are needed now more than ever. I am 
counting on you to speak truth to this Administration and to 
the President. But, I am also asking you to speak to us and the 
American people. Even though it may not seem like it, we are 
now 3 months into the new Administration. I know that you want 
time to settle in, and you need help to do your job. We are 
pleased that we confirmed Elaine Duke yesterday. I think she 
will be a terrific addition to your Department. And, by the 
way, I secured her vote tally, the original. I was going to 
bring it this morning and I forgot, but I will make sure I get 
that to her so she can have it to frame for her office.
    We have two Executive Orders (EO) that ban travel from 
Muslim majority nations. The first was implemented without 
notice and caused chaos at our Nation's airports. Both have 
come under immediate constitutional scrutiny by the courts. The 
Department has overhauled its interior enforcement, in the 
words of the White House, to ``take the shackles off'' 
Immigration and Customs Enforcement (ICE) and the Border 
Patrol. You have ordered the Department to ``immediately begin 
planning, design, construction, and maintenance of a wall'' 
along the border. Even though Missouri is not on the border, my 
State is directly affected by it. The drugs that get through 
the Mexican border have a huge impact on the opioid crisis that 
is gripping my State and the entire Nation. It is causing death 
and destruction to families all over the United States.
    I know you share my concern about drugs coming over the 
border, but I am deeply concerned that all of the rhetoric and 
all of the budget requests have focused on the border and not 
the ports of entry, that there is no plan to increase resources 
at the ports of entry, which we know, along with the mail, is 
the primary place that drugs are coming into our country. I 
certainly hope that we have a chance to address that today.
    Away from the border, I am concerned about the Secret 
Service and the unprecedented challenge of protecting the 
President and his family at numerous locations: the White 
House, Trump Tower, and Mar-a-Lago, as well as the 
international travel by the President's sons. In the meantime, 
the Secret Service is reviewing incidents that have threatened 
the physical security of the White House, including a case in 
March where a fence jumper was able to elude security and roam 
the grounds for 15 minutes.
    I am deeply concerned that the Secret Service is being 
stretched to its breaking point. And, just yesterday, I read 
news reports that the extreme vetting procedures that the 
President has ordered could force visa applicants from places 
like Australia and Japan and the United Kingdom (U.K.) to 
disclose not only all the information on their mobile phones, 
social media passwords, financial records, even to answer 
questions about their beliefs.
    I have to tell you, if my family was traveling to the 
United Kingdom and they told me that we would have to answer 
questions about my beliefs to get into the country, we would 
not go. And, I have a hard time imagining those countries would 
see us as their friends. I think this has a profound impact on 
our standing in the world, a profound impact on the nature of 
our alliances around the world, and a profound impact on our 
national security. And, I will ask questions about that today, 
as I indicated to you in our conversation yesterday, because I 
think we are doing things that in no way as a former prosecutor 
trips up the bad guys but changes our image forever in the eyes 
of the world, permanent and irreparable harm occurring.
    Secretary Kelly, we have been trying to ask questions about 
policies and problems like these to your Department, and there 
have been times it has been very difficult to get answers. I am 
willing to do a reset and check that off as you not having all 
hands on deck, but going forward, I hope that together the 
Chairman and I can work to make sure that we have witnesses 
from the Department of Homeland Security (DHS) answer some of 
the questions that need to be answered. And, frankly, I think 
it works to the benefit of your Department because if you are 
not here explaining, then assumptions can be made that 
sometimes are unfair. So, going forward, I hope that we have a 
new beginning as it relates to not only getting questions 
answered but also having witnesses at hearings.
    I am glad you are here today. There are a lot of important 
issues before us, and I have a lot of questions. I hope we can 
count on you and your Department being willing to answer them 
going forward. Thank you very much.
    Chairman Johnson. Thank you, Senator McCaskill. I would 
point out that General Kelly has already made himself available 
for a secure briefing and now he is here already in early 
April. So I certainly appreciate his willingness to testify.
    Senator McCaskill. So do I.
    Chairman Johnson. Secretary Kelly, we do have a tradition 
in this Committee to swear in witnesses, so if you will please 
rise and raise your right hand. Do you swear that the testimony 
you will give before this Committee will be the truth, the 
whole truth, and nothing but the truth, so help you, God?
    Secretary Kelly. I do.
    Chairman Johnson. Please be seated.
    Secretary John F. Kelly, General Kelly, was confirmed to be 
the fifth Secretary of Homeland Security on January 20, 2017. 
He previously served as United States Marine Corps (USMC) 
General and commander of the United States Southern Command 
(USSOUTHCOM). Less than a year after retiring from the Marine 
Corps, Secretary Kelly once again answered the call to serve 
the Nation and the American people by leading the Department of 
Homeland Security.
    General, we thank you for your service, past, present, and 
future, and we look forward to your testimony.

 TESTIMONY OF THE HONORABLE JOHN F. KELLY,\1\ SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Secretary Kelly. Well, thank you, Chairman, and certainly 
Ranking Member McCaskill, all of the Members of the Committee. 
It is really an honor to be here. I will make myself available 
anytime by phone, by drop-in.
---------------------------------------------------------------------------
    \1\ The prepared statement of Secretary Kelly appears in the 
Appendix on page 301.
---------------------------------------------------------------------------
    Just recently, I met just yesterday with the entire 
Hispanic Caucus on the House side, a week prior to that with 
the entire Democratic Caucus on the House side. I have met with 
the Democratic Caucus on this side last week, and I think I am 
scheduled to speak with the Republicans. So, any time, any 
place, happy to do it. Just need a little notice.
    Since unexpectfully taking on this assignment nearly 3 
months ago, I have learned two very important lessons vis-a-vis 
the Department of Homeland Security and the defense of the 
homeland. The first is that the men and women of my Department 
are incredibly talented and devoted public servants who serve 
the Nation in very special ways. In particular are those who 
uphold the laws this institution, Congress, passes by way of 
the democratic process. It goes without saying the United 
States Coast Guard (USCG), supremely effective in their lane, 
one of the five military services of our country, they just 
happen to be lucky enough to be in the Department of Homeland 
Security.
    Then there are the incredibly dedicated Immigration and 
Customs Enforcement agents, who have taken on the task of 
enforcing, again, the laws you have passed, and they do that in 
the interior of our country. They do it humanely, 
professionally, and always according to the law.
    The ICE team also includes the amazingly effective 
investigators of Homeland Security Investigations (HSI), who 
are second to none in their investigative effectiveness.
    Then there are the professionals of Customs and Border 
Protection (CBP), who, among many other functions, are the 
first and last line of defense, depending on how you look at 
it, doing the essential and often dangerous work of defending 
the borders. They are out there day and night, 24/7, suffering 
the heat of an Arizona summer or the deadly cold of a Montana 
winter.
    Third, another group, the Secret Service, as you mentioned, 
Senator McCaskill, I want to highlight them, both the agents as 
well as the uniformed force. They routinely work, and are 
overworked, to protect not only U.S. Government officials but 
foreign dignitaries as well. They are amazing public servants 
dedicated to taking a bullet and giving their life for people 
that they do not even know.
    Then there is the Transportation Security Administration 
(TSA) who ensure the security of, among other things, the 
traveling public, aviation traveling public. TSA enjoys little 
credit as the work they have been ordered to do and complete by 
the laws of this Nation bring them in direct contact with a 
public that has little tolerance for minor inconveniences. 
Again, all of this required by the law. This same public 
forgets that the alternative to what the TSA does at our 
airports is possibly dying in a fireball falling from 30,000 
feet. They are heroes. They do their effectively, and they work 
very hard at improving their performance.
    The second lesson I have come to realize is what homeland 
security means. We must no longer think about the defense of 
the Nation in terms of defense and nondefensive initiatives and 
funding. In the world in which we live and the relentless and 
accumulating threats directed against our Nation and our way of 
life, we must adjust our thinking to think about security and 
non-security, which requires an increased melding of the 
thinking of the Departments of Defense (DOD) and Homeland 
Security. Secretary Mattis and his superb team fight the away 
game. They do it effectively every day. The equally superb men 
and women of Homeland Security that I am in charge of fight the 
home game. The defense of the homeland starts with allies and 
partners willing to fight the fight in places like Syria, Iraq, 
and Afghanistan while standing ready in Europe, Asia, and South 
Asia.
    Closer to home and winning the home game, it is all about 
increasing the partnership with willing and reliable friends 
like Colombia, Mexico, Canada, indeed, all of the nations of 
this hemisphere and around the globe.
    Securing a nation's border is the primary responsibility of 
any sovereign nation. To those of us who serve the Nation as 
part of DHS, this is nonnegotiable and sacred. Yet for a 
decade, the Federal Government, in spite of passing one law 
after another to do just that, has not lived up to its promise 
to the American people. President Trump in the early days of 
his Administration issued Executive Orders and focused interest 
on this very issue and tasked me to accomplish it. Various 
Executive Orders have been put out there, some of them 
effectively, some of them not so effectively, but all of them 
worth adhering to once the courts finish with their rulings.
    But, what has happened in the last 90 days or so, we have 
seen an absolutely amazing drop in the number of migrants 
coming out of Central America that are taking that terribly 
dangerous route from Central America into the United States. In 
particular, we have seen a dramatic reduction in the number of 
families and the number of children that are in that pipeline. 
It will not last. It will not last unless we do something, 
again, to secure the border.
    The wall or physical barrier, something to secure our 
border, you all know that we are looking at that. In fact, I 
think the proposals closed out yesterday. What it will look 
like, how tall it will be, how thick it will be, what color it 
will be is yet to be determined. All we know is that physical 
barriers do work if they are put in the right places. And, of 
course, I have already pulsed the men and women that work the 
border, CBP. They know exactly where they want the wall, and 
they know exactly how long the wall should be in their sector.
    They are also quick to point out that if they cannot have a 
wall from sea to shining sea, at least give them the wall, the 
physical barrier, the technology, that will do the job for them 
in the locations where they have identified to me, and we will 
do that.
    Before I would conclude, I would like to highlight to the 
Committee and the American people to a relentless threat that 
thankfully we have stayed probably two or three steps ahead of 
over the years. I talk of those who would do us harm primarily 
operating out of the Middle East, and they are unyielding in 
their attempt to destroy commercial passenger aircraft in 
flight.
    In response to this threat, DHS personnel, primarily from 
TSA and CBP, are deployed in the thousands overseas, working 
with airports, air carriers, and intelligence and law 
enforcement partners to deny the terrorists' attempt to kill 
the innocent in the 
largest numbers possible to make some sick statement. As I say, 
we--the Central Intelligence Agency (CIA), National Security 
Agency (NSA), Federal Bureau of Investigation (FBI), Office of 
the Director of National Intelligence (DNI), DOD, Department of 
Interior (DOI), Department of Justice (DOJ), Department of 
Transportation (DOT), and DHS, and all of our international 
partners--have been successful thus far.
    I recently made several decisions that added additional 
baggage protocols at a number of foreign airports that fly 
flights directly to the United States. This decision was not--
and I repeat not--about the Muslim religion, anyone's skin 
color, or ethnicity, but to impact the bottom line of foreign 
air carriers to the benefit of U.S. air carriers. My decisions 
were based entirely on saving lives and protecting the 
homeland. If we cannot get our arms around the current threat, 
you can expect additional protocol adjustments in the very near 
future.
    I will end by saying I thank you so very much for the 
support you gave Elaine Duke, the fact that she is now 
confirmed, and with any kind of luck, I will return to my 
building after this meeting or after this Committee, swear her 
in, and put a very heavy pack on her back, fill it up with a 
lot of rocks, and make the Department of Homeland Security 
better than it already is.
    So, with that, Mr. Chairman, Ranking Member, I stand by for 
questions.
    Chairman Johnson. She ought to be looking forward to that.
    Secretary Kelly, let me start. You talked about the study 
on the border barriers. Can you just tell me in a little more 
detail the status of that as well as any surprises in terms of 
the initial results of that?
    Secretary Kelly. Yes, sir. We know that a physical barrier 
works. The parts of the border that have physical barrier now, 
roughly 650 miles, built some years ago, in those sectors it 
works. There are other places along the border--and, again, the 
professionals in CBP, if you walk the terrain--and I know some 
of you have--will tell your boss, if you can give me 27 more 
miles here, 16 more miles here, I do not really care about the 
other 140 miles I am responsible for, but I need something that 
works and to deflect the flow of people, primarily bad actors, 
and people, not all of whom are bad actors, people who are 
coming to the United States for various reasons, to primarily 
deflect them away from the cities. The idea with the coyotes 
and the traffickers, to get them as close to a city, cross over 
as close to a city as possible, get them into the city where 
they disappear. So, if you can deflect them away from the city, 
then it is easier to pick them up and return them, whether they 
are Mexican or whatever. And, it is actually safer in many 
ways.
    Last year, I think somewhere in the neighborhood of 4,500 
near-death individuals were saved by CBP primarily out in the 
desert, and, unfortunately, unknown specific numbers but some 
several hundred lost their lives in this attempt to get across 
the border. And, that is on our border. There is no telling how 
many--in addition to the rapes and the assaults and the abuse 
that they take in the network flowing up through Mexico, not 
done by the Mexicans but by the coyotes, the traffickers, there 
is no way to tell how many of those people lose their lives. 
But, the point is it is a very dangerous trip.
    The barriers work. Technology also works. But, all of it 
does not work at all unless you have men and women who are 
willing to patrol the border, develop relationships, which they 
do with their Mexican counterparts directly across the border. 
But, that is where we are right now. There is no way I could 
give the Committee an estimate of how much this will cost. I do 
not know what it will be made of. I do not know how high it 
will be. I do not know if it is going to have solar panels on 
the side and what one side is going to look like and how it is 
going to be painted. I have no idea. So, I cannot give you any 
type of an estimate.
    I will say this, that it is unlikely that we will build a 
wall or physical barrier from sea to shining sea, but it is 
very likely I am committed to putting it where the men and 
women say we should put it.
    Chairman Johnson. In your written testimony, the quote is 
you are going to ``implement a full complement of solutions to 
meet border security requirements.'' That is technology, that 
is manpower, that is going to be physical barriers. My 
assumption is you are going to target kind of a step-by-step 
basis and put walls and fencing in top priority areas where 
your border agents are telling you, correct?
    Secretary Kelly. Exactly right, Senator.
    Chairman Johnson. We had a hearing last week from the front 
lines with the heads of the unions from Border Patrol and the 
Office of Field Operations (OFO) and ICE. There were some real 
problems: The use of polygraphs, just way too high, rejection 
rate. Pay parity, Border Patrol saying once you go try and hire 
10,000 ICE agents, they are just going to steal them from 
Border Patrol because of the lack of parity. Just work 
schedules from OFO talking about how agents are working 
multiple days in a row, 16-hour shifts.
    So, can you just kind of address what you are finding out? 
We are going to try to do a very cooperative process with you, 
with the White House, bipartisan--nonpartisan basis, really, 
and try to produce the oversight at the same time you are 
enacting the solutions. But, can you just kind of address those 
personnel issues?
    Secretary Kelly. Yes, Senator. This is going to be kind of 
a cinder block-size rock in Secretary Duke's pack. One of the 
things my good friend Jeh Johnson started long before I 
obviously took this job was this unity-of-effort issue, to look 
at all of the Department that is still a fairly broken up and 
disparate organization, to look at all the Department, where it 
makes sense start to unify things, like acquisition, like pay. 
Even though it is my understanding that some of the pay 
problems in a couple of the unions--one of the unions, anyways, 
was actually negotiated that way by the union, it did not turn 
out so well, as I am informed.
    So, what we are going to do is turn that over to Elaine and 
look at all--the Secret Service falls into the same category, 
another kind of different pay scale, and there is a better way 
to do this. So, that unity of effort, we are going to really 
breathe some life into it. Jeh started it, a great thing. We 
are really going to finish it over the next year or so, or 
more, but find ways to do exactly what the Senator is 
suggesting, and that is, come up with better pay systems, 
better benefits.
    One of the things the CBP folks tend to migrate into ICE 
frequently is because they might be from, I do not know, the 
great State of Missouri, and they are working on the border in 
Arizona, and that is OK for a few years, but they want to maybe 
get back home. So, we will look at that, too, but that requires 
a lot of detail work, and I do not know what the exact number 
is in terms of a larger force, CBP particularly, well, ICE for 
that matter. And, for sure Secret Service needs to be bigger. 
For sure they need to be bigger. They are carrying a load that 
is almost crushing the individual agent, and we are going to 
fix that.
    But, to your point, sir, we will take on all of that and 
improve it, with your help.
    Chairman Johnson. OK, yes, and we will want to work with 
you on that. I come from a manufacturing background, continuous 
shift operation. You need four shifts, and I would love to work 
with you and the agencies designing a proper shift that does 
not overburden the personnel.
    Just real quick, because you did raise this issue about the 
device searches. In fiscal year (FY) 2015, under the Obama 
Administration there were 8,500 devices searched, and they 
realized this is actually pretty effective. So, in 2016, they 
searched 23,877 devices. Can you just kind of talk about what--
again, there is a big article, I think a lot of concern about 
that. Can you just allay some of those concerns and talk about 
really the effectiveness of why we should be doing this?
    Secretary Kelly. Roughly a million people a day come into 
the United States, either by land or by aviation, and of that 
million, one-half of 1 percent might have their devices looked 
at. Generally speaking, these would be foreigners anyways. In 
fact, in almost every case they would be foreigners. A large 
percentage would be foreigners. But, it is the normal process 
of coming into the country.
    And so, what do they look for? Frankly, a couple of 
examples I would give you. It is one of the ways they find 
these pedophiles. And, the CBP people, in the course of 
interviewing travelers into the United States, will send people 
into secondary, for whatever reason--and there are a myriad of 
reasons they do this--will send people into secondary. Usually 
they are there for a short period of time. It might be to do--
their passports look out of sync or something like that. Their 
stories do not match what the passport says. There is a myriad 
of reasons.
    But, some of those reasons revolve around men who are 
coming from certain parts of the globe that--what do they call 
it? ``Sexual tourism,'' I think, pedophiles anyway. So, that is 
one way we catch them. We go on, we look at their devices, and 
it is filled with child porn. That is one thing.
    Recently, we had--again, a couple of examples. We had an 
individual traveling here from a Middle Eastern country. During 
the process, the profiling, if you will, there was something 
not quite right about him matching up with what he was telling 
about his past, where he comes from, his passport. So, they put 
him in secondary. They looked, ran his contact numbers out of 
his telephone, and he was in contact with several--I will not 
go into it too deeply, but several well-known terrorists, 
traffickers, and organizers in the Middle East. They then 
looked at the pictures and saw a full display of gay men being 
thrown off of roofs and people being beheaded and all that.
    Now, we had no reason to hold him because he was not in any 
database, so we sent him back. That I think appeared shortly 
after that in the newspaper about how we were focusing on a 
Muslim male, and we did it because he was a Muslim and from the 
Arab part of the world. But, the point is there are reasons for 
it.
    But, to Senator McCaskill's concerns, this is not routine. 
It is done in a very small number of cases. It will not be done 
routinely for people that are coming here from anywhere. It 
will not be done routinely from anywhere. But, if there is a 
reason to do it, we will, in fact, do it. But, whether it is 
France, Britain, Egypt, Saudi Arabia, or Somalia, it will not 
be routinely done at the port of entry.
    Chairman Johnson. Thank you, General. Senator McCaskill.
    Senator McCaskill. General, is the President OK with 
fencing instead of a wall?
    Secretary Kelly. The President has told me, ``Kelly, go do 
it.'' We need to protect the Southwest border in any way that 
that makes sense.
    Senator McCaskill. So, he understands that----
    Secretary Kelly. I have a lot of elbow room.
    Senator McCaskill. So, he knows that we are not going to 
build a concrete wall, a 2,000-mile concrete wall? The 
President knows that, right?
    Secretary Kelly. The President knows that I am looking at 
every variation on the theme, and I have no doubt when I go 
back to him and say, ``Boss, the wall makes sense here, high-
tech fencing makes sense over here, technology makes sense over 
here,'' I have no doubt that he will go tell me to do it.
    Senator McCaskill. And, can you provide to the Committee 
the request by the border chiefs for how many miles they are 
requesting of barrier?
    Secretary Kelly. Can I provide? Yes, ma'am.
    Senator McCaskill. Yes, I mean, you are going to ask every 
border chief for their sector, ``How many miles do you need and 
where?''
    Secretary Kelly. Exactly right.
    Senator McCaskill. And, are you also going to ask them for 
their technology requests?
    Secretary Kelly. All of that will be part of--I mean, their 
input is absolute to what we are doing.
    Senator McCaskill. Right. Can we get those requests as soon 
as you receive them?
    Secretary Kelly. Absolutely.
    Senator McCaskill. Because I think it is really important. 
The sooner we stop this, ``We are going to build a wall from 
sea to shining to sea and the Mexicans are going to pay for 
it''--it is embarrassing. It is not going to happen. Everybody 
in Congress knows it is not going to happen. Every Republican 
knows it, every Democrat knows it. It appears the only person 
who will not say it out loud is the President of the United 
States, and it is embarrassing. I do not understand it. I mean, 
it makes no sense. And, frankly, the money we reprogrammed for 
the prototypes, the solicitation says no technology insertion 
is even a requirement of the prototype, and you know 
situational awareness is going to be key for these border 
chiefs. It does no good to build a big wall if they cannot see 
over it, because they are not able to respond to the ladder or 
to some kind of breach.
    And so, it is just frustrating to me. You get it. We all 
get it. But, the President is so stubborn and will not say to 
the American people, ``We are going to use your money wisely, 
and we are going to protect the border in a way that makes 
sense. And, by the way, Mexico is not going to pay for it.''
    So, I urge you to speak truth to power in that regard. The 
sooner the President gets some credibility on this, I think the 
better off we all are, and I think it would make your job much 
easier. My two cents' worth.
    And, by the way, you will get a lot of bipartisan support 
immediately for budget requests that are based on sound ideas 
about securing the border. I think the majority of the Senate--
and I cannot speak to the House--is not going to sign a blank 
check for a wall that we know is never going to be built. So, 
the sooner we all get honest about this, I think the better off 
we are.
    On the extreme vetting, I get what you are saying that it 
will be applied to very few people. But, if it is the policy of 
our country to increase the questions asked for visa 
applications all over the world and to expose the 38 visa 
waiver countries to this possibility, it has a dramatic impact, 
and you have to understand, Secretary Kelly, that if they know 
we are going to look at their phones--I am talking about bad 
guys. I have had some experience with bad guys. If they know we 
are going to look at their phones and they know we are going to 
ask them questions about their ideology, they are going to get 
rid of their phones, and guess what they are going to do on 
ideology? They are going to lie. Are we going to use 
polygraphs?
    Secretary Kelly. We could not do that for all of the people 
that we currently put into secondary, no. But, your point is 
well taken in terms of if we were doing these things routinely, 
but there are databases we look at that cause us to bring 
someone into secondary. Travel patterns--I would prefer not to 
go into it, but travel patterns tell us a lot about a person, 
and that would get someone to go into secondary.
    But, generally speaking, the average tourist coming into 
the United States is not going to have their--we are not going 
to ask them--they are not going to go into secondary.
    Senator McCaskill. But, we are going to tell them we might 
ask them about what they--I think the things that have been--
was the article accurate that they are going to be asked how 
applicants view the treatment of women in society, whether they 
value the sanctity of human life, and who they view as a 
legitimate target in a military operation? Are we going to 
explain to all of our friends across the world that they could 
be questioned like that if they come into the United States?
    Secretary Kelly. I would not say those would be questions 
we would ask.
    Senator McCaskill. So, this article is incorrect, that this 
is what is being considered?
    Secretary Kelly. Which article is it?
    Senator McCaskill. This was a Wall Street Journal article 
yesterday that said visitors to the United States could be 
forced to provide cell phone contacts, social media passwords, 
and answer questions about their ideology, according to Trump 
Administration officials.
    Secretary Kelly. those questions you have indicated are not 
questions that I think would be used in the secondary kind of 
questioning. Once again, I go back to very small numbers. It is 
effective to catch people. They are coming into the country, 
but they are not really here yet. So, if they do not want to 
cooperate, they can go back.
    Senator McCaskill. But are we not telling them what they 
need to do to get in? I mean, that is what is weird here. It 
seems to me we are signaling something that is very un-American 
to the rest of the world by announcing this policy. Every 
Ambassador in Washington read this article in the Wall Street 
Journal yesterday, and every Ambassador in Washington called 
back to their country and said, ``Listen to this. They are 
going to start asking people for their social media passwords 
and about their ideology in America.'' That is incredibly 
damaging, and all the bad guys are going to like just lie. I do 
not get how we get anything out of it, except damage.
    Secretary Kelly. As I say, very small numbers, and we will 
go to those questions or request social media--and I am talking 
right now about at our airports and ports of entry. We will go 
in that direction when the professionals at the counter decide 
that there is a reason to go in that direction. But, the vast 
majority of people will not be questioned in that way. It is 
just like the vast majority of people that come in the country, 
foreigners, for that matter American citizens, we do not go 
into their luggage and inspect their luggage. It is the same 
kind of thing. We will do it when we think there is a reason to 
do it.
    Senator McCaskill. Well, as you can tell, my hair is on 
fire about this. I am really upset that America would be saying 
this to the world. And, if this needs a classified briefing in 
terms of understanding better what the plans are and who would 
be pulled, and if somebody can explain to me how we get 
terrorists when they know all they got to do is lie to the 
questions, and buy a burner before they come to America?
    Secretary Kelly. I think you know, Senator, I mean, this is 
nothing new. We have been doing this, to the best of my 
knowledge, my staff tells me, for a number of years.
    Senator McCaskill. We have never announced that it is the 
policy of America that all foreign visitors to our country 
could be subjected to this kind of questioning and this kind of 
intrusion.
    Secretary Kelly. Questioning, again, I am not aware--the 
questions you recited are not questions that I am familiar with 
at all, and I do not----
    Senator McCaskill. That is what I want to get to the bottom 
of.
    Secretary Kelly. Yes.
    Senator McCaskill. And, I will just tell you, Americans 
would never put up with this in other countries. If all of 
these countries sent a signal that if you come to our country--
can you imagine a U.S. Senator saying, ``Oh, yes, well, let us 
go to Japan, and they are going to take my phone for 3 days if 
they feel like it. And, they are going to ask for my social 
media passwords or I cannot go in.'' Or, ``They are going to 
ask me questions of my ideology.'' I mean, can you imagine 
anybody in America wanting to go there? And, we do not want to 
send that signal. That is the essence of my questions, 
Secretary, and if you could follow up with us about how this is 
going to be applied and clarify it to the world that we welcome 
our friends to America, I think that would be very helpful.
    Chairman Johnson. Thank you, Senator McCaskill. Again, I 
will just remind you, in fiscal year 2016, approximately 24,000 
devices were searched, so this is not new. I think it is being 
somewhat blown out of proportion.
    Secretary Kelly. Mr. Chairman, if I could add to that, of 
the ones that were searched, a very small percentage are 
actually gone into forensically, if you will. It is essentially 
they turn it on, we would like to see the pictures. And, again, 
we find child pornography. We find really grisly photographs of 
terrorists acts. We are not sending these--we could if we want 
to, and in some small numbers we do, but we do not send them to 
a place to be forensically taken apart and----
    Chairman Johnson. And, unfortunately, publicizing this does 
make it less effective.
    Senator Hoeven has graciously allowed the Chairman of Armed 
Services the slot ahead of him, so, Senator McCain.

              OPENING STATEMENT OF SENATOR MCCAIN

    Senator McCain. Thanks, Senator Hoeven.
    You know what sets my hair on fire? The fact that we know 
that coming out of Raqqa are people that have been directed to 
come and get into the United States of America and commit acts 
of terror. Is that not true?
    Secretary Kelly. Yes, sir.
    Senator McCain. That sets my hair on fire.
    Secretary Kelly. That is absolutely true.
    Senator McCain. Does it set our hair on fire that there are 
now, we know, published reports, there are efforts at taking 
these devices and implanting explosives and committing acts of 
terror with this technology? Does that set your hair on fire?
    Secretary Kelly. It does, Senator.
    Senator McCain. And, they are developing technology right 
now to put--one of the reasons why there has been some of the 
ban on what can be brought on an airliner sets my hair on fire 
right now. So, I am really worried about offending every 
Ambassador in Washington. That has always been one of my 
greatest concerns, is how they feel, and I certainly would not 
want to offend their feelings. But, the fact is that there are 
people being trained in Raqqa today that are leaving Raqqa and 
trying to get to the United States and use various devices to 
commit acts of terror in the United States of America. True?
    Secretary Kelly. It is true.
    Senator McCain. Thank you. So, maybe we ought to put a 
little perspective on this in our hysteria.
    Secretary Kelly. If I could add to it, Senator.
    Senator McCain. Go ahead.
    Secretary Kelly. We know there are somewhat in the 
neighborhood of 10,000 European citizens who are in the fight, 
in the caliphate, Iraq and in Syria, and as that caliphate is 
being reduced, those individual fighters are being encouraged 
to return to Europe and do terrorist-type things.
    Now, in many cases, because of the nature of Europe and the 
borders and what-not, lack of borders, in many cases the 
countries where their citizens do not know that they have been 
out of the country fighting in Syria, to the point of visa 
waiver countries, so we are in a position now where someone who 
is in Raqqa today returns to--pick a country--and basically can 
get on--he is not in any database, and can get on an airplane 
and fly here under the Visa Waiver Program (VWP) and be in the 
United States, that does not keep me up at night too much, but 
it does keep me up. So, we are looking at visa waiver; we are 
looking at all kinds of ways to keep these people out.
    Senator McCain. I want to make sure that we are not 
restricted from looking at anybody's electronic device given 
the public information that we know of their attempts at trying 
to develop these capabilities in order to set off bombs.
    Also, by the way, I tell you what does set my hair on fire, 
and that is that we now have Phoenix, Arizona, as the major 
distribution point for Mexican-manufactured heroin coming into 
this country across the Sonoran border. Is that true?
    Secretary Kelly. It is true, Senator.
    Senator McCain. And, it is killing people all over America, 
including some Governors in Northeastern and Midwestern States 
are saying it is an epidemic, particularly a group of Americans 
that I care about, and that is older white males. Is that 
right?
    Secretary Kelly. It is absolutely right.
    Senator McCain. OK. So, we need to do one hell of a lot 
better job on this drug trafficking and human trafficking that 
is coming across our border. And, I am happy to tell you that I 
hear from my friends on the Border Patrol who say their morale 
has gone up now that we have your kind of leadership.
    By the way, I am not sure you should have taken all that 
bullet for the travel ban, but that is a subject for another 
day.
    But, what are you going to do about--can you not interpret 
a wall the word ``wall''--as being drones, towers, fences, 
attempts at detecting--using technology to detect tunnels, to 
have really what is an electronic wall plus the personnel? 
Could that fit the definition of a wall and maybe stop this 
flood of Mexican-manufactured heroin that is flooding into this 
country and killing people at a very great rate, including the 
fentanyl which is particularly lethal?
    Secretary Kelly. Yes, sir. In my view, the wall is all of 
that. Just before you came in, we had this discussion. In my 
view, the wall is all of that.
    Senator McCain. So if we interpret the law as that, I think 
most Americans would support it.
    Senator McCaskill. True.
    Senator McCain. But, however, we have a problem with 
Mexico. Right now there is a lot of anti-American sentiment in 
Mexico. If the election were tomorrow in Mexico, you would 
probably get a left-wing, anti-American President of Mexico. 
That cannot be good for America.
    Secretary Kelly. It would not be good for America--or for 
Mexico.
    Senator McCain. OK. Then, finally, would you just tell us a 
little bit about--and I thank the indulgence of my colleagues--
what kind of cooperation are you getting from the Mexican 
authorities and what kind of cooperation are you not getting?
    Secretary Kelly. We are getting a huge amount of 
cooperation from the Mexicans. Senator, I go back to my time 
when I was in uniform at SOUTHCOM, very good relationships with 
the Mexicans, both on their Southern border where they stopped 
160,000 illegal immigrants from Central America last year, all 
the way up to the Northern border. The relationship between the 
local authorities on our side of the border is pretty good with 
the local authorities on the other side. I count some of the--
certainly, the head of the army and the navy as friends. I was 
down there about a month and a half ago, had a great meeting, 
all the way up through with the President.
    Senator McCain. How serious is the corruption?
    Secretary Kelly. Corruption is very widespread, and much of 
that is due to the profits that come out of the drug use in the 
United States. There is no doubt it, corruption is widespread. 
They are trying to get after that. It is a dangerous place 
because of the corruption and the trafficking, most of it 
fueled by U.S. drug consumption.
    Senator McCain. Well, the heartbreaking one to me is the 
human trafficking, Mr. Secretary, and I wish all Americans were 
aware of how terrible this situation is, these young girls 
being transported up, hooked on drugs. It is so terrible, a lot 
of times we do not like to think about it. How high is that on 
your priority list?
    Secretary Kelly. Very high. In fact, the good news is for 
really the fifth month in a row, but certainly the second big 
month in a row, the movement of--the human trafficking of 
people in general is down significantly, and to your point, 
young girls in particular in the family units down even more 
significantly. And, that is all as a result of what we have 
started to do on the border and, frankly, my working personally 
with the Central American Presidents, attorneys general (AG), 
religious leaders, and with our relationship with Mexico.
    Senator McCain. Well, the next time you do a travel ban, 
how about thinking it through? Thank you.
    Chairman Johnson. Senator Hoeven.

              OPENING STATEMENT OF SENATOR HOEVEN

    Senator Hoeven. Thank you, Mr. Chairman.
    General Kelly, good to see you again. Thank you for being 
here.
    Secretary Kelly. Sure.
    Senator Hoeven. And, thanks for the important work you are 
doing. In terms of the mix, we are talking about 
infrastructure, we are talking about technology, we are talking 
about people. How do you make sure you have the right mix as 
you put that together?
    Secretary Kelly. On the wall?
    Senator Hoeven. Yes.
    Secretary Kelly. We really have to rely on the folks that 
work the border. The younger agents are down there doing the 
scut work every day, but some of the more senior agents, they 
know the border and their sector better than anyone, and they 
can tell us. And, we will do that study.
    Senator Hoeven. I am a member of the Appropriations 
Committee for Homeland Security, and we are putting together 
your appropriation for fiscal year 2017, and then, of course, 
we will work on 2018. So, it is very important that we have the 
resources. When we talk about building a wall, as you have 
defined, that wall is not only a wall itself and fencing, but 
it is also technology and people. It is very important that we 
have that funding in your appropriation bill for fiscal year 
2017, is it not, to secure the country? That would be an 
incredibly important priority for you, would it not?
    Secretary Kelly. It is, yes, sir.
    Senator Hoeven. OK. Thank you. The second thing is metrics. 
What metrics are most important? You provide us with some 
metrics here. We appreciate that. It is encouraging. It shows 
that you are having success. Tell us, what are the most 
important metrics that we need to be cognizant of? And then, 
how do we use them to make sure that the American people 
understand what is going on on the border and, that we are 
getting to a more secure border?
    Secretary Kelly. I think certainly the metrics are people 
that do not cross into the United States illegally. Another 
metric would be the amount of--and it mostly comes through the 
ports of entry, which is another discussion that we can 
certainly have here, but the amount of drugs that come through. 
But, as I said so many times when I was in the United States 
Southern Command, once the drugs get to Mexico, Central 
America/Mexico, they are essentially in unless we do something 
about the border.
    Now, I think the Senator knows virtually all of the heroin 
consumed in the United States is produced in Mexico, from poppy 
to laboratory to packaging to in the United States. All of the 
cocaine that we consume comes up the same way. Much of the 
methamphetamine comes up the same way. An awful lot of opiate 
pills that are counterfeit--the counterfeit pills come up 
through that, fentanyl largely through Mexico but now 
increasingly directly from China to the United States by the 
U.S. Mail. It is an unending struggle, but it really does go 
back to--and I was just at a meeting last week or early this 
week--last week now, with the President and a number of people 
to get after this drug consumption in the United States. One of 
the first conversations I had with then Candidate Trump was 
when he brought up to me the issue of securing the Southern 
border. I said, ``Boss, Mr. Trump, there is no way we are going 
to do that unless we get after drug consumption in the United 
States.'' And, I do not mean arresting more African American 
guys and throwing them in jail for dealing. I mean, no kidding, 
a comprehensive drug demand reduction.
    Mr. Trump has taken that on and has put together a task 
force, so from rehab to law enforcement to try to stop the 
production in Mexico, all of that adds up to we will have a 
much more secure border if we can stop the drug demand in the 
United States. And, we have never had--some States have, some 
communities have, several organizations have tried, but we have 
never had a comprehensive campaign against it.
    Senator Hoeven. As we increasingly secure the Southern 
border, would that not put more pressure on the Northern border 
and other ports of entry?
    Secretary Kelly. On other ports of entry for sure. The 
beauty of the Northern border is Canada. I mean, they are 
committed, to say the least. They have very low rates of 
corruption. They have tremendous law enforcement, and our 
partnership with them just could not be stronger. So, that is 
the advantage, and I hope over time Mexico--and, again, the 
strains on the Mexican society, the violence, again corruption, 
we can hope that that gets better. They are trying. My 
relationship with senior--in fact, right after this I will meet 
again, for about the fourth or fifth time, with a good friend 
who is the foreign minister of Mexico. I just had the military 
leadership, which play a different role in their society than 
our senior military people do. My HSI people, my CBP people, my 
ICE people are in Mexico in large numbers, as is the FBI. The 
collaboration is very good, law enforcement. It is just not----
    Senator Hoeven. But, you would agree we need to do more on 
the Northern border as well, and what are those security 
measures? Unmanned Aircraft Systems (UAS), for example? 
Sensors? What are the priorities on the Northern border for 
you?
    Secretary Kelly. Well, right now there is not nearly the 
same level of cross-border crime and what-not. We obviously 
need to watch it. One of the things the Canadians recently did 
was to allow visa travel--non-visa--Mexicans to travel to 
Canada without visas, and we are seeing a little bit of an 
increase in Mexicans coming illegally into the United States 
from the north. We are working with them. I am on the phone 
with my counterparts in places like Canada all the time.
    But, we obviously have to watch the threat. I mean, if we 
were successful in drying up the production of heroin in, say, 
Mexico, probably impossible----
    Senator Hoeven. I am not talking just drugs. I am talking 
terrorism, I am talking any--as you continue to secure the 
Southern border, it is going to create pressure in other 
places, and that is why we want to make sure that we are taking 
the necessary steps on the Northern border as well. And, I 
would invite you to--at the Pembina border station, which is 
essentially Grand Forks, North Dakota, your border station 
there, they have responsibility for 900 miles of border, all 
the way from the Great Lakes through most of Montana. And, we 
are using everything from Predators, the Grand Forks Air Force 
Base there has Global Hawk. In fact, we have a UAS test site, 
and the CBP station, they fly out of Grand Forks Air Force 
Base. And, I would invite you to come up and see the 
technology. You talk about cooperation with the Canadians and 
also use it as an opportunity to build on some of that 
cooperation with the Canadians, because you are talking 900 
miles of border without a fence. We are going to have to 
continue to build those relations and that technology to do the 
job. And, I hope you would come see what we are doing there.
    Secretary Kelly. Absolutely. I will do that, Senator.
    Senator Hoeven. Thank you. Appreciate it.
    Secretary Kelly. Yes, sir.
    Senator Portman. [Presiding.] Thank you, Senator Hoeven. 
Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you. I did not want to disappoint 
anyone, so I am going to raise the Northern border in the very 
beginning.
    Obviously, the law that was passed requires that you meet a 
June deadline for telling us what the threats are and how you 
are going to secure the Northern border. Can you tell me 
whether you are on target to meet that June deadline?
    Secretary Kelly. We are always on target. I was just up in 
Seattle and met with the local law enforcement folks. I have 
been on the phone a number of times on REAL ID with the 
Governor up there, so we have a little bit of a relationship. 
But, more importantly, I talked to my people that are 
responsible for that stretch from the Pacific inland for about 
650 miles, something like that. They have, again, great 
relations with their counterparts on the other side of the 
border. The real strength is the databases.
    Senator Heitkamp. So, we can expect a report in June which 
then we can react to in the next budgetary time period, 
correct?
    Secretary Kelly. Yes, Senator. Yes.
    Senator Heitkamp. OK. I just want to remind you that 8 of 
the 15 Senators actually represent the Northern border.
    Secretary Kelly. That has my attention, believe me. I love 
the Northern border.
    Senator Heitkamp. I did not think it escaped your 
attention. And, obviously, we would love to host you. I am 
deeply concerned about personnel issues on the Northern border 
and hope that whatever you are looking at in that study 
includes securing enough personnel to do the job and to meet 
the challenges.
    I want to talk a little bit about Central America. It is a 
topic that I know you are well familiar with, and it was one 
of, I think, the great opportunities that we had given your 
position in Southern Command and given the fact that you have 
so many great relationships. We continue to be challenged by 
the Northern Triangle countries. The rate of murder and mayhem 
is unparalleled throughout the world, which is really saying 
something. We are looking at the Alliance for Progress as a way 
to kind of build that soft power, not just look at border 
security but how can we, in fact, refugee in place.
    It is my understanding that you are convening a conference 
in Miami. One of the concerns that I have is who is going to 
all be at the table, because I think it is critically important 
that everyone be represented, whether it is NGO's, whether it 
is immigration groups, whether it is advocacy groups, that we 
all understand that we have a role in securing--providing some 
security for those Central American countries.
    Can you tell me what the plan is and what you hope to 
accomplish in the Miami conference?
    Secretary Kelly. Yes, Senator. First, I would tell you that 
I am close to the Central Americans. In the short period of 
time I have been in the job, I have been down to Guatemala. The 
President of Honduras was just up in my office. He is someone 
that I have worked closely with before. I am going to Honduras 
soon. I have been to Mexico since I have been in this job and 
met Mr. Tillerson there, Secretary Tillerson there. So, I have 
met all three from the northern tier countries--Guatemala, El 
Salvador, and Honduras. All three of their attorneys general 
came, and we had great discussions--again, friends. Mr. 
Videgaray is in and out of Washington quite frequently. I plan 
another trip to Mexico. So, that is where we are in terms of 
what we have been doing there.
    Now, when I briefed, when I had discussions with Mr. Trump, 
when he was still Mr. Trump, I talked to him about the issue, 
again, of drug use in the United States, drug trafficking, what 
that does to these countries. But, some of the things--and I 
will take a little credit--not much but a little credit for 
this. Some of the things, when I was still on active duty in 
Southern Command, some of the things we helped the northern 
tier countries implement have driven down. Now, the death rates 
are still horrific.
    Senator Heitkamp. So, what do you hope to accomplish in 
Miami and who----
    Secretary Kelly. It will be a 2-day conference. One day 
will be economic. We have certainly one of the real powers 
behind this is the Inter-American Development Bank. EU will be 
there, is my understanding, some European countries. Obviously, 
we will have--I am hoping to have the Secretary of Commerce, 
the Secretary of Treasury. I will be there; the Vice President, 
our Vice President, is coming down. There will be businessmen 
and--women. I believe all three of the Central American 
Presidents and their teams will be there for this. I have the 
Canadian--the Mexicans will co-host this.
    Senator Heitkamp. Will you be reviewing the Alliance for 
Progress and whether that has been valuable and what changes we 
need to make as it relates to that commitment?
    Secretary Kelly. The Alliance for Prosperity----
    Senator Heitkamp. Prosperity, I mean. Excuse me.
    Secretary Kelly. Prosperity, right. And, I could go into it 
if you want, but I would just say that I had a lot to do with 
organizing that with the three countries. They have put their 
own money against it. We, you, the Congress has put money 
against it. The real thrust of this event in Miami in mid-June, 
I think, will be outside investment as opposed to U.S. 
investment.
    Senator Heitkamp. Right.
    Secretary Kelly. Although outside private investment. So, 
that is what we are trying to accomplish--that is what we will 
accomplish.
    Senator Heitkamp. I think there are tons of folks who want 
to help out, in the NGO community especially, and I think that 
it takes me to the kind of next topic, which is why people are 
leaving Central America. And, I would say there has been a lot 
of confusion back and forth on what is going to happen to women 
coming to the border with children from Central American 
countries.
    Just a quick yes or no. There have been reports that you 
are considering separating children from their mothers at the 
border, and I want to know, yes or no, whether that is true.
    Secretary Kelly. Can I give you more than a yes or no?
    Senator Heitkamp. You can just a little bit.
    Secretary Kelly. OK. Only if the situation at that point in 
time requires it. If the mother is sick or addicted to drugs or 
whatever. In the same way we would do it here in the United 
States, not routinely.
    Senator Heitkamp. So if you thought that a child was 
endangered?
    Secretary Kelly. Sure.
    Senator Heitkamp That is the only circumstance to which you 
would separate----
    Secretary Kelly. I cannot imagine doing it otherwise.
    Senator Heitkamp. Yes, I just want to--I know a lot of 
people think that that might provide a deterrent, and we have a 
number of people within the Heartland Alliance program, and I 
would ask that this letter--and I know you get a lot of 
correspondence, obviously, sent to you--March 8th--but it is 
some comments from women who--I ask that this be put in the 
record.\1\
---------------------------------------------------------------------------
    \1\ The letter referenced by Senator Heitkamp appears in the 
Appendix on page 334.
---------------------------------------------------------------------------
    Chairman Johnson [Presiding.] Without objection.
    Senator Heitkamp. I just want to read a couple of them 
because I think it is really important to understand what is 
driving people north.
    ``My faith was in God when I made the decision to leave. I 
had never heard of asylum. All I knew was that the United 
States was a place where people could be protected and safe.''
    ``I came to the United States. I did not think about the 
policies. I was just considering that the United States is the 
thing that could protect us from violence where we were 
living.''
    I think you know almost better than anyone else who serves 
in this Administration how horrific the conditions are. And, I 
appreciate your answer, and no one could disagree that if a 
child is in danger and you believe that, that there should be 
separation and that that would be a rare circumstance. Is that 
correct, General Kelly?
    Secretary Kelly. That is, yes.
    Senator Heitkamp. Thank you, Secretary.
    Secretary Kelly. That is a yes.
    Senator Heitkamp. Thank you, Mr. Chairman.
    Chairman Johnson. Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman. And, it is good to 
see you, Secretary Kelly. It is good to have you here before 
the Committee. I appreciate your testimony and also wanted to 
thank you again publicly for coming to Detroit upon my 
invitation and spending some time with the Muslim American/Arab 
American community, Latino/Hispanic community, and, of course, 
we had a wonderful opportunity to see firsthand one of the 
busiest border crossings in North America there, from Detroit 
to Windsor into Canada, and I appreciate your interest and your 
involvement in that meeting.
    But as you know, Secretary Kelly, there has been an 
appreciable uptick in hate crimes and crimes against religious 
institutions across the country. Last month, Senator Portman 
and I led a letter that was signed by every single Member of 
the Senate asking your Department, the DOJ, and FBI to take 
action against the rise in hate crimes against Jewish community 
centers, mosques, and other religiously associated locations. 
And, as you are aware, it is rare to have a letter signed by 
all 100 of us. This is how serious we take it.
    It has been about 29 days since the letter has been written 
to you, the Attorney General, and the FBI, and I was just 
wondering when should we expect a response back to all my 
colleagues.
    Secretary Kelly. It should have been a long time ago. I 
will apologize, and I am on it. But, I will tell you this, that 
I have added our approach to this issue to add mosques and any 
religious building, church, whatever, that might be affected by 
this.
    We do have some capability within the Department to advise 
individuals that want to be advised about, say, security 
precautions. I think my staff told me yesterday virtually all 
of the Jewish centers, large groups, have taken that advice. We 
have teams that go out and travel. So, we are very--I do not 
know if any of the mosques have responded yet, but as I say, I 
add all religious communities to that, not just--I have told my 
people let us just not talk one religion, let us just not talk 
terrorism, for that matter. How about we talk about white 
supremacists and things like that?
    But, I apologize for not getting back, and I will get on 
that today.
    Senator Peters. Well, I appreciate that, Secretary. And, I 
think it is obvious from your comments you do believe there is 
a legitimate fear of hate crimes. In our communities that they 
need to be concerned about.
    Secretary Kelly. I do.
    Senator Peters And, given that, will you commit to 
continued support for programs that support vulnerable 
locations such as the nonprofit security grant program that 
your Department runs?
    Secretary Kelly. I will.
    Senator Peters. Thank you. I appreciate that, Secretary.
    As you know, Michigan has an extension of the REAL ID 
enforcement allowing Federal Agencies to accept driver's 
licenses and identification cards from Michigan. It runs 
through October 10, of this year, in 2017. What is the current 
status of REAL ID implementation across the Nation?
    Secretary Kelly. As I know the Senator knows, the REAL ID 
law was passed by Congress in 2005, and the real first big 
deadline is this January coming, I think it is the 22nd, to 
where you will have to have an appropriate REAL ID, approved 
REAL ID, or if you do not have that, something like a passport, 
in order to fly domestically and internationally.
    The map--and I addressed most of the Governors of all of 
the States, I think 48 of the States, about 3 weeks ago, and 
for those that are not compliant--and there are right now I 
think five that for sure are not even really trying, and that 
is their call. I mean, I am not criticizing them, but they are 
not really trying for issues inside the State, and then there 
are another 18 or 19 States that are going in the direction 
but, again, are unsure if they could be compliant. So, when I 
talked to the Governors--and I would say the same thing here--I 
think the Governors have to kind of have a real serious 
conversation with their citizens, with their staffs first, and 
decide whether they can hit the mark in January; and if they 
cannot, to have a conversation with their citizens about you 
really need to consider getting a passport, as an example. A 
passport is for 10 years, $110 I think to get a passport, very 
easy to get. Because in January, if they do not have some 
compliant ID, they are not going to be able to get on an 
airplane, domestically or otherwise.
    This scared me to death, actually, because I thought that 
the people I was talking to in Washington, which is really a 
red State right now, probably not going to get there. And, by 
the way, the Governors, several Governors have asked me to send 
out some people from my staff to take a look at where they are, 
to do an appraisal of if they are going to make it, so then 
they can talk to their people. And, I have made that available 
to all the States.
    But, the point is when I was talking to these businessmen 
and--women in Seattle who were, very well informed people, they 
were all under the impression that their State-enhanced 
driver's license was REAL ID compatible, which it is not. So, 
if people like that were unaware of the ID situation, I would 
say the vast majority of the good citizens of Washington State. 
So, the point is where it is right now, if you are not fully 
compliant, on the 22nd of January coming then you will have to 
have a form of ID like a military ID or a passport, passport 
card, in order to get on an airplane. That is where it is right 
now.
    Senator Peters. Under Section 102 of the REAL ID Act, the 
DHS can waive laws to facilitate the construction of a border 
wall. This provision has been used previously to waive dozens 
of laws, including some environmental laws. What laws does DHS 
intend to waive to build this new wall along the Southern 
border?
    Secretary Kelly. First, obviously, do the nuts-and-bolts 
survey of where we are going to put wall, and at those points, 
as I understand it--and I would have to consult my lawyers, 
obviously, but places like the Indian reservation would be 
complicated. We are working with the Indian reservation in 
Arizona, 75 miles of the border. They already have some 
technology there. That would be a place that would be 
unwilling, unlikely to take on. There are some eminent domain 
issues. We will try to do as much as we can without those kind 
of issues coming to a head. Certainly, I am very aware of any 
critical habitat, particularly say in the Big Bend part of 
Texas.
    So, again, Senator, not going to build a wall where it does 
not make sense, but we will do something across the Southwest 
border.
    Senator Peters. Well, I understand you are going to need 
some time to review some of these issues, and perhaps we can 
work closely with your office as that goes forward. But, I 
would just ask if you would be willing to commit to one item, 
and that would be not to waive Freedom of Information Act 
(FOIA) under the wall project so that we can have full 
transparency.
    Secretary Kelly. Can I get back to you?\1\ But, it sounds 
like a yes to me.
---------------------------------------------------------------------------
    \1\ The correction to Mr. Kelly remarks appear in the Appendix on 
page 346.
---------------------------------------------------------------------------
    Senator Peters. Great. Appreciate that. Thank you.
    Chairman Johnson. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you, Mr. Chairman and Ranking Member. 
And, good morning, Secretary Kelly. It is nice to see you 
again.
    There is a specific program within ICE's Homeland Security 
Investigations Division that focuses on bringing law 
enforcement scrutiny to the adjudications of visa applications. 
The program is called the ``Visa Security Program (VSP).'' 
Right now, in 30 United States diplomatic posts around the 
world, specially trained law enforcement teams are dispatched 
to provide recommendations to the State Department's consular 
offices in order to help these diplomats make informed 
decisions about whether to grant a visa to a foreign national.
    Bringing law enforcement skills to the visa adjudication 
process makes a lot of sense, at least to me--I hope it does to 
you, 
too--and it should probably be, I think, implemented across the 
board for all diplomatic posts that issue visas.
    We are working on possible legislation on this topic, so I 
wanted to ask two questions. Would you support the expansion of 
visa security teams to more diplomatic posts? And, is the visa 
security team fully funded in the fiscal year 2018 budget 
request?
    Secretary Kelly. I will have to check on the funding issue, 
but I think anything we can do overseas to make better 
decisions about who might come to the United States for 
whatever reason is a good idea and should be reinforced, and we 
should be constantly looking at even better ways to do that. 
But, I will get back to you on the funding, if that is all 
right.
    Senator Hassan. OK. That is fine. Thank you.
    I want now to move to a different topic. As you know as 
well as anyone, we have seen multiple incidents of violence at 
the public or non-sterile areas of our airports. In 2013, a TSA 
officer at Los Angeles International Airport was murdered at 
the TSA checkpoint by a disturbed individual, while earlier 
this year an active shooter killed five people near the baggage 
claim at the Fort Lauderdale airport.
    Last spring, suicide explosions that occurred in the public 
areas at Brussels airport and Istanbul Ataturk airport killed 
61 people. Yet, in the President's initial budget release, the 
Federal support for securing the public portions of airports 
has been gutted. The budget cuts the Visible Intermodal 
Prevention and Response (VIPR) teams, the behavioral detection 
officer program is eliminated, and TSA grants to reimburse 
State and local law enforcement for their patrols at airports 
are also being slashed.
    So, amid this increasing threat to our airports, why is the 
Administration cutting these key counterterrorism measures?
    Secretary Kelly. The VIPR teams for sure are something that 
I am working very hard to save.
    Senator Hassan. OK.
    Secretary Kelly. As far as the grants go--and this does not 
fall under this sanctuary city thing or anything like that. I 
think the expectation is that parking lots in areas outside the 
immediate, TSA security zones really belong to the State and 
local--the airports are great generators of revenues necessary 
for various States, and I think the thinking there is that the 
State and local folks need to--I am familiar with the Boston 
airport. I mean, there is more State police that kind of cycle 
around that airport, not to mention Boston police.
    So, I think the thinking is that for outside the security 
perimeter that is established by TSA, that would belong more to 
the local community.
    Senator Hassan. Well, as a former Governor, I might suggest 
that we discuss that a little bit more, because I know how much 
additional work securing even the non-sterile areas are. And, 
it is a partnership to be sure, but I am very concerned. Money 
is not growing on trees in our State budgets, and so I think it 
is something we really need to look at, because the overall 
security climate at airports I think will really be compromised 
with those grants. So, I would look forward to discussing that 
with you more.
    I will submit for the record a question on foreign airport 
staff screening.\1\
---------------------------------------------------------------------------
    \1\ The question from Senator Hassan appears in the Appendix on 
page 425.
---------------------------------------------------------------------------
    But, I did want to talk a little bit about DHS and cyber 
defenses. In an effort to strengthen its cyber defense, the 
Department of Defense recently launched two programs to 
capitalize on the vast network of U.S. computer security 
researchers who may not want to work for the Federal 
Government, but still want to help secure our Nation from cyber 
threats. The first was a pilot program called ``Hack the 
Pentagon,'' and it provided hackers across the country with 
legal authorization to spot vulnerabilities in DOD networks in 
return for cash payments.
    The second program was the establishment of a vulnerability 
disclosure policy which provides a legal avenue for these 
hackers to hunt for and report vulnerabilities in DOD networks 
without fear of prosecution.
    I think these are really forward-thinking cyber programs 
that leverage an untapped resource in the United States. So, 
the question is: Has DHS considered implementing similar 
programs?
    Secretary Kelly. One of the things--I do not know if the 
Senator was here. One of the things now that I have a Deputy--
this is a critically important issue. It goes without saying.
    Senator Hassan. Right.
    Secretary Kelly. Now that I have a Deputy, this is another 
one of those things, the whole cyber enterprise within DHS. 
But, another thing we are already doing, and that is, just one 
of the reasons I was in Seattle recently, is reaching out--as 
is, I think, all of government--reaching out to the commercial 
sector, because the answers are just not--they are definitely 
not just in the Federal Government.
    Senator Hassan. Right.
    Secretary Kelly. They are everywhere. So Elaine Duke, now 
that she is confirmed--and thank you for that--will take this 
on among a number of other things that she will focus on. I am 
with you on this. And, I was not aware of these programs, but I 
am now, and I could get back to you, come over and talk to you 
about it.
    Senator Hassan. I think that would be great just because, 
again, we have a lot of people with talent, skill, and interest 
in serving their country who may not want to come work for the 
government, but we really need their skill and their insight.
    The last area I wanted to touch on, I know you referenced 
this morning the President's commission on the opioid epidemic, 
and I was glad to see you were there at the listening session 
on opioids and substance misuse last week. And, you and I have 
spoken about the issue before, both in our one-on-one meeting 
and at your confirmation hearing, and we have agreed on the 
need to crack down on illegal opioids, while also dealing with 
the demand side of the problem through prevention, treatment, 
and recovery efforts.
    So, I am looking to find out more about the goals of the 
President's new commission on combating drug addiction and the 
opioid crisis which he established by Executive Order last 
week. And, I want to ensure that the rhetoric here is met by 
real action that reflects the seriousness of this crisis.
    The news reporting on the commission has been a little 
scattered, so the first question for you is: Are you a member 
of the Commission?
    Secretary Kelly. I am.
    Senator Hassan. OK. That is great to know. And, my 
understanding from the Executive Order is that the commission 
has 90 days to make a report on interim recommendations. Do you 
know what the process will be to get to those recommendations?
    Secretary Kelly. I do not. It is in the staff realm, but 
let me just say this, to say the least, is a passion for me. 
And, my entire time in Southern Command, I talked about this, 
to the point of getting a fair amount of--getting cross-wise 
with a fair amount of people in the White House and other parts 
of our government.
    The beauty, I think, of this President was--I do not know 
if you were in the room when I made this comment before, but 
one of the first conversations I had with President-elect Trump 
was this issue of drugs, drug demand, what it does to not only 
our own country but to certainly the hemisphere.
    Senator Hassan. Sure.
    Secretary Kelly. And, the money it makes available for 
corruption and terrorism and things like that. He has taken 
this bit, 
and he is going to make this work, I believe. So, it is a 
comprehensive--everything from drug demand reduction to rehab 
to law enforcement to helping out the Central American 
republics, to working with Mexico on the heroin production. We 
have great partners down there. So, it is this very long 2,000-
mile, if you will, process of trying to get at the drug demand.
    Senator Hassan. Well, I appreciate that very much. I 
appreciate your presence on the commission. I look forward to 
working with you on it, and I would put a plug in for essential 
benefits in our health care so that people can get the 
treatment that they need. Thanks.
    Chairman Johnson. Thank you, Senator Hassan.
    By the way, I have seen cherry blossoms growing on trees 
here in Washington, D.C. Unfortunately, I have not seen money 
grow on trees here in Washington either. Senator Daines.

              OPENING STATEMENT OF SENATOR DAINES

    Senator Daines. Thank you, Mr. Chairman.
    Secretary Kelly, thank you for being here today. I kind of 
figured that when he put a four-star Marine in charge of 
homeland security, good things would start to happen.
    Secretary Kelly. Not everyone agrees with that.
    Senator Daines. Yes, well, I do.
    I was struck yesterday--we were in the same room. In fact, 
at the same table there was a former Commissioner of the U.S. 
Customs and Border Protection, David Aguilar, here testifying. 
And, I asked him a question about reductions that we are seeing 
in apprehension rates of illegal Southwest border crossings. 
That February data point came out and saw a 40-percent 
reduction in February. When we typically see, because of 
seasonality, anywhere from a 10-to 20-percent increase, we saw 
a 40-percent decrease in February.
    David then followed up and said, ``I believe we are going 
to revise those numbers as we have a little more time here,'' 
because that release came out on March 8th, and now we are into 
April. He said, ``It looks like it is actually a 67-percent 
reduction in the month of March.'' This is not a statistical 
anomaly. Something is going on. We talked about what that is in 
terms of the message that is coming from the Administration 
about enforcing the rule of law. So, I just want to 
congratulate you and the Administration on some early success.
    My question is: These are encouraging results. What 
substantive actions will you be taking in order to make sure 
that we can sustain these reductions that we are seeing early 
on in this Administration?
    Secretary Kelly. The first would be to gain control of our 
Southwest border. Much of what we are seeing here--and the 
second would be to work--I do not know if you were here when we 
were talking about this, the Central American issue of helping 
them, security and economically. Again, I have traveled there 
many times. I call many of them friends. The people from 
Central America that are coming here are overwhelmingly nice 
people, simple for the most part, rural, not highly educated. 
That is just the nature of their societies. But, they come here 
for two reasons: one, lack of economic opportunity; and, two, 
levels of violence, particularly in the cities, that are 
astronomical, although to use Honduras as an example, in the 4 
years that the current President is there, he has taken it 
from, I think, 91 per 100,000, which is what it was when I was 
in Miami on active duty, highest in the world; it is down I 
think to 59. That is still astronomical. Violence across our 
country is about 5 per 100,000 murders. So, it is still high, 
but the point is they are bringing it down.
    I was speaking separately with the President of Honduras in 
my office just last week. What he has done economically, he 
expects to grow his economy by 600,000 jobs in the next 5 
years. This is phenomenal information or progress.
    Jimmy Morales from Guatemala, similar kind of efforts and 
similar kind of successes both in reducing the violence rates 
as well as economics. That is why I think this economic forum, 
if you will, in Miami in June will add to it.
    So, why are they not coming? They are not coming for the 
most part because they do not know what is going on. They have 
heard of the actions of the ICE agents internal to the United 
States, much of it terribly misreported by our press, but that 
said, it has added to the deterrent effect.
    What we are doing on the border, what we intend to do on 
the border, has added to that deterrent effect. These people 
are not wealthy people. Oftentimes, their entire life savings 
are given to the coyotes, the traffickers, to get one, two, or 
three of them into the United States. We know because of the 
focus we are putting on the traffickers now, when we catch 
them, actually prosecuting them, the traffickers now have 
raised their fares, their prices, two and three times. So, what 
used to be, say, $4,000 per individual to get into the United 
States from, say, Honduras is now $8,000, $10,000, and $12,000. 
Well, the people down in those parts of the world cannot afford 
that kind of money. They are already paying more than they 
could afford.
    So, all of that has added to the deterrent effect. My 
appeals personally through the press and to the Presidents and 
the attorneys general from those three countries, the Roman 
Catholic leadership, the Evangelical leadership--I met with the 
Los Angeles Roman Catholic Archbishop, spoke with the 
Archbishop in Houston, again, asked them to contact their 
counterparts, if you will, in those countries to ask, beg the 
people not to take that horribly dangerous trip to the United 
States because you will be sent back and you will not have the 
money, and you will probably, if you are a woman, have been 
assaulted--once, if you are lucky--or if you are a young man, 
you could be siphoned off into the cartel gang Mexican thing. 
So, that is why they are not coming.
    Senator Daines. Yes, well, I think you are also 
demonstrating, in my opinion, the experience you are bringing 
from your Southern Command leadership; I think it is having 
already a significant impact on our country and protecting our 
Southern border.
    Secretary Kelly. Thank you for that.
    Senator Daines. Thank you, truly. Also, I appreciate your 
compassion as you are looking at the effect it is having on 
very poor people who are being taken advantage of as they are 
seeking to come into our country.
    I am from Montana. We think about our Northern border, but 
the Southern border and the methamphetamines that are now 
coming into Montana, and they are coming in from our Southern 
border, are having a huge impact on our State. Mitigating the 
flow of drugs long before they reach our border, as you are 
well aware from your time in command of SOUTHCOM, is very 
important. We discussed the concept at the confirmation 
hearing. What steps have you taken on the job to stymie the 
flow of drugs as well as violence into our country?
    Secretary Kelly. Great question. One of the things we know 
about the flow of hard drugs--marijuana comes in vast amounts, 
but it is also produced in the United States in vast amounts. 
But, methamphetamine, heroin, and cocaine are the big killers, 
and along with that are opiates that are counterfeited, if you 
will, and, of course, not a lot of quality control. But, you do 
not know--the average person abusing opiates in the United 
States does not know that a lot of it is not produced by 
credible--they are produced in labs in Mexico or in other 
places. So, the point is most of that comes into the United 
States in 10-, 15-, 20-kilo loads via the ports of entry, in 
trucks and things like that.
    So, what have I done? We are now looking very hard at the 
ports of entry, which are not really part of the wall, if you 
will, effort. But, look at the ports of entry. If there is 
better technology out there, and I think there is, to look into 
vehicles without unloading the vehicle, particularly tractor-
trailers, to get after it that way. But, I would tell you, 
methamphetamine, helping--working with the Mexicans, they are 
good partners in law enforcement. My folks, I am proud to say, 
Homeland Security Investigations, working with the Mexicans, 
led them--I will just put it that way--to two huge 
methamphetamine labs that were destroyed by the Mexican 
marines, I think in that case. Working with them and 
identifying the poppy fields in the south, the Pacific 
southwest of their country, and offering them perhaps help in 
how to eradicate those, much as we have done for so many years 
in Colombia with coca. That is what we are doing.
    But, the big issue really right now in drugs coming into 
the United States is the ports of entry, and a part of that as 
well is what goes south. We do not look at much going south out 
of our country. The Mexicans do not look at that very well 
either. I would like to extend the effort to look in vastly 
more vehicles going south because bulk money in unbelievable 
amounts travels south out of the United States into the rest of 
the hemisphere to get laundered, I mean billions and billions 
of dollars, and guns. If we point a finger at the Mexicans or 
people who produce--countries that produce drugs, if we point 
our finger at them about the production of drugs, they will 
point their finger right back and say, ``What about guns?'' So, 
we need to do better in the southward flow to go after the 
money and to go after the flow of guns. And, that will take 
some time, some money, some effort.
    But, I think there is a next step, and a next step after 
that in technology. The stuff we have now is pretty good. I was 
up with Senator Peters looking at the busiest traffic point 
between Detroit and Canada. Technology that looks into trucks, 
tractor-trailers, is pretty good. But, I know there is better 
stuff out there, and we will just get after it. But, mostly the 
drugs come in, we believe, we know, comes in in relatively 
small amounts, 10 or 15 kilos at a time, in automobiles and 
those kind of conveyances.
    Senator Daines. Thank you, Secretary Kelly. Thank you.
    Chairman Johnson. Thank you, Senator Daines.
    I just want to remind everybody kind of watch the clock. We 
have great attendance. I appreciate it. I want to make sure 
everybody gets a chance to ask questions. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you so much.
    General Kelly, great to see you. How are you holding up? 
You have a lot on you? You have had a lot of tough jobs before?
    Secretary Kelly. I have been in this job for 15 years, but 
it 
is--no, 3 months seems like 15 years. [Laughter.]
    Senator Carper. I am sure it does.
    Secretary Kelly. This is the most enjoyable thing I will do 
this week.
    Senator Carper. Well, for us, too. [Laughter.]
    We say this often, we say it from our hearts: Thank you for 
taking this on. Thank you for being a voice of reason. Thank 
you for being just a great patriot.
    We have been talking a bit about--I will just follow up on 
a number of the questions that deal with the border, border 
strategy, and that sort of thing. I think the message I hear 
from both sides, on this side and hearing from you as well, is 
we need an all-of-the-above strategy on the border. It is not 
just a wall, it is not just fencing. Those are important in 
appropriate certain places. But, it is comprehensive 
immigration reform that includes a guest worker program that 
sort of takes away the need for people to come up here and get 
stuck up here on this side of the border, but they can go back 
and forth and do good work for our country and go back to their 
own.
    You referenced the Alliance for Prosperity. I am delighted 
to hear the economic summit that you are planning for being 
held in May. Do you have the dates yet on that?
    Secretary Kelly. It is going to be now in June, and that 
was based on our Vice President's desire to attend--either the 
12th--I think it will be the 12th. It might be a little later. 
It will be in Miami just because that is a great place to bring 
Latin Americans because of the language and all of this kind of 
thing. They are very familiar with the city, so that is the 
place to do it.
    Senator Carper. OK. Well, I am glad you are doing it. I 
think that is a smart move.
    One of the things that we need to do is we need to, in 
order to incent the private sector and other countries and 
other organizations to help out in the work that needs to be 
done in Central America so that it actually has some economic 
hope and opportunity and do a better job combating crime and 
violence. We set the example. Our funding for Alliance for 
Prosperity is, I think, very important for that. My hope is 
that you can continue to support it, and I think you know it 
makes sense.
    Secretary Kelly. Absolutely.
    Senator Carper. I like to say for the folks down in Central 
America, you can do it, we can help. They have to do the heavy 
lifting, but we can help, and I think we are doing that.
    Border security, the force multipliers, there are just a 
ton of them. Innovation, we talked about the innovation of 
technology, but it is not just drones and fixed-wing aircraft. 
It is not just helos. But, it is those aircraft but with the 
right kind of surveillance technology, the Vehicle and Dismount 
Exploitation Radar (VADER) system, that kind of thing that is 
actually so much more helpful.
    I mentioned yesterday in my comments, 23 years in the Navy, 
naval flight officer (NFO), P-3 aircraft, mission commander, we 
did a lot of anti-submarine warfare, a lot of stuff off the 
coast of Vietnam and Cambodia. We also did search and rescue. 
And, we did search and rescue with binoculars out of a P-3 
aircraft at 500, 1,000, 2000 feet. Good luck. It is hard to 
find anything. And so, the VADER systems makes all the sense in 
the world.
    But, part of the force multipliers is observation towers. 
They can be fixed, as you know. They can be mobile. They have 
to have the right surveillance systems. Part of it can be 
horses. Some of us have been down--the Chairman and I have been 
down, I think with Claire, maybe with Heidi, to see the horses 
do their work and help be a force multiplier.
    There are motion detectors. There is intelligence, better 
intelligence. How are we doing on the intelligence in terms of 
the intelligence we are sharing with the folks in Mexico and 
further south?
    Secretary Kelly. Yes, sir, the law enforcement 
intelligence, information sharing is very good.
    Senator Carper. OK. Part of the force multipliers are boats 
and ramps so we can get the boats in the water, all kinds of 
stuff. In some places it makes sense, other places it does not, 
but it is an all-of-the-above approach.
    I want to ask you to talk a little bit about leadership and 
the management, the ability to manage this organization. 
Senator Johnson and I and, before that, Tom Coburn and I and 
Members of this Committee worked very closely with Jeh Johnson 
and with Ali Mayorkas to try to make sure that the Department 
had terrific leadership teams, a confirmed senior leadership 
team, and I think many of them are gone now, as you know. We 
had an election. But, we want to be helpful. Elaine Duke was 
confirmed yesterday. We want to be helpful in bringing the rest 
of your leadership team in. You will have to tell us who you 
want, give us a chance to vet them, so we look forward to 
hearing about that.
    The other thing on leadership I have found--and we have 
talked about this before--it would be nice to have--instead of 
all of the Department spread over a half acre throughout the 
greater Washington metropolitan area and Virginia and so forth, 
it would be nice to have people consolidated in a more close-
knit area. That could be St. Elizabeths. I think it should be. 
I was not always a fan of the St. Elizabeths project, but I 
have come to believe that it is the smart thing to do, fiscally 
smart thing to do. Your thoughts, please?
    Secretary Kelly. If I could comment on the leadership.
    Senator Carper. Please.
    Secretary Kelly. I would tell you, you are right, Elaine 
and myself are really the only two political types, and it 
almost--I do not know what that--I cannot quite get my arms 
around the fact that I am a political appointee because of my 
life before this.
    Senator Carper. When you look up a dictionary for political 
appointee, your picture is not there.
    Secretary Kelly. Thank you. But, we have tremendous career 
professionals, so the function of the Department has not from 
when Jeh left and all the rest of the political appointees 
left, stopped at all. We have tremendous long-serving public 
servants that are running the Department now, and as time goes 
on, of course, political appointees will theoretically be 
confirmed by the Senate and will take their places. And then, 
they will learn their jobs underneath those tremendous public 
servants.
    Senator Carper. That is a good point.
    Secretary Kelly. On the consolidation, I do not think--two 
things. DHS I do not think will ever be a functioning, cohesive 
organization to the degree that it should be and could be 
unless it does consolidate somewhere in more or less the same 
building or on the same campus. The first issue.
    And, the second issue is--and as long as the Department 
answers to as many----
    Senator Carper. Committees and Subcommittees?
    Secretary Kelly. Yes, I mean, Jim Mattis has four 
committees that he has to concern himself with, and a number of 
subcommittees. And, that was my life before. This is a very 
different beast, but I do not think it will ever be, as I say, 
as cohesive as it could be so long as we have--I think it is 
119-plus committees and subcommittees that still have 
jurisdiction from the olden days from when the Department was 
formed. It is not impossible to function, but it will not be 
the same so long as there are so many disparate committees to 
answer to and that generates, frankly----
    Senator Carper. Does St. Elizabeths make sense?
    Secretary Kelly. It does make sense, yes.
    Senator Carper. All right. Good. Thank you. My time has 
expired. Thank you so much.
    Secretary Kelly. Thank you.
    Chairman Johnson. Senator Harris.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. Secretary Kelly, I was heartened to hear 
your response to Senator Heitkamp's question about the 
separation of children from their parents. I understood you to 
say that only if the life of the child is in danger would there 
be a separation. Is that correct?
    Secretary Kelly. Depending on what is going on on the 
ground, but that generally would be my approach.
    Senator Harris. And, are you willing then to issue a 
statement to your staff that that is your approach and that 
that is your policy?
    Secretary Kelly. My staff knows already that they will not 
separate anyone unless I am informed and get my permission.
    Senator Harris. Have you issued a directive to that----
    Secretary Kelly. They know that.
    Senator Harris. That is not my question, sir. Have you 
issued a directive?
    Secretary Kelly. My response is they know that, so, yes, I 
have through the leadership told them that if that is going to 
happen, it will only be me----
    Senator Harris. With all due respect, sir, are you willing 
to issue a directive to your staff that that is your policy?
    Secretary Kelly. I have already done that.
    Senator Harris. You have issued a directive?
    Secretary Kelly. Through my leadership.
    Senator Harris. I would like a copy of that then. Is that 
in writing?
    Secretary Kelly. It is verbal.
    Senator Harris. OK. Are you willing to issue a written 
directive to your staff that that is the policy of the 
Department?
    Secretary Kelly. I do not need to----
    Senator Harris. You run an organization of 230,000 people. 
Is that correct?
    Secretary Kelly. Right at 230.
    Senator Harris. And, why are you reluctant then to issue a 
directive to your staff if that is, in fact, your policy?
    Secretary Kelly. I am not reluctant. I have already given 
the verbal--it only really applies to----
    Senator Harris. So are you unwilling, sir, to issue a 
written directive that it is the policy of the Department to 
not separate children from their mothers unless the life of the 
child is in danger?
    Secretary Kelly. I do not need to do that. I have done it 
verbally.
    Senator Harris. So is your answer no?
    Secretary Kelly. My answer is I do not need to do that.
    Senator Harris. You do not need to do it.
    Sir, are you aware that Sean Spicer said that with the new 
Administration that now, finally, the President wanted to take 
the shackles off individuals in this agency? Are you familiar 
with that?
    Secretary Kelly. No.
    Senator Harris. Are you familiar with Brandon Judd, who 
testified before our Committee in response to a question from 
Senator Daines, said that now we can ``take the handcuffs off 
of us and put the handcuffs on the criminals''? Are you aware 
of that?
    Secretary Kelly. No. Was that a recent hearing?
    Senator Harris. Yes, it was. Are you aware that David 
Lapan, your spokesperson, said yesterday to the Washington Post 
that immigration agents may arrest crime victims and witnesses 
at courthouses?
    Secretary Kelly. Yes.
    Senator Harris. And, are you willing to exempt victims and 
witnesses who do not have serious criminal backgrounds from 
that policy?
    Secretary Kelly. Every case is different, and as the agents 
do their work, of course, the people that are taken into 
custody are put into a legal justice system. So, that is where 
the decision would be made to deport, export, whatever.
    Senator Harris. Are you willing to initiate a policy that 
says that if that person was a victim or a witness to a crime 
who is at a courthouse in any county in the United States, 
appearing as a victim or a witness to a crime, that if they do 
not have a serious criminal background, that they would be 
exempt from a policy of picking them up at that courthouse?
    Secretary Kelly. No.
    Senator Harris. And, are you aware that local law 
enforcement has a concern because this has created a chilling 
effect among victims and witnesses to crime and has resulted in 
their reluctance to show up to actually testify about crimes 
committed in their community?
    Secretary Kelly. I have heard some number of law 
enforcement people say that. But, I also hear the opposite 
view.
    Senator Harris. During your confirmation hearing before 
this Committee on January 10th, you committed to doing a top-
to-bottom assessment of DHS. Is that correct?
    Secretary Kelly. I did.
    Senator Harris. And, have you finished this assessment?
    Secretary Kelly. No.
    Senator Harris. When do you plan to finish it?
    Secretary Kelly. I do not know.
    Senator Harris. You do not have a goal for finishing it?
    Secretary Kelly. I have a general goal.
    Senator Harris. What is that date?
    Secretary Kelly. Well, one of the things I will task my new 
Deputy that was confirmed yesterday, that she will take that 
on.
    Senator Harris. Have you given her a date for when that 
assessment will be complete?
    Secretary Kelly. No, because when she was not confirmed, I 
did not deal with her as a Deputy. I did not want to presume 
confirmation by the Senate.
    Senator Harris. So, you do not have a goal for your 
Department on when that assessment will be completed?
    Secretary Kelly. She and I will discuss the goal.
    Senator Harris. And, have you read the--as part of the 
assessment that needs to be done, have you read the report 
issued by the Inspector General (IG), John Roth, that was 
issued just 4 months ago, November 7, 2016, entitled ``Major 
Management Performance Challenges Facing the Department of 
Homeland Security''?
    Secretary Kelly. I am aware of the report, yes.
    Senator Harris. Have you read it?
    Secretary Kelly. I am aware of it, and----
    Senator Harris. So you have not read it?
    Secretary Kelly. Executive summary.
    Senator Harris. OK. In the report, the IG says, ``This year 
we are presenting a broader picture of management challenges by 
highlighting those we have repeatedly identified over several 
years. We remain concerned about the systemic nature of these 
challenges, some of which span multiple administrations and 
department leadership.''
    Do you agree that many of these challenges are systemic and 
deeply rooted in the Department?
    Secretary Kelly. Well, of course, that was pre-Kelly, and 
it was Jeh Johnson----
    Senator Harris. It was 4 months ago that report was issued. 
Do you agree with the statement found by the IG based on his 
analysis of your Department?
    Secretary Kelly. That was pre-Kelly. I am committed----
    Senator Harris. I am sorry. Pre-Kelly, meaning yourself?
    Secretary Kelly. I was not in the job yet.
    Senator Harris. OK.
    Secretary Kelly. As I committed to Committee before and to 
Congress in general, we are going to take a top-to-bottom look 
at how we are organized and how we can do business better, and 
that includes how we do the leadership functions.
    Senator Harris. Are you aware, sir, that on March 22nd, 
union officials and leaders from both ICE and Border Patrol 
appeared before this Committee? During that hearing, Chris 
Crane, who is the National ICE Council President, said, and I 
will quote, there is a ``toxic and failed management culture.'' 
He went on to say a ``good ol' boy network'' exists within your 
Department. He went on to say officers are ``tripping over 
managers in the field,'' and then, said also that the agency 
has outdated and ``practically no policies'' in place. Are you 
aware that that is a sentiment among leadership in your 
Department?
    Secretary Kelly. Certainly, that is the sentiment 
throughout really DHS in terms of how DHS was run for the last 
8 years. Going forward, it will not be run like that anymore.
    Once I determine how we are going to change the leadership 
approach.
    Senator Harris. So, you are going to come up with a plan 
for fixing this for the 230,000 people in your Department?
    Secretary Kelly. Yes.
    Senator Harris. And, is this a priority for you?
    Secretary Kelly. It is.
    Senator Harris. And, at the same hearing, both Mr. Crane 
and the National Border Patrol President Brandon Judd spoke of 
an extensive morale issue at DHS, which is also reflected in 
the Federal Employee Viewpoint Survey (FEVS), which is 
published by OPM. Are you aware that DHS ranks as the last 
among large agencies in terms of its morale?
    Secretary Kelly. That was certainly the case under the 
Obama Administration, but we are changing that already.
    Senator Harris. And, you are going to change that within 
what time period for your Department of 23,000----
    Secretary Kelly. It is already changing.
    Senator Harris [continuing]. Oh, it has changed?
    Secretary Kelly. It is already changing.
    Senator Harris. It is changing, OK. And, in regards to your 
top-to-bottom assessment, has your assessment included looking 
into the morale issues at the agency and putting in place 
programs and initiatives to actually improve the morale?
    Secretary Kelly. It is what I do, yes.
    Senator Harris. And, can you provide us with a list of the 
policies that you have instituted to improve morale at the 
Department?
    Secretary Kelly. My leadership is a start point, and we 
will continue to look at ways to improve the morale. One of the 
issues most focused on by the workforce since--over the last 8 
years that affected their morale was an inability to do their 
jobs. Now that we have opened the aperture in terms of the 
amount of work that they are allowed to do, I am deflecting a 
lot of outside influences into the workforce so they can do 
their jobs.
    Senator Harris. But, my question to you, with all due 
respect, my question to you is: What have you put in place to 
turn the morale around in this Department, and the morale which 
is at the lowest of many large Federal agencies, and the 
condition has existed throughout, it appears, the life of the 
agency and certainly has passed through many Administrations?
    Secretary Kelly. Under the Obama Administration, the morale 
has suffered terribly.
    Senator Harris. So, what plans have you put in place, sir?
    Secretary Kelly. My leadership.
    Senator Harris. So, you are saying by virtue of you being 
there, morale will now change.
    Secretary Kelly. By virtue of the fact--the greatest impact 
in raising the morale in the last 90 days or so has been that 
the workforce now is allowed do their job.
    Senator Harris. And, that would be they are now unshackled. 
Is that correct?
    Secretary Kelly. They are allowed to do their job as the 
professionals they are.
    Senator Harris. And the Administration has proposed 
tripling the current number of ICE agents and increasing the 
number of Border Patrol agents by 25 percent in addition to 
requesting $4 billion to begin the construction of a wall, 
which has been discussed. Are you in support of actually 
bringing on these new agents before you have repaired the 
damage that has existed in your agency?
    Secretary Kelly. It is simultaneous, sure.
    Chairman Johnson. Senator Harris, we are going to give you 
an opportunity----
    Senator Harris. So, I will go for Round 2. Thank you, 
Chairman.
    Chairman Johnson. I am not sure we are going to have Round 
2, but we will have opportunities to submit questions for the 
record.
    Senator Harris. I do have more questions, so if we can do a 
second round, I would appreciate that.
    Chairman Johnson. I want to be thoughtful of people's time. 
Senator Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thank you, Mr. Chairman. And, General 
Kelly, it is good to have you before the Committee again.
    First of all, I am glad we finally got Elaine, a great 
Ohioan, over there in your Department. You talked earlier about 
her being a political appointee. I view her as a career person, 
having had 27 years in the Federal Government, and including, 
obviously, big roles over at DHS as a career expert on 
management and procurement and some of the big challenges that 
you face trying to bring together all these departments and 
agencies into one. So, I am glad she is here, and I know she 
will be a tremendous asset to you.
    At your nomination, we talked a lot about this drug issue, 
and as you know, I was very complimentary of comments that you 
had made to this Committee about a year and a half ago now 
regarding the importance of focusing on the demand side. And, 
that is where I have focused most in the last 25 years, and I 
agree with you that the single most important thing is to 
reduce the demand. And, you talked about prevention and 
education, treatment and recovery, helping law enforcement and 
so on.
    I was a little concerned about the comments earlier about 
the commission. I do hope the commission heeds your comments 
and your thoughts on that. But, you should also know, just by 
way of information, Congress just spent 3 years going through 
this process that the commission is going to do in 90 days, 
apparently, which is helping identify the problem. We had five 
conferences here, not just numerous hearings but conferences, 
bringing in experts from all around the country, looking at 
best practices, and came up with this Comprehensive Addiction 
and Recovery Act (CARA), a bipartisan bill that was finally 
passed last year. And, one of my concerns is that only three of 
the eight programs provided there, including things like 
helping out on drug courts and some of the things you have 
talked about in terms of diversion--it is not about locking 
people up, it is about better prevention and getting people the 
treatment they need. But, only three of those eight programs 
have been implemented, and, I pushed the Obama Administration 
on this, and I am now pushing the Trump administration on it.
    So, one, I hope you will get up to speed on what CARA is 
about, what it does. It is comprehensive, not just in name but 
in reality, and it is based on a lot of work that has been done 
not just over the last few years with these conferences but 
around the country over time, because I do not think we need to 
re-create the wheel. I think we need to go to action. This is a 
crisis, and it is an epidemic certainly in my State and many 
other States around the country. It is one that is particularly 
difficult because of the opioid issue. In other words, crystal 
meth is increasing in some communities. I understand that 
cocaine is back in some communities. This opioid issue, the 
grip of that addiction has been a huge challenge, as you know, 
for treatment and recovery. We are beginning to learn more 
about it and how to do it better, but we have to get this 
legislation implemented and get the Cures Act money 
appropriated again. I hope the budget will reflect that, which 
is another $500 million. We need an extra budget just for 
helping the States to be able to deal with this.
    On fentanyl, it is the new issue, as you know, in so many 
of our States. We are probably hit harder in Ohio than any 
other State, we are told, per capita. But, there is this toxic 
substance, as you know, that is a synthetic heroin, 
carfentanil, U4, it goes by various names, but it is created by 
evil scientists in a laboratory somewhere. And, you mentioned 
it coming in from Mexico. Some comes in from Mexico, but 
primarily that is coming from China to here, as I understand it 
from your people, and then going to Mexico and back to here, 
the vast majority of it. And, there is a new commission report 
out, the U.S.-China Commission, recently that it is coming from 
China. And, it is coming from laboratories in China, and it is 
coming by the U.S. Mail system.
    You and I talked about this, again, during your 
confirmation process and the very difficult job that CBP and 
the Drug Enforcement Administration (DEA) and others have of 
identifying these packages because the U.S. Mail system does 
not require advance information as to what is in the package, 
where it is from, where it is going.
    By the way, Federal Express (FedEx) and United Parcel 
Service (UPS) and DHL and other private carriers do require 
that. And, what we heard from your folks, including Todd Owen, 
Executive Assistant Commissioner in the Office of Field 
Operations at CBP, when he testified before this Committee on 
this, is that having this advance data from the post office 
would be key to helping you to be able to target these packages 
to find the ones that are suspect.
    We have legislation, as you know, called the STOP Act that 
is bipartisan--Senator Klobuchar, myself, Senator Hassan, who 
was here earlier, Senator Rubio, and others--that we are 
attempting to get passed simply to say let us require that 
these packages have this information. This is what we have 
heard about from your people as the solution to being able to 
target some of this fentanyl, to be able to stop some of this 
poison coming into our communities and killing our citizens.
    By the way, that opinion was reinforced at a roundtable 
discussion I had just 10 days ago in Ohio with your CBP folks. 
We had two of your port chiefs there. We also had folks there 
who were from your HSI group, your group of individuals who 
work with law enforcement every day to try to find this 
material. We also had folks from DEA who have testified on 
this.
    So, my question to you is: What can we do to get this done? 
President Trump in the campaign talked favorably about the STOP 
Act. You have talked favorably about the need to have this 
information. I guess what I would ask is two questions. One, do 
you agree with me that having this advance data on shipments 
coming into the United States from both the post office and 
private carriers would help your officers be able to target 
illegal shipments?
    Secretary Kelly. I do, Senator.
    Senator Portman. Second, would this informed targeting by 
CBP potentially reduce the ability of the post office to be 
used for illicit shipping of all kinds of contraband?
    Secretary Kelly. I think it will.
    Senator Portman. And, third, have you had a chance now, 
since your nomination, to review the STOP Act? And, what are 
your thoughts and comments on the STOP Act and its potential to 
be able to help?
    Secretary Kelly. Just in preparation for this hearing, we 
had a long conversation with CBP people on the issue of the 
post office. Apparently--and, of course, they do not work for 
us, but the post office leadership is starting to move in the 
right direction. Just the other day, again, a DOJ effort, DEA 
agreement, such as they are with China, but an agreement at 
least that they will get after the fentanyl production and 
shipment out of their country. I will see how that turns out.
    One of the problems, as I think you know, Senator, that my 
folks have pointed out to me is a lot of the countries where 
these parcels come from just do not cooperate. But, that is an 
effort that we should focus on to have them cooperate in terms 
of identifying the package, what is in the package, this kind 
of thing.
    So, again, I was probably not as aware of this issue 3 days 
ago as I am now, and Kevin McAleenan, who we hope someday will 
be the Commissioner--he is the Acting now--has this very much 
on his front burner, as it is now on mine.
    Senator Portman. I appreciate that, and, by the way, we are 
asking President Trump to raise this with President Xi because, 
you are right, China is not doing enough to close down these 
laboratories and keep these materials from being spread. And, 
by the way, it is a problem in China as well.
    Secretary Kelly. Yes.
    Senator Portman. I am told that fentanyl is now leaking out 
into the community.
    Secretary Kelly. I think that is the only reason now they 
are interested because it is a problem in China.
    Senator Portman. It is a problem. Three flakes of this 
stuff can kill you. It is being put in relatively small 
packages and sent, and there are millions of packages. So, do 
you agree that the STOP Act would be helpful to be able to 
identify these packages?
    Secretary Kelly. Yes, sir.
    Senator Portman. Thank you for that. And, I guess the final 
thing that I want to say with regard to the border, because we 
talked a lot about this earlier--and I really appreciated your 
comment, which was we are not going to build a wall where it 
does not make sense. We do need a wall in certain areas, 
including some urban and even some suburban areas, and we do 
need, again, the technology that was talked about earlier in 
other areas.
    You mentioned specifically the Big Bend of Texas. I was 
there at the end of the year. I have been there several times. 
And, you are not going to build a wall on those canyon walls, 
and so we need to reassure people that this is about an 
effectiveness way to secure the border, and I appreciate your 
comments on it. I think that will help clarify the situation.
    Thank you.
    Secretary Kelly. Thank you, sir.
    Senator Portman. I appreciate your service.
    Chairman Johnson. Senator Tester.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Thank you, Mr. Chairman.
    I want to thank you, Secretary Kelly, for your service, and 
I mean that. I go back to what the Ranking Member on this 
Committee said in her opening remarks, and that is that we have 
faith in you. We have faith in you being the adult in the room 
because of your past record and your past performance. We 
believe that that will carry on as Secretary of the Department 
of Homeland Security.
    I have a number of questions. One deals with there was $20 
million worth of reprogramming money that you requested, and 
that Senator Boozman and I signed a letter basically stating 
utilize the money but utilize it in the best way to protect the 
border, not necessarily a concrete wall.
    Secretary Kelly. Right.
    Senator Tester. It could be a fence. It could be drones. It 
could be technology. It could be a number of things. Have you 
determined how that $20 million is going to be spent?
    Secretary Kelly. Again, Senator, on a barrier wall, 
technology, whatever, we will do it where it makes sense and 
what makes sense. But, we will not waste any money. But, we 
have not determined right now what this thing will look like, 
how long it will be.
    Senator Tester. And, I appreciate that response, but really 
the question is: As we reprogram $20 million, I do not know 
that that is the best use of that money, because I think it was 
going to be used in technology. But, that is a different 
debate. We did it. And, the question becomes: If you use all 
that $20 million to put up a prototype concrete wall for a 
prototype to be used, that pretty much tells me what we are 
going to be doing. If you use that $20 million, part of it, to 
put up a concrete wall, part of it to use maybe Blue Rose 
technology, part of it to maybe use drones, part of it to maybe 
use radar, part of it maybe for manpower discussions, that puts 
my heart at more of an ease. So, the question is that if you 
have how this reprogramming money is going to be used, I would 
like to know it. And, if you have not, could you tell me when 
you might have it?
    Secretary Kelly. Let me get back to you specifically on 
that, Senator, but you can rest assured we will not waste the 
money, and we are not going to build one prototype. We are 
going to take a look at what makes sense along that whole 
border.
    Senator Tester. OK. The Secret Service was brought up 
earlier, and I also agree that, due to circumstances with this 
Administration, your Secret Service is probably stretched more 
than it ever has been before. Have you made any requests of 
Congress--first of all, am I reading that right? I may be 
reading it wrong, and if I am, that is fine. But, have you made 
any requests on Secret Service and the demands that have been 
put on the Secret Service and if we need to deal with that 
through the budget?
    Secretary Kelly. Not as of yet. Again, the first thing I 
would like to say--and I think you would agree--individually, 
the best men and women imaginable.
    Senator Tester. Yes.
    Secretary Kelly. They are just phenomenal people, and they 
work so hard, and they max out their overtime. I mean, they are 
just meeting themselves coming and going.
    Senator, they need--and we will come forward to Congress 
and make the case, but they need a lot more agents, not just 
because of the Trump era, if you will, although that is 
additional because he has a lot of children and grandchildren. 
We need more agents, and we need more uniform personnel, 
regardless of whether it is a Mr. Trump, a Mr. Obama, or a Mr. 
Anybody, because what they do is much larger than simply the 
mission there at the White House and with Presidential travel. 
Things like any foreign dignitary that comes to the United 
States----
    Senator Tester. I got you.
    Secretary Kelly. It is much bigger than just that, so we 
need a larger Secret Service because we need to get some of 
these people a little bit of time at home with their families.
    Senator Tester. OK, got you. The Coast Guard, you talked 
about it in your opening remarks. The President's budget came 
out and whacked the Coast Guard, along with TSA and a lot of 
other agencies that are under your purview.
    Question No. 1 is: How much input did you have in that 
budget? Question No. 2 is: What are we going to do about fixing 
it?
    Secretary Kelly. Question No. 1, very little. I have talked 
to the Office of Management and Budget (OMB) people about the 
way forward, and we are going to make the money--we will make 
the money good for the Coast Guard. They are too vital in 
securing the Southwest border.
    Senator Tester. Yes.
    Secretary Kelly. And, a lot of other things.
    Senator Tester. And, Mar-a-Lago and a lot of other things. 
OK. Thank you.
    Northern ports, we talked about ports of entry where the 
drugs are coming through. And, we are focused like a laser on 
the Southern border, and I think that is cool. But, the 
Northern border has its challenges, too.
    Can you tell me how concerned you are on the Northern 
border and if your concern is with--and I do not think this 
would be classified information. Is it with drugs? Is it with 
undocumented people coming across the line? Is it with 
terrorist activities? Where is your concern with the Northern 
border? And then, we will have a follow up on that.
    Secretary Kelly. Not as, obviously, as concerned with what 
comes with the Northern border as the Southern border, but it 
is our border, so I am concerned with all the borders. The 
absolutely great news story on the Northern border is that we 
have Canada there that is----
    Senator Tester. That is right, great ally.
    Secretary Kelly [continuing]. To say the least, a friend, 
an ally. They interact with us at every level. They are very 
careful about who comes into their country--maybe not as 
careful as I want us to be going forward about who comes into 
our country, but the good-news story, again, up there is the 
Canadians, their law enforcement, their commitment.
    I would say actually this might surprise you. I think not a 
concern really. What I would like to see the Northern border be 
is even thinner, if you will, so that the movement safely and 
securely of commerce and people can be even streamlined more.
    Senator Tester. That is a big deal. The last thing, and 
excuse me if this has been asked before. I do not know that it 
has been or that it has not been. Eminent domain, on the 
Southern border, if we are going to build a wall, if we are 
going to do anything, it is require permission of the 
landowners.
    Secretary Kelly. Yes, sir.
    Senator Tester. On the Northern border, those landowners 
are critically important for security, by the way. They are an 
extra set of eyes we do not have to pay for. How are you going 
to deal with eminent domain on the Southern border?
    Secretary Kelly. We will do it judiciously. There may be 
places we have to do it. Again, that would be part of the 
evaluation about where we build the wall, how we build the 
wall.
    Senator Tester. Well, I would just say that--and this point 
has been brought up in these hearings before--if you want to 
get people's attention in rural America, just talk about 
eminent domain. The hair will be on fire.
    Secretary Kelly. Senator, I am told that back in, I think, 
the 2008 effort to put fencing on the border, we are still in 
court with people about eminent domain, 9 years ago.
    Senator Tester. Look, I get it. I have a farm that has to 
be in the family 100 years. Those ones down there, they are 
probably 140 or 150. If somebody tried to eminent domain my 
place, they would take me off in a box because I would not let 
them do it. So, that is where we are at. Thank you.
    Secretary Kelly. Thank you.
    Chairman Johnson. This hearing is setting a lot of hair on 
fire. Senator Paul.
    Senator McCaskill. And his is so special to be on fire.

               OPENING STATEMENT OF SENATOR PAUL

    Senator Paul. General Kelly, thank you for coming. If I 
travel abroad and I am coming back home, do you think it is 
appropriate to deny me entry to the country unless I let you 
search my cell phone?
    Secretary Kelly. Under very critical circumstances, I would 
say that an American citizen ought to be able to come back in 
and not have their electronics searched.
    Senator Paul. We have gone from 5,000 people having their 
cell phones searched to 25,000. We are denying people entry who 
are citizens or green card holders who are coming back home, 
and your Department is saying to them, ``You cannot return to 
your home without giving us your fingerprint and giving us all 
of the data on your phone, access to all of the data on your 
phone.'' I think this is an extraordinarily unreasonable 
standard.
    I also think that you probably can differentiate between 
citizens, U.S. persons, and those who are coming to visit. So, 
I am not saying you cannot have some standards and that, based 
on suspicion, you can deny someone entry to the country--but 
not a citizen, not a green card holder. They are denying access 
to our own country. I could travel abroad and be told I cannot 
enter America unless I let you look at my phone. That is 
obscene.
    Do you have a response? We are up to 25,000 of these now.
    Secretary Kelly. Well, it certainly has not increased 
significantly in the 90 days I have been in the job and the 90 
days Mr. Trump has been the President. I do not believe we ever 
turned back legal citizens or--I mean citizens or legal 
residents.
    Senator Paul. That is what is in the paper. That is in the 
last month. There was a guy that had a green card and his wife 
was a citizen, but he lived here for many years. He was told he 
could not enter if he did not give his fingerprint to the 
government.
    Secretary Kelly. Let me take that on, Senator. The one 
thing I have learned in this job that everything I read about 
this Department or what goes on at our borders, there is always 
more to the story. But, in general, just like an American 
citizen coming in and having his bag searched at the port of 
entry, generally speaking it is done for a reason.
    Senator Paul. Right. But, I think there are different--and 
I am not blaming you. It may sound like I am blaming you. You 
have only been on the job for a month or two. But, in your 
nomination hearing, you said you were going to respect the 
Fourth Amendment and you were going to respect people's 
privacy. So, my hope is that you will go back and ask people, 
``Are we really doing this?''
    Secretary Kelly. You know I will.
    Senator Paul. Because it happened. There have been many 
reports of this.
    I would also argue, though, that there is a difference 
between searching my bag and my cell phone. OK? If I am coming 
in, it is known that one of the things that happens at the 
border are drugs. We have dogs. We do have random searches of 
bags. We are doing that even domestically. So, I think we can 
accept that. But, I think that people are going to be horrified 
the more they hear that their cell phone, all their contacts--
we do not even know what is happening to our cell phone while 
it is gone and in the possession of the government. Are they 
downloading--and the story was this, that they are downloading 
everybody's contacts and information. There is an extraordinary 
amount of information on your phone.
    Secretary Kelly. It is not happening.
    Senator Paul. All right. But, that is what the stories are 
saying.
    Secretary Kelly. To citizens. And, in some cases, it is 
certainly happening to foreigners coming in, but not routinely.
    Senator Paul. But, it has gone from 5,000 a year to 25,000. 
If you would not mind, if you would look into it and have your 
people get back to my office on this.
    Secretary Kelly. Will do.
    Senator Paul. But, we put forward legislation, bipartisan 
legislation, because we are so upset about this, that really if 
you are a green card holder or a citizen, even if you had 
suspicion, the way it would probably work if you were, I think, 
obeying the spirit of the Constitution, is you might be able to 
seize my phone, but we would then go to a court, and a court 
would determine whether you had probable cause to actually get 
the access to my phone for a citizen. And, for a non-citizen, I 
think if you do not give it, you can probably deny entry. I 
mean, there are rules on travel to our country. But, I think 
for a citizen or a non-citizen to say, ``I cannot come back to 
my country without giving you the contents of my phone,'' is, I 
think, really----
    Secretary Kelly. I just do not believe we are doing it.
    Senator Paul. All right. But, please look at the news 
reports because it was not just one. There was a whole series 
of them in the last couple days and a few interviews of people 
who were green card holders not being allowed entry. Thanks.
    Chairman Johnson. We will do a second round, but I am going 
to limit it to 5 minutes because I want to be respectful of the 
Secretary's time. So, Senator McCaskill.
    Senator McCaskill. Following up a little bit on Senator 
Paul, I had to smile when Senator McCain said I was being 
hysterical. I was being focused and passionate, and I learned 
it from him, by the way. So, I want to be very clear. I 
completely understand that we have to take steps to keep 
terrorists out of our country that are coming here to kill us. 
I completely understand that this is a global threat that we 
have to pay attention to. And, I understand and completely 
accept that there are people being trained in Raqqa to come 
here and hurt us.
    My point is I want to make sure what we are doing is 
effective. It is now out there that we are taking people's 
phones. I mean, no terrorist that has the ability to come into 
this country and hurt us is going to come in with anything 
other than a clean phone. And, the people who are going to get 
caught up in this are going to be a lot of people who are not 
probably terrorists because if they were, they would be smart 
enough to clean their phone. The same thing, like I talked 
about, with some of the questions. They are going to lie, and 
we are not going to--maybe we are going to do--for some, maybe 
we should do polygraphs if we have good information that they 
are terrorists.
    So, I am not in any way saying I do not want you to go 
after terrorists and I do not want you to figure out ways to 
find the people. And, we are taking lots of steps around the 
globe to do that, and I certainly identify with Senator 
Hassan's remarks about the law enforcement teams helping 
embassies in terms of screening visa applicants. All great.
    So electronic devices. I agree with Senator McCain. I think 
we have to be doing some extraordinary steps about electronic 
devices, and I was supportive--I appreciated you giving me a 
call of you doing the unprecedented step of not allowing 
laptops in cabins from certain countries. And, if you wanted to 
take a moment--I only have one other brief question, so if you 
wanted to take a moment to maybe explain that so we all 
understand what steps you have taken and why it is important.
    Secretary Kelly. Senator, as we discussed on the phone--and 
I made 15 phone calls that day to make sure the leadership on 
both sides of the aisle and both sides of the Hill understood 
what we were doing, and then we provided classified briefs to 
the Hill again. It is a real threat. I mean, we know on any 
given day there are dozens of cells that are talking about 
aviation, attacking aviation, and you just watch them over time 
and see if they develop, if they go from talking to actually 
doing something. So, there is a real threat all the time. You 
saw the Russian airplane that was blown up coming out of Egypt 
as an example, the Somali airplane that thankfully did not 
catastrophically come apart, but a hole was blown in the side 
of the airplane, and only because the airplane was not at 
altitude was the pilot able to bring that aircraft home.
    It is real. Based on the threat--and this was my decision, 
certainly briefed it to the President but this was my decision, 
once I took in all the information from all the sources. There 
is a real threat against aviation always, but a specific 
threat. And, the airports that I decided to prohibit--or to do 
the additional--or the new baggage protocol, that is to say, 
the large electronic devices into the cargo hold, are 
predominantly Muslim countries. I did not do it because of the 
Muslim religion or the color of their skin or, as some have 
accused, I was trying to help out the American aircraft 
industry in places like the Emirates. It is real. I think it is 
getting ``real-er,'' so to speak. We may take measures in the 
not too distant future to expand the number of airports. It is 
real.
    Senator McCaskill. We appreciate your focus on it, and I 
certainly support the steps you have taken in that regard.
    Missouri is one of the States that has not done REAL ID, 
and I just want to make sure that you clarify what is going to 
happen next year. And, the reason I say this is the Missouri 
Legislature is struggling with this. This happened before I 
came to the Senate. Both Republican Senators voted for this in 
2005. In fact, all 100 Senators voted for it in 2005. And, I 
understand why it is controversial, and, frankly, I kind of 
identify with that in many ways because of the State I am from 
and our distrust of government in our Deoxyribonucleic acid 
(DNA).
    But, the Governor said recently that he had gotten some 
signals from the Trump Administration that would indicate that 
it was not going to be enforced, and so as a result, the 
Missouri Legislature I think is now struggling with whether 
they need to do anything.
    I do not know what you are going to do, but whatever you 
are going to do, the more quickly you clarify whether or not 
this is going to be enforced next year is really important, 
because I think there are some mixed signals going on, and as a 
result, I worry about Missourians and their ability to 
participate in aviation in this country come this time next 
year.
    Secretary Kelly. Senator, your comment just now is the only 
time I have heard anyone say that we are not going to enforce 
the law in January. I mean, as I say, I have been saying it to 
the press; we have been saying it to the Governors.
    Senator McCaskill. Well, you need to call the Governor of 
Missouri because the headline was, ``Trump Administration 
indicates they may make a change,'' and then it goes on to say 
the people who are against doing it in Missouri say, well, we 
need to give Trump time to change this.
    Secretary Kelly. I will call the Governor right away.
    Senator McCaskill. Yes, that would be terrific. I think 
that would be very helpful, because I know he wants Missourians 
to be able to fly, too. This is not partisan. We want 
Missourians to be able to fly next year.
    Secretary Kelly. I mean, my advice, again, to all of the 
States that are not right now compatible is to just tell their 
citizens the best thing to do is get a passport. And, again----
    Senator McCaskill. Yes, or a passport card.
    Secretary Kelly. Or a passport card. And, again, this issue 
up in Seattle this last week where I was with this business 
group, all of whom thought that their State license enhanced 
will fill the bill, and it will not. And, if they did not know 
that, then I would say the average Joe and Jane Doe, they are 
probably under that misconception. But, there are about, I 
would say, 10 to 12 States, anyways, that are questionable that 
they could pull this off. So, I will call the Governor.\1\
---------------------------------------------------------------------------
    \1\ The correction to Mr. Kelly remarks appear in the Appendix on 
page 346.
---------------------------------------------------------------------------
    Senator McCaskill. I really appreciate it.
    Secretary Kelly. Yes, ma'am.
    Chairman Johnson. Senator Harris for 5 minutes.
    Senator Harris. I appreciate that.
    Secretary Kelly I represent a State of almost 39 million 
people, which is also a State with the largest number of 
immigrants, documented and undocumented, of any State in this 
country. And, they have a right to have an understanding, a 
clear understanding of the policy priorities of your 
Department.
    At the March 8th confirmation hearing for Elaine Duke, I 
asked how the seven enforcement categories from your February 
20th memo would be prioritized, and she answered that the 
priorities are listed in descending order. Do you agree with 
that?
    Secretary Kelly. No.
    Senator Harris. And so, what is the--can you please rank 
then the seven factors and the priority among them?
    Secretary Kelly. Those seven factors allow the ICE folks to 
make their decision as to who they will develop a target 
package on and then go try and apprehend. But, they are not in 
descending order. Just those are the categories.
    Senator Harris. So, what has been your direction to the 
folks on the ground about what the priorities should be, 
understanding that they, like all law enforcement agencies, 
have limited resources and a very important charge? Are you not 
giving them any direction around priorities within the seven 
criteria?
    Secretary Kelly. The direction they have is the start point 
is illegal status and then something from the priorities. But, 
they are not going to go after, as an example, all the 
murderers and then we get--all the very serious criminals, and 
then once we get all of them, go after the next and the next 
and the next. They can go after an individual, according to the 
law, if they are on the list because they are illegal and then 
something.
    Senator Harris. So, among the seven categories----
    Secretary Kelly. Generally speaking.
    Senator Harris [continuing]. You have as number one, 
convicted of any criminal offense, and obviously there is no 
doubt that especially if someone has been convicted of a 
serious and violent felony, they should be apprehended and they 
should be dealt with.
    Second is anyone charged with a criminal offense, so then 
there has not been a finding of guilt.
    The third is they have committed an act which would 
constitute a chargeable criminal offense, so they have not even 
been charged with the offense.
    The list goes on to number seven, or in the judgment of 
immigration officers otherwise pose a risk to public safety or 
national security.
    How are you training the folks on the ground to exercise 
their judgment as it relates to Factor 3 or Factor 7 as an 
example?
    Secretary Kelly. They are already trained, and they, 
through that direction down through the leadership of ICE down 
to the local agents in charge and what-not, they train them to 
execute that policy.
    Senator Harris. So, as a former manager of a very large law 
enforcement organization, the California Department of Justice, 
I am well aware that you cannot lead a department just from the 
top down. And, it is critical that you communicate the policies 
of leadership to everyone at every stage, including those at 
the lowest level who, in your agency, as in most law 
enforcement agencies, have wide discretion to exert and use 
their authority.
    I would like to know what specifically you are doing to 
train those people, and I would like a copy of what you are 
doing that is beyond the conversations that you have had with 
managers, but actually what policies you have put in place to 
train those folks on how they should exercise the discretion 
that you have given them as it relates to this expanded list of 
folks that can be contacted by the folks in your agency.
    I would like to have a list submitted, sir, and if you 
would agree to give us a written copy of the training that you 
are instituting in your Department to train folks about how 
they should exercise their discretion.
    Secretary Kelly. We will certainly provide you the policy 
statements, and from that the training takes place.
    Again, they are already highly trained individuals.
    Senator Harris. Well, we have already discussed how they 
have the lowest morale of any Federal agency and that----
    Secretary Kelly. Under the Obama Administration.
    Senator Harris. OK. So, sir, given the extent and depth of 
the problems that exist at DHS and that we have so far received 
no assessment or any program that you have or plan that you 
have to address these issues, how can you justify such massive 
increases in hiring and resources? And, should the American 
public really be expected to give you billions of dollars and 
provide billions of dollars to your agency on blind faith, in 
spite of the fact that there has been no clear change of 
direction or course beyond the fact that you were appointed to 
lead the agency?
    Should the American public believe to have blind faith in 
the fact that you are now the leader and, therefore, everything 
has changed?
    Secretary Kelly. They should have faith in the fact that I 
am the leader. They should also have faith that the rank-and-
file have now been allowed to do their job, and we have already 
seen a change in the morale, yes.
    Senator Harris. Thank you. I have no further questions.
    Chairman Johnson. Thank you, Senator Harris.
    Just to add a little perspective and clarity to the device 
searches, in fiscal year 2015 there were 77.5 million people 
that came into this country internationally in flights. That 
included Canada and Mexico. There were 38.4 million that came 
in overseas. The 23,877 devices that were searched in fiscal 
year 2016 was under a different Administration representing 
0.03 percent of total international arrivals, 0.06 percent of 
overseas arrivals, just to put it in perspective.
    My concern about all of a sudden this new Administration, 
now all of a sudden this is a big problem, we are publicizing 
this, we may be taking a tool out of the toolbox, kind of like 
when Osama bin Laden found out that we could actually track his 
location based on his cell phone.
    So, again, I appreciate your comments on how it is being 
administered in kind of extraordinary circumstances in many 
cases, again, 0.03 percent of the time, 0.06 percent on 
overseas flights. And, I do not know, it is just unfortunate.
    Secretary Kelly. Chairman, if I could, I think--and this 
has a lot to do with the press reporting, not against the 
press, just they pick up and intend to write off whatever the 
base story is. I think an awful lot of people are confusing 
what we are doing at the ports of entry today and the kind of 
thinking I have in terms of the additional vetting that we will 
be implementing, whether it is for overseas--in overseas 
locations--whether it is for visa requests to come to the 
United States or, for that matter, asylum requests. We are 
going to do a lot more of this electronic stuff in addition to 
other things, whether it is in refugee camps in Kenya or in 
some other country. And, we will do it--but we will not 
probably do the same type of additional vetting in, say, 
Britain or Japan. It just depends on the country, depends on 
the threat.
    But, I think an awful lot of people have jumped to the 
conclusion a little bit, certainly the press has picked up, for 
whatever reasons--and I will assume they were doing it, 
honestly--that we are not going to do everyone's phone and 
computer at the border.
    Chairman Johnson. And, of course, that is the impression 
the press leaves, so we blow it out of proportion. We take what 
could be an effective tool out of our toolbox, and we make this 
Nation less safe.
    Again, I just think it is unfortunate. I kind of want to 
lay 
out--and, again, I think you explained it pretty careful, 
pretty well. You look at a phone, you look at the photos. There 
is no password required for that. It is just, ``Oh, I see a 
potential pedophile in there,'' and that helps prevent 
something. And, it is just unfortunate that we do publicize 
some of these things that, from my standpoint, ought to remain 
more at a classified level or just not really discussed in the 
public domain.
    Senator McCaskill. Mr. Chairman, I just want to say I think 
having these hearings is how we get to the bottom of it and 
find out the facts. That is why we do this. And, the questions 
are important to be asked so we can get the clarification.
    Chairman Johnson. I understand.
    Senator McCaskill. And so, I think the Secretary now is in 
a position to understand the concerns, and I think he will 
respond to them, and we will all be in a better place.
    Secretary Kelly. I am fortunately way ahead, and I think if 
Jim Comey and people like that certainly sitting here at the 
table with me, law enforcement in general, these new 
applications that will make it impossible to look into 
someone's phone or electronic device, right, we will lose a 
huge--this country--the good guys and gals in the world, in the 
West and other places--well, in the world that are trying to 
protect their people will lose a tremendous asset when these 
applications become more widespread than they are, tremendous 
advantage lost.
    Chairman Johnson. And, let us face it, the last time 
Director Comey was before this Committee, he was basically 
predicting, when we finally end the caliphate a diaspora of 
terrorists unlike this world has ever seen, and we are going to 
be dealing with that. And, you are going to have to be dealing 
with that. So, I want to make sure you have the tools in your 
toolkit to keep this Nation safe.
    Again, General Kelly, thank you for your service. Thank you 
for coming here. Thank you for your testimony and your answers 
to our questions.
    With that, the hearing record will remain open for 15 days 
until April 20th at 5 p.m. for the submission of statements and 
questions for the record.
    This hearing is adjourned.
    [Whereupon, at 11:51 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ---------- 
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                  BORDER INSECURITY: THE RISE OF MS-13

             AND OTHER TRANSNATIONAL CRIMINAL ORGANIZATIONS

                              ----------                              


                        WEDNESDAY, MAY 24, 2017

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Lankford, Hoeven, Daines, 
McCaskill, Carper, Tester, Heitkamp, Peters, Hassan, and 
Harris.

            OPENING STATEMENT OF CHAIRMAN JOHNSON\1\

    Chairman Johnson. This hearing will come to order.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 491.
---------------------------------------------------------------------------
    I want to thank the witnesses for taking time and for your 
thoughtful testimony. I think it will be a pretty interesting 
description of a problem that I think plagues so many inner 
cities. And, from my standpoint, really one of the contributing 
factors to this--one of the top priorities of this Committee--
is securing our borders. This is, I think, our 25th hearing on 
some aspect of border security.
    Now, the title of the hearing is ``Border Insecurity: The 
Rise of Mara Salvatrucha (MS-13) and Other Transnational 
Criminal Organizations (TCOs).'' Reading through the 
testimonies, it looks like we are going to be focusing an awful 
lot on MS-13, which is, obviously, in the news today. And, I 
will let the witnesses tell the stories, but it is kind of 
interesting--the history of MS-13. Originally formed out of 
immigrants coming from El Salvador--the war there--in the 
Southern California area, and then, based on problems--those 
members being deported to Central America--the organizations 
grew and thrived in Central America. Now, we are seeing them 
come back, sometimes in the form of unaccompanied alien 
children (UACs).
    I did send a letter yesterday as a result of information we 
received from a whistleblower. I sent it to Mr. Scott Lloyd, 
Director of the Office of Refugee Resettlement (ORR). And, 
yesterday--late breaking news--because of this hearing, we were 
informed by a whistleblower of a Customs and Border Protection 
(CBP) document from July 2014, describing an incident. This was 
right at the height of the surge of UACs arriving at our 
border, and the documents appear to indicate that CBP 
apprehended self-identified MS-13 gang members at the border. 
The CBP Significant Incident Report (SIR), dated July 5, 2014, 
basically stated that officers assigned to the Nogales 
Placement Center (NPC) identified multiple admitted MS-13 gang 
members.
    Another document goes on to quote, ``All identified gang 
members at Nogales Placement Center have been placed in the 
appropriate placement center and are no longer being held at 
the NPC. Sixteen identified juvenile gang members were 
transferred to placement centers around the country, including 
Shenandoah Valley Juvenile Center in Virginia, Selma Carson 
Staff Secure in Washington, Northern Virginia (NOVA) Staff 
Secure in Virginia, the Southwest Key (SWK) Mesa Staff Secure 
in Texas, Children's Village New York, and Fort Sill Army 
Training Support Center (ATSC) in Oklahoma.''
    Now, the Office of Refugee Resettlement, within the 
Department of Health and Human Services (HHS), was responsible, 
at that point, for the care and custody of UACs apprehended by 
CBP.
    Now, why do I point that out? We have a broken system. It 
was in 2002, in the authorization of the Department of Homeland 
Security, that we split out the responsibility, where now CBP 
apprehends, processes, and then turns UACs over to HHS. And, we 
have gotten very good at apprehending, processing, and 
dispersing, which, from my standpoint, has just fueled this 
rise in UACs coming to the border--certainly during the last 
Administration.
    Just so we understand what we are talking about when we say 
``unaccompanied alien children,'' because I know immediately 
people think of little children--7, 8, 9, or 10 years old. Here 
are the facts. Out of 188,000 UACs apprehended from 2012 
through 2016--and that includes from Central America as well as 
Mexico, because it is only broken out with that--so it is not 
just Central America--68 percent of those UACs were 15, 16, or 
17 years old--in other words, prime gang age. By the way, 68 
percent are also men. Less than 18 percent were under the age 
of 12.
    So, the fact of the matter is, so many UACs are, literally, 
young men of prime gang age. And, now we have documentation 
from a whistleblower that CBP apprehended them, knew they were 
MS-13 gang members, and processed and dispersed them into our 
communities.
    So, again, I think the purpose of this Committee is to 
highlight these problems within our government Agencies--within 
our government laws and procedures--to make the public aware, 
so we can actually keep this homeland safe.
    So, again, I appreciate the witnesses coming here to 
testify. We will describe the danger--the problems with MS-13--
the barbarity. And, that is what this Committee is all about: 
holding these hearings to raise that public awareness--lay out 
a reality so we can actually enact public policy to combat it 
and keep this homeland safe.
    With that, I will turn it over Senator McCaskill.

           OPENING STATEMENT OF SENATOR MCCASKILL\1\

    Senator McCaskill. Thank you. And, I want to thank the 
Chairman for holding this hearing. There is nothing more 
important than getting these criminals behind bars. Nothing. 
And, if we have, in fact, in any way, allowed criminals to come 
into our country, then there is complete agreement, I believe, 
of every Member of this Committee that we need to do everything 
we can to apprehend them and catch them.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator McCaskill appears in the 
Appendix on page 492.
---------------------------------------------------------------------------
    I want to begin by recognizing the three witnesses here, 
today. And, I have such respect for what you do every day. I 
know, firsthand, from my time as a prosecutor, that people that 
wear the uniform in law enforcement in this country go to work 
each day not thinking about themselves, but thinking about what 
they can do to protect--what they can do to make sure that 
families are safe in their communities. And, they take a great 
deal of risk in doing so. So, I know your job is sometimes 
thankless, and it is easy for folks to criticize you. But, I 
just want you to know, from the depth of my person, how much I 
respect what you do every day.
    Gang violence is certainly a huge problem in this country--
and it is tearing apart families and taking the lives of way 
too many. They prey on the weak and they prey on the 
vulnerable. They provide a sense of family that, many times, 
young people have never had. And, they do irreparable damage, 
not just to the lives of their victims, but also to the 
communities where they live.
    Today, we are here to discuss one gang in particular--MS-
13--a gang that was started in Los Angeles in the 1980s and has 
since expanded to Central America. I recall the feeling of 
hopelessness I used to have when I was the prosecutor in Kansas 
City--and we had a huge gang problem--when we would be 
confronted with horrific violence that was gang-inflicted. And, 
we could not get anybody to talk. I remember sitting and crying 
with victims and explaining that, if no one talks, no one goes 
to prison. And, that is why these gangs are so insidious. Not 
only do they do violence, but also, by the way they commit 
violence, they discourage anyone from ever speaking up in ways 
that can hold them accountable.
    And, that is why I am troubled that we have seen a recent 
trend, in some places, of even fewer people willing to come 
forward in communities that are full of people who have come to 
this country looking for hope from another country. And, I 
certainly want to protect our borders. I certainly want to 
secure our borders. But, we also have to be cognizant that what 
we say and do has an impact on people's willingness to come 
forward.
    And then, you exacerbate that with the fact that they are 
going to be coming forward against gangs--then we give you an 
absolutely impossible job to try to hold these gang members to 
the standards that we demand--and that is, putting them in 
prison for as long as we can possibly put them there--and in 
some instances, seeking the death penalty.
    So, because of my sensitivity about how hard it is to get 
these guys, I just want us to be very careful about documents 
that are released, because sometimes information about 
individuals is very sensitive--even documents that the 
Committee got a hold of last night. These documents did not 
come from CBP. They came from a whistleblower, which--we want 
to encourage whistleblowers. But, we also have to be very 
cautious, if there is sensitive information in any of these 
documents, that they have been fully vetted and that law 
enforcement in those communities, who may be working 
investigations, as we speak, about some of these individuals--
that there is nothing that is released that could ever harm any 
of those investigations in any way. Putting these people in 
prison is way more important than this hearing. And so, I have 
concerns that these documents were released so quickly and that 
we did not have a chance to even view the documents, on our 
side of the aisle, until they had already been released as now 
part of the public discourse on this issue.
    So, I understand the concern and I share the concern, but I 
think we have to be careful and cautious, because, at the end 
of the day, we have to make sure we are supporting you--and 
that is the most important thing that we have to do.
    So, I look forward to your testimonies, and I look forward 
to asking questions about the challenges you face in getting 
these gang members that are wreaking havoc in so many 
communities across the country.
    Chairman Johnson. Thank you, Senator McCaskill.
    It is the tradition of this Committee to swear in 
witnesses, so if you will all rise and raise your right hand. 
Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Sini. I do.
    Mr. Conley. I do.
    Chief Manger. I do.
    Chairman Johnson. Please be seated.
    Our first witness is Mr. Timothy Sini. Police Commissioner 
Sini serves as the Police Commissioner for Suffolk County in 
the State of New York. Prior to his appointment as 
Commissioner, he served as the Assistant Deputy County 
Executive for Public Safety in the same jurisdiction. 
Commissioner Sini.

 TESTIMONY OF TIMOTHY D. SINI,\1\ POLICE COMMISSIONER, SUFFOLK 
       COUNTY POLICE DEPARTMENT, SUFFOLK COUNTY, NEW YORK

    Mr. Sini. Thank you very much. And, I want to thank the 
Chairman and all of the Members of the Committee for the 
opportunity to provide testimony today, regarding MS-13 in 
Suffolk County, New York--and ways in which we can work 
together to effectively eradicate this gang from our 
communities.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Sini appears in the Appendix on 
page 496.
---------------------------------------------------------------------------
    Just briefly, Suffolk County is New York's fourth largest 
county, situated some 20 miles east of New York City (NYC), 
covering 911 square miles and 1,000 miles of coastline on the 
eastern end of Long Island. Suffolk is comprised mostly of 
suburban communities with a diverse population of approximately 
1.5 million people. The Suffolk County Police Department is one 
of the 15 largest police departments in the country, with 
approximately 2,500 sworn officers and approximately 1,000 
civilian employees.
    Contrary to recent sentiments in the national media, thanks 
to the hardworking men and women of the Suffolk County Police 
Department, Suffolk remains one of the safest counties of its 
size in the United States. Presently, crime is the lowest it 
has been since we began collecting reliable crime statistics in 
1975.
    Despite these historic reductions in crime, we have 
recently experienced an increase in gang violence connected to 
MS-13. Specifically, since January 1, 2016, of the 45 homicides 
that occurred in Suffolk County, 17 of those are believed to be 
linked to MS-13, which is approximately 38 percent of all 
homicides during that time period. And, since 2013, 27 murders 
in Suffolk have been attributed to MS-13.
    Suffolk County has approximately 400 identified MS-13 gang 
members organized in cells called ``cliques.'' Many of these 
``cliques'' have connections to other jurisdictions, including 
our neighboring county, Nassau County, and New York City.
    Active MS-13 gang members are predominantly male and range, 
predominantly, from the age of 16 to 29--and the median age of 
MS-13 recent arrestees is 18 years old.
    In Suffolk County, MS-13 engages in a variety of criminal 
activity, such as assault, murder, drug dealing, extortion, 
robbery, and burglary. Intelligence indicates that many MS-13 
gang members hold wage-paying jobs and are not focused 
primarily on income-generating crimes, such as drug dealing, 
differentiating them from the typical street gang. Rather, MS-
13 often engages in violence for the sake of violence--to 
increase the notoriety of the gang and to cause communities to 
fear the gang and its members.
    In fact, in 2016, the most frequently reported crime 
committed by MS-13 was assault. The signature weapon used by 
MS-13 is the machete. As noted, however, MS-13 members also 
commit murder, often targeting victims who they perceive as 
disrespecting the gang.
    For example, in September 2016, MS-13 gang members brutally 
beat two young girls to death in a suburban cul-de-sac--Nisa 
Mickens and Kayla Cuevas. Nisa and Kayla were 15 and 16 years 
of age. They were high school students. Shortly before her 
murder, Kayla had a schoolyard argument with an MS-13 gang 
member. In collaboration with the Federal Bureau of 
Investigation's (FBI's) Long Island Safe Streets Task Force, 
the Suffolk County Police Department arrested their murderers, 
and they are currently being prosecuted by the United States 
Attorney's Office for the Eastern District of New York.
    In response to heinous acts by MS-13, the Suffolk County 
Police Department launched a gang eradication strategy 
targeting MS-13, which, to date, has resulted in over 200 MS-13 
arrests of more than 150 individual MS-13 gang members. Our 
strategy is as follows: We collect a tremendous amount of 
intelligence on the gang, with the specific objective of 
identifying MS-13 gang members and hangouts. And, we assign 
police officers to specific gang members to aggressively and 
relentlessly target the members and the locations where they 
frequent. This targeted enforcement suppresses crime, results 
in the collection of intelligence, and generates valuable 
evidence for Federal prosecutions down the road.
    As we engage in this targeted enforcement, we are working 
hand in hand with our Federal law enforcement partners to 
strategically select MS-13 gang members for Federal prosecution 
under the Racketeer Influenced and Corrupt Organizations (RICO) 
statute, which is a very effective tool to dismantle gangs, 
such as MS-13.
    We recognize, however, that targeted enforcement as well as 
enhanced patrols will not, alone, lead to the eradication of 
MS-13 from our communities. As law enforcement weeds out gang 
members from our neighborhoods, we need to invest in school-
based and community-based programs to reduce gang recruitment 
and gang enlistment. MS-13 preys on our most vulnerable young 
people. If we do not provide the structure for these young 
people, MS-13 will.
    To this end, we use an arsenal of community-based 
intervention strategies, such as custom notifications, call-
ins, and youth conflict insertions. And, we also work closely 
with our schools to identify at-risk children early on, to 
intervene in effective ways to prevent them from joining gangs 
or to assist them in getting out of a gang.
    One specific segment of our population that is particularly 
vulnerable to gang recruitment are our UACs. From 2014 through 
March of 2017, 4,624 UACs have been placed in Suffolk County, 
alone--making it one of the largest recipients of UACs in the 
country. While the vast majority of these children are good 
kids seeking a better life in the United States, they are 
vulnerable, because they are young, unaccompanied, adjusting to 
a new country, culture, and language, and seeking a sense of 
belonging. And, some of them do not have the structure or 
support system in place to help their transition. Due to these 
circumstances, we have seen a small percentage of UACs fall 
victim to gang recruitment and gang victimization.
    In sum, while the vast majority of UACs live law-abiding 
lives, the vulnerability of some of these children creates a 
source of recruitment for MS-13. And, we must provide necessary 
support to these kids--or MS-13 will.
    To highlight ways in which the Federal Government can 
further assist local governments on this critical public safety 
issue, I respectfully suggest the following:
    More Federal prosecutors to prosecute RICO cases against 
MS-13 gang members. For example, we work with the Long Island 
Criminal Division of the United States Attorney's Office for 
the Eastern District of New York. They have only 11 line 
assistants and 4 supervisors--despite the fact that districts 
with comparable or smaller populations have significantly more 
Assistant United States Attorneys (AUSAs). Indeed, if provided 
with sufficient AUSAs, the Suffolk County Police Department 
could launch a pilot program in collaboration with the FBI and 
the U.S. Attorney's Office, whereby every MS-13 arrest could be 
screened for possible Federal prosecution. This would increase 
the number of Federal prosecutions of MS-13 gang members, 
taking dangerous individuals off of our streets--and likely 
generate significant intelligence due to the incentives in the 
Federal system for defendants to cooperate with law 
enforcement.
    Second, improved intelligence sharing among law enforcement 
agencies throughout the country--perhaps by creating a singular 
database with information relating to identified MS-13 gang 
members. This system could include automatic notifications to 
local agencies when information is added regarding an 
individual who is of interest to that agency. Such a database 
would encourage multi-jurisdictional operations and allow local 
police departments to be more proactive in targeting MS-13 gang 
members in our communities.
    Third, additional Federal funding to offset patrolling 
costs associated with ``hot spot policing'' in areas affected 
by MS-13 activity.
    Fourth, additional Federal funding to fund gang prevention 
and intervention programs tied directly to the number of UACs 
placed in our communities, as they are some of the most 
vulnerable to MS-13 recruitment.
    And, lastly, improvements to the UAC program, including--
but not limited to--increased screening and compliance 
monitoring of sponsors, notification of placement to school 
districts and local governments, and increased funding for 
post-placement services.
    In closing, I want to thank the Committee for its time and 
its commitment to this very important issue, as well as for the 
opportunity to appear before it today. I look forward to 
working with the Committee and all of its Members and its 
staff. Thank you.
    Chairman Johnson. Thank you, Mr. Commissioner.
    Our next witness is Detective Scott Conley. Detective 
Conley is the lead investigator for the Chelsea Police Gang 
Unit in Chelsea, Massachusetts. Detective Conley has been 
serving the public for over 22 years, including serving as the 
Task Force Officer in the Boston Field Office. Detective 
Conley.

     TESTIMONY OF SCOTT M. CONLEY,\1\ DETECTIVE, CRIMINAL 
  INVESTIGATIVE DIVISION, CHELSEA POLICE DEPARTMENT, CHELSEA, 
                         MASSACHUSETTS

    Mr. Conley. Chairman Johnson, Ranking Member McCaskill, and 
distinguished Members of the Committee, it is my honor to 
address you today on behalf of the citizens of Chelsea, 
Massachusetts.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Conley appears in the Appendix on 
page 515.
---------------------------------------------------------------------------
    My name is Scott Conley, and I have been a member of the 
Chelsea Police Department (CPD) for over 22 years. To provide 
context for my testimony today, I have included a brief 
biography. I would highlight that I currently serve as a 
detective with the Chelsea Police Department's Gang Unit as 
well as being a Task Force Officer for the Federal Bureau of 
Investigation's North Shore Gang Task Force, which is funded by 
the Federal Safe Streets Initiative.
    Chelsea is a city in Suffolk County, Massachusetts. It is 
directly across the Mystic River. As of 2017, Chelsea had an 
estimated population of 42,828. It is also the second most 
densely populated city in Massachusetts, with a total area 
covering just 2.5 square miles.
    Chelsea is a diverse, working-class city. It is one of only 
three Massachusetts cities in which the majority of the 
population identifies as Hispanic or Latino. Chelsea's 
residents enjoy a large and thriving Central American 
population.
    In 2014, our community, as well as surrounding cities and 
towns, experienced a significant increase in the number of 
teenage students entering the schools from Central America. For 
the most part--a large majority of these students were 
hardworking in their pursuit of the American dream. But, there 
was a second type of student entering our schools as well: the 
MS-13 gang member, straight from El Salvador, Honduras, or 
Guatemala, with nothing but malice on his mind, looking to 
further the influence of his gang and to recruit as many of the 
above-mentioned children into the MS-13 gang as possible. These 
children were entering our country across the Southern Border 
as UACs. They were coming to communities that have a strong 
Central American population in an attempt to be reunited with 
family members. Upon arrival to the metropolitan Boston area, 
they found themselves in a very vulnerable position.
    Some of these individuals--some of them were being reunited 
with family members that they had not seen for 14, 15, and even 
16 years. Some were being reunited with mothers and fathers 
that had moved on and started their own families and did not 
welcome the child to be a part of it. And, at worst some of 
these UACs went into a sponsorship program with a so-called 
``concerned adult'' that had no interest in the child's well-
being. As gang investigators, we know that this combination of 
breakdown in family structure, individuals wanting to belong, 
and the child's thought that they were in need of protection 
makes that child a perfect candidate for gang recruitment--and, 
in this case, recruitment by MS-13.
    I have been investigating the MS-13 gang in Massachusetts 
for 15 years. Over the course of those years, I have seen the 
gang's membership numbers increase and decline. The most recent 
increase--and the most significant increase--began in 2014. The 
city of Chelsea, as well as surrounding cities and towns, saw 
an uptick in street-level violence associated with MS-13 and 
its rival, 18th Street Gang.
    At first, this violence was isolated to mostly armed and 
unarmed assaults, but it soon developed and evolved into 
coordinated attacks on rival gang members and students within 
our schools.
    Some of these attacks resulted in homicide. Homicide 
investigators have detailed the most brutal, premeditated and 
horrific crimes committed at the hands of MS-13. They are an 
organization that has no respect for human life. They kill on 
demand and without mercy. They often use cutting instruments, 
like machetes, knives, and even box cutters to inflict the most 
damage on the victims as possible. This is how they spread 
their influence, this is how they intimidate, and this is how, 
if left unchecked, they can take over a community or--in the 
case of El Salvador--influence an entire country.
    In 2016, as a result of a 3-year investigation conducted by 
the North Shore Gang Task Force and Homeland Security 
Investigations (HSI), the U.S. Attorney's Office charged 61 
leaders, members, and associates of MS-13 in a RICO conspiracy 
involving 6 murders and 22 attempted murders. We do not view 
this investigation as a case but, rather, as a part of our MS-
13 program. The multi-agency approach is critical to any 
successful MS-13 program. That program depends on closely 
coordinated investigative measures by a law enforcement team 
consisting of the FBI, specifically, in Massachusetts, the 
North Shore Gang Task Force, HSI, the FBI Transnational Anti-
Gang (TAG) offices in El Salvador, Guatemala, and Honduras, the 
Massachusetts State Police (MSP), and various local police 
departments within communities containing a strong MS-13 
presence. This program also requires close coordination with 
the U.S. Attorney's Office and local district attorney's (DA's) 
offices.
    The multi-agency approach is critical to any successful MS-
13 program. Also critical is an appropriate balance between 
criminal prosecution and deportation. To really get to the 
heart of the problem in the metro Boston area, we needed to 
investigate and prosecute a high volume of MS-13 members, 
including the entire leadership. Along the way, we used 
deportation, tactically, to remove dangerous individuals whom 
we were unable to prosecute either because of age or inability 
to gather sufficient evidence. We worked closely with our HSI 
partner to ensure that we were targeting the right individuals 
for deportation and providing HSI with the evidence it needed 
to ensure that the deportation would occur.
    Now that we have taken out a large portion of the 
leadership and membership, we continue a three-part strategy 
consisting of: developing human sources for continued, large-
scale criminal enterprise investigations and prosecutions; 
using the intelligence--the sources we have developed for our 
prosecutions to assist local district attorney's offices and 
investigators in our case with three or four pending 
investigations and prosecutions of MS-13 murderers involving 
juvenile defendants; and using deportation to disrupt MS-13 
criminal operations.
    It takes a task force approach with the most sophisticated 
investigative techniques to combat a transnational threat. Each 
local, State, and Federal partner offers a unique skill set to 
the team. It is my opinion that it is critical to mission 
success that these efforts are supported with efficient funding 
and appropriate recognition by the U.S. Government.
    Thank you.
    Chairman Johnson. Thank you, Detective.
    Our final witness is Chief of Police Thomas Manger. Chief 
Manger has been the Chief of Police in Montgomery County since 
2004. Chief Manger began his law enforcement career in 1997 
with the Fairfax County Police Department (FCPD). Chief Manger.

 TESTIMONY OF J. THOMAS MANGER,\1\ CHIEF OF POLICE, MONTGOMERY 
     COUNTY POLICE DEPARTMENT, MONTGOMERY COUNTY, MARYLAND

    Chief Manger. Thank you. Chairman Johnson, Ranking Member 
McCaskill, and distinguished Members of the Committee, my name 
is Tom Manger. I am the Chief of Police in Montgomery County, 
Maryland. It is a community of one million people, one-third of 
whom were not born in this country. I am also here representing 
as President of the Major Cities Chiefs Association (MCCA). 
That is an association with the largest 69 police departments 
in the United States. I want to thank you for this opportunity 
to address the Committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Manger appears in the Appendix on 
page 522.
---------------------------------------------------------------------------
    Chairman Johnson pointed out in his remarks that MS-13 has 
been around, in the United States, for over 40 years. They 
started on the West Coast. Ten years later, they started 
showing up on the East Coast. And, since the time that they 
have gotten here, MS-13 has evolved into one of the most 
violent and murderous gangs in the world.
    It has progressed from a group whose members, certainly in 
my jurisdiction, started off committing petty crimes and were 
initially considered to be more of a juvenile delinquency 
issue, as opposed to anything else. And, now they have 
escalated into acts of extortion, aggravated assaults, and 
murders. As a result, my department and others in the 
Washington, D.C., region formed a dedicated investigative unit 
that is solely focused on gangs and continues to target MS-13 
and other gangs.
    Over the last 20 years, my department, in partnership with 
our regional and Federal law enforcement partners--along with 
the U.S. Attorney's Office--have prosecuted numerous cases 
against MS-13 and its primary rival, the 18th Street Gang. With 
each major prosecution, the county experienced a period of 
relative inactivity from the gangs--only to have them reemerge 
after reconstituting their ranks and reestablishing their 
criminal enterprises.
    Beginning about 2 years ago, in June 2015, Montgomery 
County began to experience a spike in gang-related homicides. 
This marked increase correlated with the breakdown of a truce 
between the gangs and the El Salvadorean government--and a 
significant increase in that country's homicide rate.
    This year, Montgomery County has not seen a spike in those 
homicides by MS-13, but this is because we have just completed 
a major Racketeer Influenced and Corrupt Organizations case 
that the task force officers from Montgomery County and Prince 
George's County, in the D.C. region, and agents from the Drug 
Enforcement Administration (DEA) and Homeland Security 
Investigations conducted, which netted several indictments of 
top Maryland-based MS-13 leaders.
    Coincidentally, we had two MS-13 gang members that were 
murdered in an altercation when an unidentified suspect at a 
local shopping mall got into a confrontation with them and 
stabbed both of the individuals to death.
    There was another highly publicized incident earlier this 
year, where a 15-year-old runaway from my county was killed in 
a neighboring jurisdiction by MS-13 gang members and 
associates. This certainly reminds us that, while we have seen 
a bit of a decline in the homicides this year, it reminds us 
that our work against gangs must continue.
    It is important to note that, during this same timeframe, 
my jurisdiction experienced seven more homicides that were 
attributed to two other local gangs or ``crews.'' These 
murders, by the neighborhood crews, appear to be motivated by 
illegal drug transactions, whereas, the MS-13 gang murders 
appear to be based on the victim's perceived or actual 
affiliations with rival gangs. Furthermore, committing a 
homicide is a means for gang members to elevate their status 
within the gangs. What also distinguishes the MS-13 murders is 
the premeditation, brutality, and callousness in which they 
were committed--with many of the victims suffering from 
multiple blunt force traumas and stab wounds as well as left in 
shallow graves in isolated wooded areas.
    In addition to the homicides that I have mentioned, we have 
also heard from community members that MS-13, which, 
historically, extorted money from solely illicit businesses, 
such as bordellos and unlicensed cantinas, are now collecting 
``rent'' from legitimate Latino business owners and residents 
in certain apartment complexes. In some instances, if the 
victims of these extortions refuse to pay the fee demanded by 
the gang, the gang members return with detailed information on 
the intended victims' family members still living in Central 
America. The victims here in the United States know that that 
threat of violence to their extended family in their native 
country is a true possibility and that the perpetrators are out 
of the reach of U.S. law enforcement.
    This same coercive tactic is used to get young adults to 
join gangs or do tasks on their behalf. The UACs that come into 
our country are particularly vulnerable to gang recruitment. 
The gangs surf the Internet, building dossiers on potential 
recruits and gathering information on their social networks, 
both here and back in their countries of origin. The data from 
social media is then used to entice or coerce new prospects. In 
at least two of the recent MS-13-related murders committed in 
my jurisdiction, the victims were identified, targeted, and, 
ultimately, lured to their deaths after they developed 
fabricated social media relationships and accepted false 
invitations to meet with female MS-13 associates, posing on the 
Internet with promises of having sex with the unsuspecting 
victims.
    Technology also plays a role in hampering law enforcement's 
investigations against gangs and other transnational criminal 
organizations (TCOs). In our recent case with the DEA and HSI, 
investigators learned that gang members were using commercially 
available encrypted applications to plot their criminal 
activities. These applications and other technologies are part 
of the growing, larger issue of criminal organizations ``going 
dark'' and exceeding the current abilities of both local and 
Federal law enforcement to legally monitor their 
communications--even with a court order.
    I want to also mention that my colleagues in corrections 
have mentioned that there has been a marked and dramatic 
increase in the number of MS-13 gangs in our jails and prisons. 
This dramatic uptick in that population has impacted the 
ability for our corrections professionals to keep these 
individuals segregated. It has impacted staffing and the safety 
of corrections officers (COs).
    Let me just finish by offering two recommendations to the 
Committee to address this growing problem.
    First, I believe that Congress can and should fund Federal, 
State, and local task forces to focus on gangs. They could be 
modeled after the Joint Terrorism Task Forces (JTTF) and should 
have a single national and coordinated infrastructure, led, 
primarily, by a Federal Agency, with significant input from 
local departments. These regional gang task forces will need 
the full spectrum of support, from centralized intelligence 
sharing and analysis to prosecution in the U.S. Attorney's 
Offices, where Federal grand juries and firm sentencing have 
had the greatest impact on disrupting these gangs. The Senate 
has previously enacted legislation to accomplish this purpose, 
but it was never approved by the House of Representatives.
    Senator McCaskill, you mentioned that sometimes we have an 
impossible job. For my last recommendation, I urge Congress to 
act to balance citizens' right to privacy with law 
enforcement's need to lawfully monitor and intercept electronic 
communications, regarding criminal activity and potentially 
deadly plots. The expanding issue of ``going dark'' must be 
addressed at the Federal level to afford local law enforcement 
and our Federal partners the legislation and the tools they 
need to legally access the encrypted communications that are 
used to coordinate criminal activities.
    Thank you for holding this hearing. And, thank you for the 
assistance that you provide law enforcement throughout our 
Nation.
    Chairman Johnson. Thank you, Chief. Senator Lankford has to 
leave, so I will yield my position to Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Mr. Chairman, thank you very much.
    Gentlemen, thank you--not only for being here, but also for 
the preparation, for this time, for the incredibly compelling 
testimonies, and for the issues that you bring and the 
complexity of what you deal with every day. We appreciate your 
work very much.
    All three of you mentioned the interaction between MS-13 
and what is happening in Central America. Several of you 
mentioned, specifically, the coordination efforts between 
Central America and law enforcement here--both Federal and 
their law enforcement in that spot.
    What can we do to help facilitate greater cooperation--
whether that be fingerprint sharing, identity--background 
information between individuals that are being deported from 
here to back there--as they are trying to receive gang members 
back there--but also individuals that are moving this direction 
as well? So, what coordination is missing? Because, MS-13, 
obviously, is a strong Central American--especially 
Salvadorean--presence there. What can we do?
    Chief Manger. I would just say that you touched on a couple 
of things that we need to do. The first, is our ability to 
remove identified MS-13 gang members that have been arrested or 
convicted of crimes. Oftentimes, we have--not only in Central 
America, but in other nations in our world--countries that will 
not accept their residents back. And, we need to remove them 
from our country. And so, if we can work on that issue, it 
would be very helpful.
    And, as I mentioned in my testimony, the truce that was in 
place between gangs in El Salvador and their government really 
did impact things in our country. And, when that truce broke 
down, it created a spike in violence in our country.
    Senator Lankford. What you are saying is, the gang truce 
broke down in El Salvador----
    Chief Manger. That is correct.
    Senator Lankford [continuing]. And it affected the violence 
directly, here in the United States?
    Chief Manger. Yes, sir.
    Senator Lankford. OK. What other resources--what other 
cooperation do we need from Central American countries?
    Mr. Conley. I had the privilege to just return from El 
Salvador. And, with my position with the FBI's task force, I 
have been able to go down there approximately half a dozen 
times. I just returned as recently as Saturday. The FBI has in 
place, in El Salvador, the TAG group. Their success prompted 
them to have another TAG placed in Honduras and Guatemala. What 
I believe we are seeing up in the metropolitan Boston area is 
the inability to refer to a database that does not just cover 
local MS-13 members, but MS-13 members nationally, as well as 
internationally. And, I feel like a database, where the input 
was from both El Salvador and the United States, would assist 
in the vetting process of these UACs that are crossing the 
border.
    A lot of times, in El Salvador, they have information that 
the individual may have gang ties--possibly not a member--and, 
in return, in the United States, we have information that the 
individual has gang ties--whether or not he or she is a member. 
And, it would be a great asset if that information found its 
way to a clearinghouse, where they would have access to that 
internationally, nationally, and even at the local level.
    Senator Lankford. All three of you mentioned something 
along those lines. Is the FBI the correct depository for that? 
Because, trying to set up something new, obviously, is an 
additional cost, an additional level of bureaucracy, and 
everything else. Is there enough of a relationship with the 
gang task forces--locally, with the FBI and their gang task 
forces--to say the FBI should be tasked with having this 
database--all local folks be able to have access to it--
international and national?
    Mr. Conley. In the metropolitan Boston area, which I can 
speak on with confidence, we speak to the FBI TAG in Central 
America, specifically Guatemala and El Salvador, on a weekly 
basis. The Massachusetts State Police speak to the FBI TAG in 
El Salvador and Guatemala maybe even more often than that. So, 
it would be my opinion that the FBI already has in place those 
resources--and to expand those resources would probably be the 
best course.
    Senator Lankford. OK. Mr. Sini?
    Mr. Sini. I agree wholeheartedly. As I mentioned in my 
testimony, this database is critical--mission-critical to 
facilitating effective collaboration and eradicating these 
gangs from our communities here.
    What we are seeing for the first time on Long Island, is 
direct connections with the young gang members to El Salvador. 
So, in the past, we have seen connections from gang members in 
Suffolk County and on Long Island to the west coast. Now, it is 
directly to El Salvador, Guatemala, and Honduras. So, your 
question is directly on point.
    In addition to the database, I would just add, you know, we 
work very closely with the FBI in Suffolk County, through the 
FBI Safe Streets Task Force. However, a broad special operation 
division may also be worth taking a look at. My understanding 
is that that is essentially a multi-Agency organization. And, 
that could be a division that could assist in this type of 
database.
    What is very helpful is, when we have a number pop in 
Suffolk County--a phone number--and we share that with our 
Federal partners abroad, who have assets in Central America--
and the type of analysis and intelligence that they can gain 
from a single number is scary--when you see all of the 
connections--but also extremely helpful.
    Senator Lankford. OK. So, what is missing in this database 
that does not already exist? Because, it sounds like the 
cooperation is there and the relationships are already there. 
What is missing in this database? Is it just that it has not 
been launched? Because, the information is there.
    Mr. Conley. It is my opinion that we have a series of 
individual databases that do not always connect nationally and 
internationally. And, I think it would be an asset to be able 
to connect them internationally--again, because that would not 
only assist us with knowing who is coming into our community, 
but also would assist the governments within Central America in 
knowing, at times, who is coming back. And, from conversations 
with government officials in El Salvador, that was one of the 
things that they were struggling with--is that, as their 
resources--to include the FBI's TAG--addressed the MS-13 
problem locally, in El Salvador--and they may arrest 20 or 25 
individuals--they said that it is just a short time later that 
a plane arrives and 50 more gang members are brought back to 
their country. And, they have to continue the process again.
    So, it is important to address the problem in El Salvador 
if we are going to take a really hard look at the problem that 
we are experiencing here, in the United States.
    Senator Lankford. Thank you.
    Mr. Chairman, I just have a quick comment on this. This is 
something that the Senate Appropriations Committee has already 
started on. In fact, yesterday, we had a hearing on State and 
Foreign Operations, appropriations regarding Central America, 
specifically, and some of the investments and the way they have 
been targeting how we spend money in our foreign aid and how we 
need to be able to target this--specifically, dealing with 
violence in those areas, because it has an exact connection to 
what is happening here. I would encourage cooperation between 
those two Committees and whatever we can do with the FBI to be 
able to help them finish this database.
    Chairman Johnson. It sounds to be pretty much a common 
solution here. So, we will work together with you on that. 
Senator McCaskill.
    Senator McCaskill. When you all identify a gang member who 
is in this country illegally, are you getting an immediate 
response from ICE for deportation?
    Chief Manger. When we arrest them, we typically do. We can 
identify them. It is not until they are arrested and 
fingerprinted--the fingerprints get to the Department of 
Homeland Security (DHS)--that they identify them as someone 
they would be interested in, yes.
    Senator McCaskill. And, let me ask about the countries who 
will not take them back. And, the problem that you just laid 
out very well to us, just that, when El Salvador arrests 25 
leaders, we send them back 50 more to take their place from 
this country. Have we had any problem with either Guatemala or 
El Salvador refusing to take any of the people that we have 
arrested for gang activity here--to send back there--that are 
not in this country legally?
    Mr. Conley. I would not be the subject matter expert to 
answer that question.
    Senator McCaskill. Have you all ever encountered the 
situation of not being able to get rid of a gang member that 
you are holding because a country will not receive them back?
    Mr. Conley. In Massachusetts, and specifically in the task 
force that I work in, we have not had a problem--we do not know 
of a problem where the country did not take them back. There 
have been road blocks at times, when an individual committed a 
crime and was placed in custody--was up for deportation--and 
the Federal judge refused the order of deportation. But, that 
would be completely different than the country not taking them 
back.
    Senator McCaskill. Right. That is a whole other issue.
    I know you all have talked about money for regional task 
forces. I think this is one of those areas where we have to be 
really careful with the budget the President presented, 
because, while they are putting more money into border 
security, we cannot forget that a lot of the High Intensity 
Drug Trafficking Area (HIDTA) money--a lot of the money that--
Byrne JAG grant money, I mean--you all know what these programs 
are because your departments depend on them--especially for 
interagency task forces. Having firsthand experience at this--
this money is not wasted. This is not soft stuff. This is what 
is giving you the tools. So, I just want to make that comment, 
because the President's budget was not kind. The skinny 
budget--and the new budget that has been presented--was not 
always kind to programs like that.
    Let me ask you about prosecutors. You talked, Commissioner 
Sini, about more line U.S. Attorneys--and I get that RICO has 
tools that local prosecutors do not have within the RICO 
umbrella. But, are you getting cooperation from local 
prosecutors on these assaults--on these felonies? Is there not 
enough cooperation from your local DAs on this? Because, all of 
these crimes, obviously, are State crimes--not Federal crimes. 
Assault is not even a Federal crime. Really, murder is not 
either. So, I am just curious as to what the local cooperation 
has been.
    Mr. Sini. So, as I mentioned before, part of our strategy 
is to target these gang members and make street arrests. And, I 
mentioned we have made over 200 MS-13 arrests. The vast 
majority of those arrests are prosecuted by our local district 
attorney's office. So, in that regard, we get excellent 
cooperation from the district attorney's office.
    Where I would improve the collaboration among the police 
department, the U.S. Attorney's Office, and the district 
attorney's office is--oftentimes you are able to develop 
probable cause and have the ability to arrest an individual on 
local or State murder charges much sooner than you are able to 
make a Federal murder RICO charge.
    Senator McCaskill. Right.
    Mr. Sini. So, what I would like to see--if the machine was 
running perfectly--is that once we have probable cause (PC)--
once we have probable cause to make that State murder charge, 
that person is arrested and prosecuted in the State system. If 
it turns out that we are able to make that into a Federal RICO 
charge, we can bring that case over to the U.S. Attorney's 
Office. And, it becomes a collaborative effort. Perhaps, you 
have a special assistant district attorney (ADA) in the U.S. 
Attorney's Office and a special assistant district attorney----
    Senator McCaskill. Right, so it is coordinated.
    Mr. Sini. Exactly.
    Senator McCaskill. Yes. Improved screening and post-
placement services were also some of your recommendations. I, 
certainly, am aware of the post-placement services issue. We 
had a whole hearing--Senator Portman and I did on the Permanent 
Subcommittee on Investigations (PSI)--about the incredible 
problem of HHS not really--I mean, there has been some--put the 
gang issue aside. There has been some horrendous treatment of 
these children, in terms of being forced into child labor and 
other issues. And, clearly, I think that is something that we 
need to continue to focus on.
    Let me finally just ask you this. It is my understanding, 
Commissioner and Chief, that neither one of your departments 
will be participating in the 287(g) program. Is that correct?
    Mr. Sini. That is correct.
    Senator McCaskill. And, would you explain briefly why you 
will not be participating in 287(g)?
    Mr. Sini. Although we believe that it is mission-critical 
to collaborate with the Department of Homeland Security to 
remove dangerous gang members from our streets, we also 
simultaneously have to create an environment in which 
undocumented individuals feel comfortable coming to law 
enforcement with information about crimes. So, therefore, we do 
not, for example, inquire into the immigration status of those 
individuals who are coming to the police as a witness, as a 
victim, or as someone merely seeking police assistance. In the 
same vein, we believe that, if we entered into a 287(g) 
agreement, it could compromise our mission in creating that 
environment and could hurt our ability to make cases where we 
need to encourage witnesses and victims to come forward.
    With that said, whenever we arrest an individual for a 
crime--misdemeanor or felony--and that person is not here 
legally, we automatically notify the Department of Homeland 
Security.
    Senator McCaskill. And, Chief Manger, your department was 
listed on ICE's list of jurisdictions that supposedly did not 
cooperate with them. Obviously, what the Commissioner just 
described is the ultimate cooperation. It is paying attention 
to your public safety mission, which has to be foremost. You 
are the only one that answers 911 calls. I am not aware of 
anybody else in the entire criminal justice system that answers 
911 calls, besides your departments. And so, what was the 
downfall that resulted in you being listed as a department that 
failed to cooperate with ICE? And, what was the impact on your 
ability to, in fact, put criminals in prison?
    Chief Manger. The biggest challenge that I have had is to 
try and make sure that what a number of our elected officials 
have said is not misinterpreted by our Federal colleagues. The 
fact is, we are not now--nor have we ever been--a sanctuary 
jurisdiction. We have found, we believe--because, as I 
mentioned, Montgomery County is one-third immigrant when you 
look at our population. And, I think, the Commissioner 
described it perfectly. We have to find that balance for what 
is right for public safety in our jurisdiction. If people are 
afraid to come forward and report crime--afraid to come forward 
as witnesses to crime--our jurisdiction is less safe.
    So, we have found that balance. We do not inquire about 
people's immigration status. However, if we arrest someone, we 
cooperate fully with ICE. We respond to every one of their 
inquiries. The issue where I think many jurisdictions run into 
a challenge--and we have been talking to the Department of 
Homeland Security about this forever--is the issue of the 
detainers. And, I think many people look at the issue of 
whether we honor a detainer or not--that is, hold someone 
beyond when they would normally be released--as a political 
decision. It is not. It is a legal decision. We have been 
instructed by the Federal Circuit--the Fourth Circuit--we have 
been given instructions by our attorneys that we can hold these 
folks until the time when they would be released. At that 
point, we will notify ICE they are being released. If ICE can 
come down and get them, they are welcome to them. We will 
notify ICE when they are going to be--we will give them notice 
ahead of time when they are going to be released, if we have 
that information.
    We had a case recently where ICE took the opportunity to 
put a press release out, saying that Montgomery County released 
a dangerous person back into the community. It was a mistake. 
We had a detainer. We should have honored it. It was unexpected 
that a judge was going to release this person and we did not 
notify ICE. I say ``we.'' It was our Corrections Department. 
And, it was a mistake. It was fixed the next day. The person 
was taken into custody the next day.
    Senator McCaskill. But, that does not overcome the press 
release.
    Chief Manger. It does not overcome it, but the fact of the 
matter is, we are doing the same thing that Suffolk County is 
doing--the same thing that about 90-plus percent of the 18,000 
police departments in this country are doing. We have found 
that balance, where we do not want to be the immigration 
police, but we absolutely cooperate and help our Federal 
partners.
    Senator McCaskill. Make no mistake, you guys are handling 
95 percent of the violent crime that occurs in this country--
not the Federal authorities.
    Thank you, Mr. Chairman.
    Chairman Johnson. I will take Senator Lankford's 
questioning. Then, it will be Senator Hassan.
    On that same line of questioning, is there any Federal law 
that you would want to see changed or modified to help you do 
your job, as it relates to this gang activity and your dealing 
with ICE, in terms of detainers and immigration law?
    Chief Manger. We are bound by case law. And, when we are 
informed by our attorneys that we would be liable for false 
imprisonment if we do not release someone when they are 
entitled to be released, that is a problem. And so, if there 
can be a change in the law that gives those detainers the 
strength of a warrant--because, if we have a warrant, we will 
hold someone. And, that is, I believe, the easiest solution: to 
get a warrant to hold somebody. That gives us the legal 
authority to do so.
    Chairman Johnson. So, again, you are concerned about your 
liability. And, I have heard the same thing, in terms of county 
sheriff's departments in Wisconsin. There are some civil cases 
out there that hold them liable if they detain people. So, it 
is really giving you that liability protection to be able to 
actually detain people in this country legally.
    Chief Manger. That is correct. And, believe me, there is 
not a police department in this country that does not want to 
hold someone who is a danger to their community. And, if we can 
use that person, who has already committed a crime that has 
gotten them locked up in the first place--if we can use 
deportation as a tool for that individual, I am perfectly happy 
to remove that person from my community. But, I cannot run 
afoul of the law in doing that.
    Chairman Johnson. I am going to come back to the strategy 
of using deportation as opposed to arrest and imprisonment. 
But, I first want to get to something pretty basic.
    It was interesting being briefed for this. I have not been 
a prosecutor. I have not been involved in the whole issue of 
gangs. My assumption going in was that MS-13 would have been 
primarily there as drug traffickers and human traffickers. Kind 
of splitting this out, the reason people join gangs--we have 
talked about how they do not have people here and they do not 
have family here. This is a type of family. But, they are also 
extorted to join the gang as well.
    Can you just tell me, what is the purpose of MS-13? From 
the gang's perspective, why are they recruiting and why are 
they extorting? What is their main activity? I will start with 
you, Commissioner.
    Mr. Sini. Sure. They recruit to sustain themselves. And, 
they are a criminal organization. Their main objective is to 
exist and to be feared. And, there is no question that they 
engage in criminal economic activity. Many of them sell drugs. 
Many of them commit extortion, robberies, and burglaries. But, 
they do not engage in those criminal activities as their 
primary purpose of existence.
    Chairman Johnson. Do you understand why that is just 
surprising to hear that? Their main purpose is just to exist, 
to be an entity, and to have people loyal to them--and the 
loyalty extends to killing people with a machete. Does 
everybody else agree with that? Is that the main purpose?
    Mr. Conley. Just to add to what the Commissioner said, we 
have to look at MS-13 in the United States as it evolves--just 
like we have to look at MS-13 in El Salvador as it evolved. On 
the east coast of the United States, MS-13 is just getting a 
foothold. On the west coast of the United States, like Senator 
McCaskill and Senator Johnson have said, they have been there 
for decades. And, we actually imported MS-13 back to El 
Salvador. But, now they have begun to evolve. And, on the west 
coast, they do control drug-trafficking markets. They do have 
connections with other criminal organizations, such as the 
Mexican Mafia, La Eme.
    In El Salvador, almost everybody pays. Almost everybody 
pays some sort of extortion payment to MS-13. In some cases, it 
might be as little as one dollar. But, when a household in El 
Salvador might only bring in $250, that one dollar is pretty 
significant.
    So, we need to learn from the patterns of MS-13 on the West 
Coast and the patterns of the criminal activity of MS-13 in El 
Salvador in order to be prepared for what MS-13 is ultimately 
going to try to put into place on the East Coast. So, to 
piggyback on what the Commissioner said, as of right now, they 
are just maintaining. And, they really do just go out and 
commit the most heinous of violent acts--some of which, as a 
22-year investigator, I have never investigated before--to 
include cutting off of limbs and the attempt to cut off a 
victim's head with a machete.
    So, at this moment, on the East Coast and in Boston, like 
the Commissioner said, some of them are employed. Some of them 
go to work at 6 o'clock in the morning. If you go into certain 
restaurants in Boston to arrest an MS-13 member, sometimes the 
business owner says, ``He was one of my best workers.''
    So, right now, they are maintaining. They are getting their 
numbers up--and we can see that, from the metropolitan Boston 
area all the way down to Charlotte, North Carolina. But, they 
are going to evolve, and they are going to attempt to take over 
the trafficking markets of narcotics--just like they have on 
the West Coast and just like they have in Central America.
    Chairman Johnson. So, again, they have different 
specialties. In El Salvador, it is extortion. On the West 
Coast, it is drug trafficking. And, we are not quite sure how 
it evolves, but you would suspect that it would be drug 
trafficking or human trafficking.
    Mr. Conley. I believe that, on the East Coast, they are 
still trying to get leadership into the right places, including 
Boston, Long Island, Virginia, the Carolinas. And, I think once 
they establish that leadership base, you will start to see a 
more sophisticated gang that does not just solely commit 
violent acts, but also controls some sort of narcotics market 
and possibly even illegal trafficking.
    Chairman Johnson. So, let me ask how they differ and how 
they are similar to other major gangs. Maybe Chief Manger can 
answer that.
    Chief Manger. Our neighborhood crews, which are not ethnic-
based--that is, they are more diverse, in terms of their 
membership--they are the ones that typically have--when we have 
homicides relating to those, it is usually drug-related. The 
homicides related to MS-13, it is just because they can, 
because they will, and because they want to instill that fear. 
It is because they think, ``If you are not in my gang, then you 
are my enemy and I am going to kill you.''
    The economic support that MS-13 was engaged in was very 
unsophisticated for a long time. They were thinking, ``We are 
going to rent an apartment in some old apartment building, and 
we are going to put a couple of young women in there and get 
$20 for every guy that wants to come in.'' And, this would 
operate for about a week. When it would finally come to our 
attention, we would be able to shut that down. It would just 
pop up somewhere else. Not very sophisticated. And, it was 
usually that they were extorting money and making money from 
unlawful operations. Now, they are going to Latino-owned 
businesses and charging them ``rent.'' And, they are using 
coercion, fear, and threats, as the victims know that these 
people have the ability and the willingness to carry out--to 
now extort money from legitimate business. This is a trend that 
we are seeing more recently.
    Chairman Johnson. Really quickly, because I did just want 
to ask you--you talked about the instances of a couple of 
individuals lured through the Internet to their deaths. Was 
that an initiation rite? Why would they lure individuals just 
to kill them?
    Chief Manger. In one case, it was because they believed 
that that individual was part of a rival gang.
    Chairman Johnson. OK.
    Chief Manger. In another case, it was that this individual 
had been approached and had been resistant to joining MS-13. 
So, it was basically to teach them a lesson. No more reason 
than that.
    Chairman Johnson. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you, Mr. Chairman and Ranking Member 
McCaskill, for this hearing.
    First of all, to the three of you, thank you for your 
service as law enforcement officers--and please thank your 
families for all of us, too. I am the former Governor of New 
Hampshire, and I had the great privilege of being the chief 
executive over the New Hampshire State Police, so I am very 
appreciative of the time, effort, and commitment that you all 
provide to your fellow citizens.
    And, I am very grateful for your testimonies today. I am 
very grateful, not only for the information, but also for the 
suggestions and recommendations. I think they will help all of 
us as we work together to combat this gang and other public 
safety threats.
    I did want to delve a little bit more into some of the 
discussion of what we think the root causes of gang violence 
are. We know we have to ensure that our Federal, State, and 
local law enforcement officers have the resources necessary to 
keep our communities safe--and I thank you for your 
recommendations in that regard.
    But, to touch on something that Commissioner Sini talked 
about a little bit, having a strong law enforcement presence in 
our communities is only really one part of the solution. We 
have to ensure, too, that there are social and educational 
programs in place--and that those are adequately resourced--to 
try to divert young people away from joining gangs in the first 
place.
    So, in my State, one of the important social programs that 
has helped us to address youth violence was a mentorship 
program between police and students. It is known as Manchester 
Police Athletic League (MPAL). It paired cops with kids in a 
mentorship capacity, in order to help kids grow, make the right 
choices, and become productive members of the community. Among 
other things, they teach kids boxing, how to exercise, and how 
to work out. And, it has been an important tool used to combat 
gang recruitment and crime, but also to combat drug abuse as 
well, which, as you know, is a particularly devastating issue 
in my State.
    So, I want to ask you all about the social and educational 
programs in your communities, and how they seek to address some 
of the root causes of gang violence. And, I also just wanted 
your thoughts on what we saw yesterday from the President's 
budget, which has eliminated Federal support for key 
educational programs, such as dropout prevention and after-
school support activities.
    I assume that you think Federal dollars for this kind of 
work are important, but I would love to hear your thoughts. 
And, maybe, Commissioner, we could start with you.
    Mr. Sini. Sure. So, that is a critical piece to addressing 
this significant public safety issue. In Suffolk County, our 
police officers--they do such fantastic work in terms of 
mentoring our students--our children in the communities--and 
doing outreach to all of our children, but particularly our at-
risk youth. And so, we do that in a variety of different forms. 
We do it directly with police officers. We also have launched a 
new program called ``Change,'' which is with the Department of 
Probation and a not-for-profit organization that specializes in 
gang prevention. And, the idea is early intervention, trying to 
identify at-risk children early on to connect them to services 
that they may need--whether it is social work services, 
psychological counseling, or medical services--and providing 
that support, so that they can do well in our communities--and 
also involving the family, because that is key. The family is 
going to have the biggest impact on this child's life, so there 
needs to be an approach to involve the family in that process. 
And, involving law enforcement in these social programs is 
critical for several reasons.
    One, police officers tend to be very warm, very 
intelligent, and very charismatic individuals, so they tend to 
be good at this.
    Senator Hassan. Yes.
    Mr. Sini. But, also, it creates that trust between law 
enforcement and the community. So, to the extent that people 
are not comfortable with law enforcement, mentoring programs, 
like the one you launched in your home State, help break those 
barriers. So, it also achieves that objective.
    And, I would just add that, in terms of early intervention, 
what better place to start than with the UACs, because we know 
they are coming over and they are at risk--they are vulnerable 
by nature of coming to this country illegally, by not being 
with their parents, by being so young, and by being new to this 
country. And, to identify them early on would be key, which is 
why notification to local governments, I think, would be very 
helpful. And, yes, I vehemently support Federal dollars for 
community policing.
    Senator Hassan. Thank you very much. Detective.
    Mr. Conley. I will be brief. I feel that the two gentlemen 
to the left and right of me are in a position to speak on 
policy better than I am. But, I will tell you, in Chelsea, 
Massachusetts, my chief, Brian Kyes, has always said that if we 
are reacting to a crisis, then we have already lost. We need to 
be proactive and prevent the crisis. And, in Chelsea, we have 
many programs, especially addressing the UACs--whether it be 
after-school programs that involve policing or whether it is 
the Massachusetts General Hospital (MGH) in Chelsea that 
provides social resources to these children.
    Like the Commissioner said, you have to involve the family. 
You cannot take a 15-year-old and think that 30 minutes after 
school playing basketball is going to have a lasting effect. It 
may open up some doors for a relationship, but, once that door 
is open, you need to find out where that individual is going 
home to--because we can spend all day playing basketball, but 
where is that 15-year-old going home to? And, as law 
enforcement agents, it is our job to know where that 12-year 
old, 13-year old or 14-year-old individual is going home to.
    And so, we spend a lot of time--I probably spend just as 
much time fighting gangs as I do trying to spend time with 
individuals in Chelsea, preventing them from joining the gangs 
in the first place.
    So, you have to get the families involved. And, when it 
comes to these UACs, it is important to help us identify what 
the crisis is. A lot of these individuals are coming here 
across the border, and they already have Post-Traumatic Stress 
Disorder (PTSD) setting in. Just the crossing, in and of 
itself, we have heard horror stories about.
    One of the important things that I think would greatly help 
the State of Massachusetts, and specifically my community, 
Chelsea, is if we knew--if there was some sort of notification 
that came to the police department or came to the city, 
notifying us that a UAC was about to join our community. That 
way, we can search them out to offer resources, instead of them 
having to seek us out.
    And, lastly, when it comes to MS-13--inherently they are 
not very trusting of the government. And, a lot of the social 
programs that we have in Chelsea--to include what is called 
Reaching Out to Chelsea Adolescents (ROCA)--the MS-13 members 
see that as a government agency. They do not know that it is a 
social agency. So, it does hinder their ability to do reach-out 
work.
    But, just in closing, the proactive approach--the reach-out 
work, preventing these individuals from joining the gang at the 
recruitment stage is critical.
    Senator Hassan. OK. Thank you. Chief.
    Chief Manger. Every single one of us, when we were 12 years 
old or 13 years old started to sort of mature out of always 
being under Mom and Dad's umbrella. And, you want to have--
every one of us wanted a sense of belonging to something--a 
sense of being able to be somewhere where we had people that 
cared about us--friends. For some of us, it was sports. For 
some of us, it was other school activities. For some, it was 
church.
    The UACs that come here are just a perfect recruitment 
opportunity for gangs, because they come with none of that, but 
they all want that.
    Senator Hassan. Right.
    Chief Manger. So, the key, I think, is to be able to--as 
soon as possible--when we identify those folks--is to give them 
the wrap-around services. And, I am telling you, Scott is right 
on. And, I wrote down, ``walking home,'' because we can do 
that--we can, for these kids, but then, they have to walk home. 
And, that is where they are vulnerable.
    Senator Hassan. Yes.
    Chief Manger. So, the early intervention programs--the 
intervention programs--we have something called a ``street 
outreach network,'' where we have counselors who are specially 
trained--many of them are former gang members, who, actually, 
intervene with these kids. They help them get out of the gangs 
and, if possible, keep them from joining gangs in the first 
place. The challenge, I think, is to identify these kids, and 
the one place where these kids will all end up where you might 
be able to connect with them is schools. And, the problem is, 
the schools are hesitant--and I understand this--why they are 
hesitant. They are hesitant to get involved in the gang issue. 
But, that is where you can actually find these kids. But, the 
schools have been reluctant--understandably--to start getting 
involved in those gang intervention kind of programs. But, if 
we can somehow coordinate a little bit better--without running 
afoul of all of the protections that are in place for these 
young kids--the early intervention is the way to go, 
absolutely.
    Senator Hassan. Thank you. And, Mr. Chairman, thank you for 
your indulgence. Gentlemen, thank you all very much--and be 
safe.
    Chairman Johnson. Sure. By the way, I just have to chime 
in. You were talking about how, if you are dealing with a 
crisis, you are already too late. The primary goal, I believe, 
of Federal policy should be to stop the flow or drastically 
reduce it. If we focus on that, then you are not having to 
worry about dealing with all of these UACs--because it has been 
a crisis level. It is creating all kinds of havoc. So, our 
focus ought to be on how we stop or dramatically reduce that 
flow. Senator Harris.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. Thank you. Chairman, as Attorney General 
(AG) of California, I convened a group of law enforcement 
leaders in our State--and other experts--over quite some period 
of time to produce this report, ``Gangs Beyond Borders.'' And, 
it is an examination of transnational criminal organizations 
and what we need to do to stop them. I would like to submit 
that for the record.\1\
---------------------------------------------------------------------------
    \1\ The Report submitted by Senator Harris appears in the Appendix 
on page 532.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection. I appreciate it.
    Senator Harris. Thank you.
    I want to thank each of you. As a career prosecutor, I 
started out as a baby DA, and I have prosecuted, personally, 
everything from low-level offenses to homicides. I was the 
elected DA of San Francisco and the Attorney General of 
California. And, I cannot thank you each enough for the work 
you do, in particular as local law enforcement. Perhaps, it is 
a bit of my bias, but I do know that local law enforcement 
disproportionately shoulders the burden and responsibility for 
dealing with these issues, including transnational criminal 
organizations. And, it is too bad that others--when we talk 
about transnational criminal organizations, they automatically 
go to international law enforcement or Federal, when, in fact, 
local law enforcement really does carry an extreme burden for 
dealing with it at the local level. So, I want to thank each of 
you and the men and women of your departments for the work they 
do.
    So, as local law enforcement, we know that, first, 
transnational criminal organizations--and it is in the report 
also--certainly they are involved in the trafficking of guns, 
drugs, and human beings. They also, like everyone else in 
society, have adopted technology in the way they do their work. 
Among their many reasons for being--the Chairman asked that 
question--one of the highest reasons for being is to make 
money. But, they profit off of illegal activities that rise to 
the level of also being lethal. And so, they are also involved 
in money laundering. They are involved in government fraud. 
They are involved in piracy. They are involved in identity 
fraud. All of those are pursuits of illegal and organized 
criminal associations.
    But, as local law enforcement, one of the things that we 
know is that one of the best tools that we have is the trust 
that we have between ourselves and the communities we serve. 
And, when there is a break in that trust, it breaks our ability 
to do the work that we need to do--and the men and women of 
your departments need to do, which is to concern themselves 
with public safety. So, I would like to talk for a moment about 
the importance of the relationship of trust between local law 
enforcement and the communities you police.
    You are aware that this Administration has been looking at 
a policy of withholding Byrne JAG and Community Oriented 
Policing Services (COPS) funding--Federal funding to local law 
enforcement if you do not cooperate with immigration 
enforcement. We have talked about that previously.
    First, tell me, how much do your departments rely on Byrne 
JAG and COPS funding to do your everyday work? Can you tell me? 
Each of you, if we can just go down the line.
    Mr. Sini. We are a recipient of Byrne JAG grant money in 
excess of $1 million, and it helps us fulfill many of our 
mission-critical objectives.
    Senator Harris. And, if that funding were withheld, what 
would that mean, in terms of your ability to perform your 
everyday duties and responsibilities?
    Mr. Sini. We would have to secure funding from another 
location, which, in these days, in my county, that would be 
extremely challenging.
    Senator Harris. OK. Thank you.
    Mr. Conley. I would mirror what the Commissioner said. My 
department relies greatly on that funding. And, if that funding 
was taken away, it would seriously inhibit our ability to do 
what we do every day.
    Senator Harris. Thank you.
    Chief Manger. Ditto. We typically have around $1 million at 
any given time of that kind of grant money. The programs that 
we operate with that money are absolutely critical to our 
mission and are doing phenomenal things for the residents of 
our county.
    My hope is that with--there is beginning to become--we are 
getting more clarity as to what a sanctuary jurisdiction is and 
what would make a jurisdiction ineligible for these kinds of 
grants. As we get that clarity, I think that my concern is 
lessening a little bit--because nowhere did I see that a place 
like Suffolk County or Montgomery County would have to change 
what we are doing. We do, in fact, cooperate with Federal 
authorities. But, again, we have--but the fact that we have 
elected not to become 287(g) jurisdictions and do immigration 
enforcement ourselves would not make us ineligible for those 
kinds of grants.
    So, I am hopeful that, as we get more clarity, it will not 
impact the majority of jurisdictions.
    Senator Harris. Thank you, Chief. And, on your point about 
your department's statement to your community that you will not 
be a 287(g) city and department, let us talk a little bit 
about, again, the relationship of trust, as it relates to what 
we ultimately want to do, which is to not just arrest the bad 
guy, but to prosecute him, get a conviction, and lock him up. 
What we want to do is make sure that there is going to be 
serious, swift, and severe accountability and consequence, in 
particular for those who commit violent crimes in our 
communities.
    As we both know, the only way that we get to that goal is 
to prove a case in a court of law. And, the only way we are 
going to prove a case in a court of law is if we present 
evidence to a jury or a judge. Correct?
    Chief Manger. Yes.
    Senator Harris. And, most of the time, that evidence is not 
going to be coming from the bad guy himself. It is going to be 
because we have produced witnesses to the crime who will come 
and testify before a jury in an open courtroom. Is that 
correct?
    Chief Manger. That is correct.
    Senator Harris. And, would you not agree, then, that what 
has happened over the course of many months, since these 
statements have been made about a policy that would have local 
law enforcement cooperate with ICE, is that there has been a 
chilling effect, in particular around witnesses who are 
immigrants--be they documented or undocumented?
    Chief Manger. Certainly, when the Executive Orders (EOs) 
were first issued--right after the new Administration came into 
office--there was absolutely great fear in our community about 
just how those Executive Orders were going to be implemented.
    Senator Harris. And, you mentioned you are the head of the 
Police Chiefs----
    Chief Manger. The Major Cities Chiefs Association, yes.
    Senator Harris. Yes, and thank you for that. So, you 
probably know Chief Charlie Beck in Los Angeles (LA).
    Chief Manger. Very well, yes.
    Senator Harris. So, Chief Beck has reported that, in March, 
he witnessed a 25-percent drop in reports of sexual assault and 
a 10-percent drop in reports of domestic violence among Latinos 
in Los Angeles from the same time in 2016. Similar reports have 
come from Houston, Texas, and Salt Lake City.
    Would you agree, that when the people of our communities 
think that they are going to be deported, many victims--in 
fact, especially victims--will endure crimes like domestic 
violence or sexual assault, rather than be deported and removed 
from their children or the community that they know?
    Chief Manger. I do believe that. And, when we became--we 
were very quickly aware of the fear in our community, and we 
redoubled our efforts to ensure--to let the folks in our 
community know that our policy has not changed and that they 
had no reason to fear coming forward to report crimes or being 
witnesses.
    Now, I will just tell you a very quick story. We had a 
domestic homicide where a man driving down a busy street had 
abducted his estranged wife, and she tried to jump out of the 
car. He grabbed her by the hair, pulled her back in, shot her 
in the head, and then pushed her out onto the street. There 
were two men who were within the distance that you and I are 
away from where this happened. They heard her scream. They 
heard the shot. They saw what occurred. Both of these men were 
day laborers. They were standing in a parking lot at a 
convenience store waiting to be picked up for work. Neither man 
spoke English. I do not know their immigration status, but 
people can certainly speculate.
    As we arrived, these men came forward and spoke to one of 
my officers about what they saw. And, had we not had the 
relationship with the community that we have and the policies 
that we have, my guess is that both of these men would not have 
been there when officers arrived to start investigating that 
case.
    Senator Harris. Thank you. Thank you all for your service. 
I really appreciate it.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman. And, again, we 
are all announcing our street credibility on this. I, too, was 
the Attorney General of my State, like Attorney General 
Harris--and I had the wonderful opportunity of leading teams in 
drug enforcement, which inevitably led to gang enforcement. 
And, it was very difficult sometimes for people in a State like 
North Dakota to understand that gangs have infiltrated their 
community. I think sometimes one of the challenges we have in 
States--unlike California--is getting people to admit they 
actually have a problem.
    I do not think there is any doubt that MS-13 has become a 
cancer in our society and that it is metastasizing in every 
community, including communities in my State, especially Native 
American communities, where it is easier to infiltrate.
    I will tell you, like any cancer, we need a whole range of 
treatments. If you get breast cancer, you cannot just rely on 
surgery. You are going to have chemotherapy; you are going to 
have radiation; you are going to have after-treatment. And so, 
I want to focus, as my colleague Senator Hassan focused, on 
prevention--and Senator Harris focused on what we need to do to 
actually have prosecutions. I want to talk about deportations.
    I, through an interesting set of circumstances, actually 
spent about an hour and a half--2 hours in an El Salvadorean 
prison with leaders of MS-13. They rely on those gang leaders 
to maintain some kind of order within the prison system, 
because, otherwise, with the overcrowding, there is no way they 
could maintain that population. And so, you see MS-13 basically 
embedded throughout the culture and throughout the society--the 
civil society of these communities.
    In San Salvador, I also went to a religious-based anti-gang 
program where a lot of it was job training and a lot of it was 
trying to find opportunities, so that future gang members or 
people who were just on the cusp of recruitment could find an 
opportunity other than joining the gang for economic stability 
in their lives.
    Now, with that said, I will tell you that the biggest 
problem I see is extortion. And, when you deport a gang 
leader--an MS-13 gang leader--back to the community--they are 
going to find a family member--and they are going to extort. 
And, all of the great wishes and outreach that you are talking 
about today may not be all that valuable if they think that if 
they do not join in this country, that Grandmother will not be 
alive the next day.
    And so, the extortion piece of this is incredibly difficult 
to get at. And, I think we cannot solve this problem without 
thinking about stabilizing the Triangle countries--especially 
the country of El Salvador. They are still suffering from the 
residuals of a civil war. That created the vacuum, in terms of 
security and safety that gangs moved into. And, there has never 
been, in my opinion, a very effective reestablishment of the 
rule of law. And, they act in that way.
    Chairman Johnson and I also witnessed some of the 
collaborations between our institutions. And, we actually saw 
the Colombian folks come up and try and help to establish a 
rule of law and order in these communities.
    My question to all of you is--and then I will just let you 
take it from here: When you are arresting or when you are 
dealing with the community, how much of this do you hear? And, 
have you thought about how, if only we could have a program in 
El Salvador and if only we could work more collaboratively with 
our counterparts in the Triangle countries--particularly, El 
Salvador--we could get a better handle on what is happening 
here? How much thinking have you done about international 
collaboration? I guess that would be my question.
    Mr. Conley. To answer that, I just want to touch base on 
what Senator Harris was asking. In my community, where the 
majority of the community identifies as Hispanic or Latino, 
promoting trust of law enforcement is priority number one. A 
lot of our community is made up of undocumented residents. And 
so, furthering trust with that sub-community is priority number 
one. And, we have gone to great lengths to assure them that, 
yes, since January, ICE has had more of a presence in our 
neighborhoods. But, the Chelsea Police Department does not 
assist ICE operations when they are solely for immigration 
issues.
    Senator Heitkamp. I can appreciate that one of the 
challenges that you have is just within the community, writ 
large, where you are. But, it is going to be really hard to 
convince that kid not to join a gang and not to act the way 
they are going to act if they think that their parents or if 
they think that their grandparents are at risk back home in El 
Salvador.
    Mr. Conley. Right, and that is a true----
    Senator Heitkamp. How do we solve that?
    Mr. Conley. And, that is a true statement. We do have 
evidence of individuals being pressured into joining gangs 
because of some sort of tie directly with El Salvador. Senator, 
I think you said it at the beginning of your question. We need 
to secure--we need to stabilize those countries. They are 
fleeing for a reason. And, when they do, they are coming to 
this country under the worst possible conditions.
    So, like yourself, I have been to many of the jails and 
prisons in El Salvador. And, they have resources that are 
minimal at best. And so, there is no reason for that individual 
to actually attempt to reform while they are in prison. They 
are just looking to get out and just go right back to where 
they were before they went in.
    So, to answer you directly, yes, we need to make an effort 
to assist those Central American countries--specifically, El 
Salvador, where I have been--in stabilizing.
    Senator Heitkamp. From the standpoint of the chiefs of 
police, how do you see an opportunity to collaborate with your 
counterparts in the Triangle countries, particularly El 
Salvador?
    Chief Manger. It is a challenge. I mean, we certainly have 
partnered with our international partners--and 10 of our 
members are from police departments from Canada. We have had 
associate members from the United Kingdom (U.K.). The 
relationship between law enforcement agencies--especially our 
Federal partners--and the law enforcement agencies of some of 
these countries 
is--we have to build the trust there. You have to be able to 
trust that that information that you are sharing is not going 
to be misused.
    There is no question that the premise of your remarks--that 
what is happening there has an impact on what goes on here. 
Unfortunately, as a local police chief--even as president of 
Major Cities Chiefs--I am not sure that local law enforcement 
has much control or much influence over the issue that you are 
asking about.
    Senator Heitkamp. And, I think my point would be, then we 
are just treating symptoms, because we are not going to get 
ahead of this unless we work collaboratively. And, I completely 
understand the hesitation to share intelligence or any kind of 
information back and forth. You do not know who you are talking 
to. And, I think these are all efforts that we are working on 
to try and improve the professionalism, the honesty, and the 
integrity of police departments. We have seen some steps in the 
right direction. They definitely are not there.
    But still, like Senator Harris and Senator Hassan, I 
understand the critical role that local law enforcement plays. 
And, when we make mistakes here, in terms of national policy 
and national cooperation as well as the utilization of the 
resources we have in this country--when we do not do our job 
internationally, you guys are going to continue to be stressed 
and have this same issue.
    And so, I just wanted to bring that up, because I think a 
lot of people think, ``Well, deport them home.'' Deporting 
people home may, in fact, mean sending one of the worst 
perpetrators, who now has the ability to extort any number of 
additional people, home to achieve a criminal result right here 
in the United States.
    So, thank you so much for everything that you do. We want 
to be great partners with you. And, thank you so much for your 
testimonies.
    Chief Manger. Thank you.
    Chairman Johnson. Senator Daines, good timing.

              OPENING STATEMENT OF SENATOR DAINES

    Senator Daines. Thank you. Precision, like the Blue Angels, 
here. Thank you, Mr. Chairman. And, thank you all for 
testifying today--and for your service in the law enforcement 
community.
    You all mentioned brutal crimes in your testimonies. These 
are hard to stomach. We just had a very brutal crime in Montana 
last week, where we had a deputy sheriff that was murdered by a 
man, who was eventually killed by law enforcement. We had the 
funeral yesterday. We need to do everything in our power to put 
an end to the violence and to cut off the flow of resources 
that fuel it.
    In Montana, while we do not have a sizable transnational 
criminal organization presence, we do feel the impacts of their 
illicit activities. MS-13 has established relationships with 
drug-trafficking networks that distribute in Montana. Virtually 
all methamphetamine in Montana is trafficked from south of the 
border.
    We have seen the price drop in half with the influx. And, 
now, more than 90 percent of all drug offenses in Montana are 
methamphetamine-related. Additionally, we have seen a nearly 
fivefold increase in positive heroin drug tests. This impacts 
our communities, from increases in violent crime to a 
disturbing rise in child endangerment and foster care 
caseloads.
    Detective Conley, at previous hearings with Homeland 
Security Secretary Kelly, we discussed domestic demand for 
drugs as a key contributor to the violence in Central America. 
I understand that you recently returned from El Salvador, 
training their police. From your perspective, how can we 
reinforce their law enforcement efforts?
    Mr. Conley. While I was down there, I had the opportunity 
to speak to high-ranking officials within their law enforcement 
community. And, what they said over and over again was that 
what they were experiencing in El Salvador was the 
sophistication of gang members that were coming back from the 
United States. Just recently, in El Salvador, they started 
doing Title III of the Omnibus Crime Control and Safe Streets 
Act of 1968 (Wiretap Act) wiretaps. Up until 2015, they did not 
even have the ability to do that.
    In El Salvador, what they need most, in regards to 
combating MS-13 and their rival, the 18th Street Gang, is not 
just the technology, but also the personnel that knows how to 
utilize that technology. And, most importantly--and I know the 
Department of Justice (DOJ) has gone to great lengths to 
provide this--they need training for their prosecutors. A lot 
of their prosecutors did not have the adequate training needed 
to prosecute a sophisticated gang, like MS-13 or the 18th 
Street Gang.
    When I was down there--not just this most recent time, but 
a couple of years ago--we found that their homicide detectives 
did not do homicide investigations. For the most part, they 
just responded, wrote a report, and then moved on to the next 
homicide.
    So, to answer your question directly, training is what they 
need. They want to combat the gang. El Salvadoreans that live 
in El Salvador--they despise the MS-13 gang just as much as El 
Salvadoreans that live in Massachusetts. They despise the gang, 
and they applaud all efforts to rid their area of the gang. 
But, to answer your question, it is training.
    Senator Daines. So, to follow up, what else do you think 
these countries could be doing to stop the production of 
methamphetamine--to stop the production of these other drugs, 
before they are even shipped to the United States?
    Mr. Conley. I think it would be outside of my scope of 
expertise if I were to answer that. I am sure that the same 
techniques that we would use here in the United States--I mean, 
it would require a joint approach--a joint effort to totally 
stop the traffic of narcotics.
    Senator Daines. Commissioner Sini, in your testimony, you 
discussed the surge to over 400 MS-13 gang members in your 
county, in just a few years. How in the world did that happen?
    Mr. Sini. These are identified gang members in Suffolk 
County, in a handful of hamlets. These individuals are 
certainly comprised of mostly males. They are mostly Latino, 
coming from countries such as El Salvador, Guatemala, and 
Honduras. Many of them came to the country illegally. A small 
percentage of them are UACs and a small percentage are also 
lawful residents--and even American citizens.
    Certainly, we are concerned that MS-13 is recruiting 
younger people. As we target them, they recruit even younger. 
And, as we mentioned earlier, the UACs are certainly vulnerable 
to MS-13 gang recruitment. And, that is why it is so important 
to address that population.
    Senator Daines. So, speaking of gangs--and I hail from a 
State that has a number of Indian reservations. I am told, by 
State law enforcement, that gangs often find Indian 
reservations to be a safe haven. Do you have any thoughts--and 
I will open this up to the panel. Do you have any thoughts on 
how we can boost collaboration between the tribal communities 
and law enforcement?
    Mr. Sini. Suffolk County has reservations in its 
jurisdiction. And, we have had issues involving crime--
particularly, gangs--on our reservations. In one instance, what 
we have done is we have entered into a memorandum of 
understanding (MOU) with the tribe to essentially provide 
police services to that reservation. There are obviously very 
complex issues involving jurisdiction and sovereign territory. 
And, that memorandum of understanding set forth clear terms, 
upon consent with the reservation and the tribe, to accept 
police services. That document has gone a long way in improving 
relations between the Native Americans living on that 
reservation and the Suffolk County Police Department. And, we 
have been able to collaborate with the tribal council to target 
those criminals, because the----
    Senator Daines. How long ago did you put that MOU in place?
    Mr. Sini. The MOU has been in place for several years.
    Senator Daines. And, have you seen actual results?
    Mr. Sini. Yes, absolutely. We were able then to work hand 
in hand with the tribal council to target problem individuals 
and problem locations, because there is no arguing and there is 
no debating whose role it is, who is allowed to be there, and 
when we are allowed to be there. So, it facilitates that 
collaboration, and we have an excellent relationship with the 
tribal council on the reservation with which we have that MOU. 
And, just like we would work with a town or a municipality, 
where we partner with their code enforcement and their public 
safety to target, say, a problem home--we have zombie homes in 
Suffolk County--these abandoned homes--or a problem location, 
like a drug spot. We do that with the reservation, and it is 
very effective.
    Senator Daines. Thank you.
    Chairman Johnson. Thank you, Senator Daines.
    Just to give you a little further insight on your opening 
line of questioning, in terms of the law enforcement in Central 
America, when we were down there--one of the biggest problems 
they have--first of all, they are combating impunity and 
corruption. When I first heard that, I kind of--impunity--that 
is a different term. But, then you find out that local law 
enforcement has been provided a not-so-subtle threat when they 
have been given a video showing their families going to church 
or their children going to school. So, that is a pretty brutal 
reminder of why it is pretty tough being local law enforcement 
down in Central America.
    Senator Hoeven--further evidence that we are committed to 
securing our Northern Border--well represented on our 
Committee. You are next.

              OPENING STATEMENT OF SENATOR HOEVEN

    Senator Hoeven. Thank you, Mr. Chairman. I appreciate you 
calling a hearing on this important issue. And, I guess I would 
start out by asking each of you the following: What are we 
doing--what is Customs and Border Protection doing at the 
border, particularly in regard to unaccompanied alien children, 
to make sure that we are trying to prevent the growth of MS-
13--in other words, looking at people who may be trying to come 
across to join MS-13 in this country? And, what is the average 
age for MS-13 gang members?
    Mr. Sini. So, in Suffolk County, the median age of recent 
MS-13--I should say active MS-13 members, based on our arrests, 
is 18. And, it certainly ranges from--the largest age range for 
active MS-13 gang members is 14 years old to 29 years old. And, 
certainly, there are younger MS-13 gang members--and older--but 
that is our biggest bulk.
    In terms of what the Department of Homeland Security is 
doing, my understanding is, they are transferring 
responsibility over to the Department of Health and Human 
Services at an early stage. And, I think I will speak for 
Suffolk County--what we would like to see is more collaboration 
between local governments and the Department of Health and 
Human Services and the Office of Refugee Resettlement (ORR), in 
terms of the placement of these children in our communities--
including notification to school districts and local 
governments, so that we can be proactive in dealing with this 
very vulnerable population.
    Senator Hoeven. Well--and also the immigration courts, 
because if unaccompanied alien children, particularly, say, 
young males in that 14 year old or 15 year old to 18 year old 
age bracket--if they are being released into the community, 
then does that not create a real concern that some of them may 
get recruited and end up as MS-13 gang members?
    Mr. Sini. Yes, and we have seen that some of them have. 
Now, it is still a very small percentage of the UAC population, 
but, nonetheless, it is of concern to us, which is why we think 
local notification and funding to provide services to these 
children is so important.
    Senator Hoeven. Where is MS-13 drawing their ranks from? I 
mean, you talked about significant growth. Where are they 
drawing that growth from? Where is it coming from?
    Mr. Sini. They are recruiting young people in our 
communities and they are recruiting recent immigrants, because, 
oftentimes, they prey on people's fears. So, recent immigrants 
may not feel comfortable coming to law enforcement. They are 
adjusting to a new culture and society, so they are vulnerable 
at that point. And, they are recruiting also very young people. 
There is one instance where, in Suffolk County, we have 
intelligence of MS-13 gang members recruiting a 10-year-old.
    Senator Hoeven. And, what is the draw?
    Mr. Sini. I think it is a combination of factors. There is 
the draw that ``You can belong to something and we can put some 
money in your pocket. You can get high with us. You will have a 
family. We will protect you.'' There is a sense of cultural 
unity as well. And then, there is the other part: ``By the way, 
if you do not join, you are going to have problems.'' So, there 
is the fear factor as well--the coercion, if you will.
    Senator Hoeven. I guess the same questions, Mr. Conley.
    Mr. Conley. I just wanted to add to what the Commissioner 
said. I could tell you, in my community, if you are a 17-year-
old El Salvadorean that just arrived in the Massachusetts area 
as a UAC, all you have ever known is MS-13 and the 18th Street 
Gang back home. From childhood, that is all you have ever 
known. They control complete city blocks--multiple city blocks. 
They control multiple cities. So, a lot of times, when that 
child comes here and they are confronted--like we spoke about a 
few times--under the worst possible conditions and they have 
one individual come up to them and even speak about MS-13 or 
the 18th Street Gang, that child goes back to what he or she 
knows, which is what MS-13 is in El Salvador. And, they know 
that, once that contact has been made, they only have really 
one choice--and that is to join.
    Now, we have had success with individuals resisting at the 
beginning of that recruitment process, locally. I am talking 
about success locally. We have had success with having that 
individual resist that gang recruitment, and then actually the 
gang, at some point, kind of leaves them alone, because a lot 
of times MS-13 is only looking for individuals that want to be 
MS-13.
    But, under the UAC program, a lot of these individuals were 
coming to homes that did not want them--a parent that did not 
want them--and sometimes we have even had interviews done with 
individuals that did not want to be here--that their 
grandparents said, ``We have raised you long enough. It is time 
for you to go live with your Mom.''
    And then, in the worst-case scenario, the sponsorship 
program, where there was not any vetting taking place--and we 
have horrific stories of individuals living in the worst of 
conditions. And, like everyone on this panel has said in our 
opening briefs, that is the classic vulnerable 15-year-old 
individual that seeks out the identity of the gang and replaces 
it for a broken family structure.
    I have just one more point. I cannot comment on what goes 
on at the border, but I can tell you, from a local law 
enforcement perspective, like the Commissioner said, if we had 
some sort of notification that came to the community--and I am 
not sure how that notification would be made--so that when the 
individual comes here, they have resources provided to them--
whether it be through the schools or whether it be through 
mental health services. But, the worst-case scenario is the 
scenario that we are living with right now, where we get 
notified from the school that 38 new students just arrived from 
Central America. Some are thriving and some are not. And, those 
are only the ones that we can identify, because they are 
seeking out education through the schools or social services 
through medical facilities.
    So, it would greatly assist local law enforcement if some 
sort of notification was done--especially when we are talking 
about 13-year old, 14-year old, and 15-year-old kids.
    Senator Hoeven. Well, that actually goes right to my next 
question. Are our laws sufficient to try to deal with the MS-13 
problem? It sounds like that right there is something that 
would be helpful--and that is some type of notification 
requirement for people coming across the border, so as to 
address where they are going--and that law enforcement would be 
one of the entities at least notified, so that you are aware. I 
mean, we would have to give some thought as how to do it. But, 
that would be my question. Are our laws sufficient so that you 
can try to deal with this problem?
    Chief Manger. I think that our criminal laws are 
sufficient, in terms of dealing with criminal behavior by 
gangs. Where I think we need help--and I do not know whether it 
is new laws or different laws, but if our Department of Health 
and Human Services folks--and they are notified in my 
jurisdiction. Somehow, they are notified when we get these UACs 
sent to our jurisdiction. But, as Detective Conley mentioned, 
oftentimes, these kids--they say, ``I am going to my uncle's 
house. This is where my uncle lives.'' They verify that. What 
they do not do is get enough information about whether the 
uncle is even capable of taking this person in. And then, what 
happens when the uncle does say, ``OK, I will take him,'' and 2 
weeks later says, ``This is not working. We cannot do this.''
    Where are the wrap-around services to help that family and 
to help that child--that individual? And, we need, perhaps, 
better standards in place to make sure that whatever situation 
we are sending that person to is viable--and viable for some 
longer period of time.
    Senator Hoeven. Thank you. Thank you for your work.
    Chairman Johnson. Thank you, Senator Hoeven.
    Again, I just want to thank the witnesses for taking the 
time, for your testimonies and for your thoughtful answers to 
our questions. But, primarily, thank you for your service. We 
all know the risks you are taking. We all have, I am sure, in 
our States, people--police officers and other public safety 
officials--that have given their lives in the line of duty. So, 
we understand that and truly appreciate your service.
    With that, the hearing record will remain open for 15 days 
until June 8 at 5 p.m. for the submission of statements and 
questions for the record.
    This hearing is adjourned.
    [Whereupon, at 11:56 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>
</pre></body></html>
